NATIONAL ACADEMY OF
PUBLIC ADMINISTRATION
For Amtrak’s Office of Inspector General

March 2011




 The Amtrak Office of Inspector General
               Organizational Assessment Phase II

                 Implementation Roadmap Development
                                                   Amtrak OIG Organizational Assessment
                                                                   Phase II Final Report

                               Officers of the Academy

                        Kenneth S. Apfel, Chair of the Board
                           Diane M. Disney, Vice Chair
              Kristine M. Marcy, President and Chief Executive Officer
                           David F. Garrison, Secretary
                            Robert J. Shea, Treasurer

                                         Panel

                               John Kamensky, Chair*
                                  Cheryle Broom*
                                 Harold Steinberg*
                               Regina V.K. Williams*


                                  Project Staff Team

                Mark Schultz, Director, Project Oversight and Delivery
                         Lois Fu, Program Area Director
                         Brenna Isman, Project Director
                       Leslie Overmyer-Day, Senior Analyst
                        Elizabeth Frazier, Senior Advisor
                        Anna Martin, Research Associate
                       Matthew Thomas, Research Associate
                         Chloe Yang, Research Associate


                                                                         * Academy Fellow
________________________________________________________________________

The views expressed in this document are those of the Panel. They do not necessarily
reflect the views of the Academy as an institution (Academy Project Number: 2282).


                      National Academy of Public Administration
                                 900 7th Street, N.W.
                                      Suite 600
                             Washington, DC 20001-3888
                                 www.napawash.org
                       Amtrak OIG Organizational Assessment
                                       Phase II Final Report


This Page Left Intentionally Blank
                                                         Amtrak OIG Organizational Assessment
                                                                         Phase II Final Report


                                EXECUTIVE SUMMARY

Amtrak’s Inspector General (IG) recognizes the need to refocus, reinvigorate, and
maximize the efficiency and effectiveness of the Office of Inspector General (OIG). In
turn, the OIG is committed to improving Amtrak’s management, operations, and delivery
of services to the public and ensuring responsible stewardship of public funds.

In August 2010, an expert Panel of Fellows of the National Academy of Public
Administration (Academy) performed an organizational assessment focused on eight (8)
areas. Within each of these areas, the Academy Panel defined the desired future state;
summarized the OIG’s strengths and weaknesses; identified some ―quick wins;‖ and,
offered best practices. Throughout Phase I, the Panel took into account OIG’s current
state, unique needs, and capacity constraints.

Phase II of the project focused on the development of Implementation Roadmaps in the
following six (6) 1 areas, achieving the desired future state identified in the Phase I
organizational assessment and listed below:

       Internal Communications. Amtrak OIG is an organization with effective
        internal communication strategies that allow all OIG staff to be informed and
        invested in achieving a high-performance, high-accountability organizational
        mission.

       External Communications. Amtrak OIG has constructive relationships with
        Amtrak, Congress, and its other external stakeholders that enable it to gather and
        share information in order to conduct proactive and timely communications while
        maintaining independence and supporting its mission.

       Quality and Timely Work Processes. Amtrak OIG consistently follows
        commonly accepted work practices and standards both within functional areas
        and across locations. Work adheres to established quality standards and, as
        appropriate, is accessible and transparent to OIG staff.

       Work Planning and Prioritization. Amtrak OIG has an annual work planning
        and prioritization process that engages stakeholders in identifying opportunities
        for improvement and risk reduction. This process identifies high value work and
        enables OIG to more effectively allocate its resources to this work.

       Performance Measurement. Amtrak OIG has performance metrics that reflect
        the requirements of the Inspector General Act; meet the expectations of Congress
        and other stakeholders; and reflect the value of OIG work to Amtrak. These
        metrics are integrated into OIG’s operating and performance management
        systems.

1
 The other two focus areas, Independence and Human Capital Management are developing implementation
support materials utilizing internal Amtrak OIG leadership and support.

Executive Summary                                                                                1
                                                      Amtrak OIG Organizational Assessment
                                                                      Phase II Final Report


      Management and Policy Updates. Amtrak OIG maintains and applies current,
       accurate, and consistent policies across the office; has a process to monitor
       changes in the broader external environment that affects its work practices (e.g.,
       Amtrak policies; Yellow Book updates; Council of Inspectors General for
       Integrity and Efficiency information) as well as a mechanism for incorporating
       those changes into internal policy; and the office makes all guidance easily
       accessible to and used regularly by staff.

The Implementation Roadmap Development Process

Each of the six (6) Working Groups were formed and convened for roughly four (4), 3-
hour sessions with 4-6 people participating. Included in these Working Groups were a
senior-level Executive Sponsor, an Initiative Lead, and several other participants
representing a diverse cross section of function, location, and tenure. The Working
Groups discussed the desired future state specific to the focus area; attributes and
behaviors to support this future state at an organizational level; and, specific requirements
to complete the tasks and hold employees accountable.

The Working Groups developed Implementation Roadmaps—explicit Actions and Steps,
along with estimated timeframes for completion of tasks leading to operational and
organizational improvements. In addition, associated Tracking Tools were created to
offer mechanisms for accountability. The Working Groups also produced additional
information to help the Implementation Teams carry out these Actions and Steps.

Pursuant to Phase II, the Academy’s Study Team once again worked with an expert Panel
of Academy Fellows. The Panel provided strategic direction and guidance, while the
staff coordinated the information gathering.


Final Report Structure

This Final Report has been designed to provide users with information and
implementation tools to help structure the transformation process and illuminate the
Actions necessary to effect change. By outlining the Actions and Steps and providing
timeframes in discrete chapters by focus areas, the Academy intends to improve the user-
friendliness of the Final Report and allow individual Implementation Teams to focus on
their assigned tasks. The first chapter serves as an overview of the entire project, while
subsequent chapters are focus area-specific.

As the Implementation Teams begin working together, as well as across the OIG
organization, it is anticipated that meaningful progress will be made towards fulfilling
Amtrak OIG’s mission—providing independent agency oversight of programs and
operations, promoting effectiveness and efficiency, and preventing and detecting waste,
fraud, and abuse.



Executive Summary                                                                          2
                                                   Amtrak OIG Organizational Assessment
                                                                   Phase II Final Report




                                        TAB I

                      The Amtrak Office of Inspector General
                        Organizational Assessment Phase II
                      Implementation Roadmap Development


Subject: Project Overview


Tab I contains an overall introduction to Phase II of the organizational assessment—
Implementation Roadmap Development. Tab I outlines the project goals, background,
scope, methodology, and results. It also identifies the overlaps among the different
Working Groups and highlights the importance of coordination.




Project Overview
                                                Amtrak OIG Organizational Assessment
                                                               Phase II Final Report


                   This Page Left Intentionally Blank




Project Overview
                                                                Amtrak OIG Organizational Assessment
                                                                               Phase II Final Report

I.      Overview of the Implementation Roadmap Development Project
Background

Created by the Rail Passenger Service Act in 1970, the National Railroad Passenger
Corporation—better known as Amtrak—is a government-owned corporation providing intercity
passenger rail service in the United States. Because Amtrak receives significant federal funding,
Congress established an Office of Inspector General (OIG) for it in 1989. The OIG’s mission is
to ―conduct and supervise independent and objective audits, inspections, evaluations and
investigations relating to agency programs and operations; promote economy, effectiveness and
efficiency within the agency; prevent and detect fraud, waste and abuse in agency programs and
operations; review security and safety policies and programs; and review and make
recommendations regarding existing and proposed legislation and regulations relating to
Amtrak’s programs and operations.‖2

Amtrak’s Inspector General (IG), one of 30 Designated Federal Entity IGs, is appointed by and
reports to the corporation’s Board. Headquartered in Washington, DC, OIG has field offices in
Baltimore, Boston, Chicago, Los Angeles, New York, Philadelphia and Wilmington, Delaware
with a staff of approximately 100 employees. It is organized into five areas of responsibility:
Audits, Inspections and Evaluations, Investigations, Management and Policy, and Counsel to
Inspector General. Figure I-A shows OIG’s current organizational structure.

                          Figure I-A: Amtrak OIG Organizational Chart3




In addition to its internal stakeholders, OIG must provide information to external decision
makers in an efficient, reliable and useful manner. Its work is aimed at improving Amtrak’s

2
    http://www.amtrakoig.gov/%28S%28g1ug5aqqeo3qp145lnqh1dzi%29%29/About.aspx
3
    http://www.amtrakoig.gov/sites/default/files/reports/amtrak_oig_www_23g.pdf

Project Overview                                                                              I-1
                                                            Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report

management, operations and delivery of services to the public and ensuring responsible
stewardship of public funds.

Following 20 years under the leadership of its first and only IG, Amtrak launched a
comprehensive search for a successor after the first IG’s unexpected retirement in June 2009.
This period of uncertainty heightened a longstanding debate between Amtrak management and
the OIG regarding the latter’s operational independence. Further, an Audit peer review
concluded in September 2009 that OIG’s policies and procedures were outdated and did not fully
incorporate current Government Auditing Standards.

The Amtrak Board’s desire to transform OIG into an industry-leading model OIG led to the
appointment of Ted Alves, a seasoned member of the IG community, as its IG in November
2009. Critical changes were undertaken within the first six months of his tenure. A Deputy IG
position was created and filled by Tom Howard, another seasoned member of the IG community.
In addition, a separate Investigations Division was created and an Assistant Inspector General
(AIG) for Investigations, Adrienne Rish, was hired and a permanent AIG for Audits (Dave
Warren) was hired. Both of these AIGs bring years of OIG experience as well.

OIG also completed a Strategic Plan for Fiscal Year 2010-2014, which aligns its goals with
Amtrak’s mission and goals. Notably, OIG added a sixth goal related to internal operations:
“Leading by example as a model OIG organization.”

Recent changes have also affected OIG’s annual appropriations and relationship with Amtrak
management. Previously, OIG submitted its budget request to Congress as part of Amtrak’s
annual grant request. To maintain OIG independence and a productive relationship with Amtrak,
Congress determined that OIG should no longer rely on the corporation for its funding. The
Consolidated Appropriations Act of 2010 authorized a direct appropriation of $19 million for
OIG. The act required that Amtrak management and OIG develop a set of relationship policies
and procedures that ―are consistent with the letter and the spirit of the Inspector General Act of
1978.‖ In 2010, the Council of the Inspectors General on Integrity and Efficiency (CIGIE)
confirmed that the new jointly-developed policies and procedures complied with the letter and
spirit of the act.

Phase I: Organizational Assessment

In the spring of 2010, the Academy conducted an independent organizational assessment of the
OIG. The objective was to examine the current operations of the OIG and identify issues and
opportunities in need of further attention by OIG’s Senior Leadership. This examination
included, as initial points of reference, the strategies and Actions identified in Goal Six of the
OIG’s Strategic Plan—Leading by Example as a Model OIG.

Based on the Academy’s extensive research and analysis, the Phase I final report addressed eight
(8) critical areas of focus: Internal Communications (IC), External Communications (EC), Work
Planning and Prioritization (WPP), Quality and Timely Work Processes (QTWP), Independence,
Management & Policy Updates (MPU), Human Capital Management (HCM), and Performance
Measurement (PM).

Project Overview                                                                            I-2
                                                                          Amtrak OIG Organizational Assessment
                                                                                         Phase II Final Report

                   Figure I-B: Organizational Assessment Areas of Focus



                                                            Internal
                                                         Communications




                                        Independence                        Quality & Timely
                                                                            Work Processes




                        Human Capital                                                   Work Planning &
                         Management                                                      Prioritization




                                        Management &                         Performance
                                        Policy Updates                       Measurement




                                                            External
                                                         Communications




For each of these focus areas, the Academy identified a desired future state, key observations,
critical risks, ―quick win‖ opportunities, and long-term recommendations. The Phase I results
formed the basis for Phase II of the organizational assessment—the development of the
Implementation Roadmaps.

Phase II: Implementation Roadmap Development

As part of Phase II, the Academy collaborated with the OIG Senior Leadership to provide
assistance in developing Implementation Roadmaps to guide the critical organizational change
and operational improvements identified in Phase I.




Project Overview                                                                                          I-3
                                                                             Amtrak OIG Organizational Assessment
                                                                                            Phase II Final Report

                        Figure I-C: Roadmap for Organizational Change


                                            Roadmap for
                                       Organizational Change
                                         within Amtrak OIG

                                                                Desired
                                                              Future State


                                                             Transparency

                                                    Adherence to
                                                    QA Standards
                            Participative Culture




                                                       Effective
                                                    Communications
                                                                                 Clear Understanding
                                                                                   of Independence



                                                                    Leadership
                                                                   Engagement




                            Assessment of Organizational
                             Challenges & Opportunities




In consultation with the Academy, OIG’s Senior Leadership identified four (4) focus areas best
positioned for immediate action and most critical to OIG organizational success. These focus
areas are:

      Internal Communications
      Quality and Timely Work Processes
      Work Planning and Prioritization
      Performance Measurement

Subsequently, the following two (2) additional focus areas were identified:

      External Communications
      Management and Policy Updates

On the other two focus areas—Human Capital Management and Independence—the Academy
provided only a limited amount of consultative support.



Project Overview                                                                                           I-4
                                                          Amtrak OIG Organizational Assessment
                                                                         Phase II Final Report

To facilitate the implementation of the Academy’s Phase I recommendations, OIG assembled
Working Groups for each of the focus areas. The Working Groups comprised an Executive
Sponsor, an Initiative Leader, and Staff Volunteers. The goal of each Working Group was to
produce a 12-18 month Implementation Roadmap—a tactical               plan to support the
accomplishment of the most critical improvements identified in the Phase I organizational
assessment—and provide OIG with a Tracking Tool to guide implementation of OIG-wide
changes.

The Working Groups engaged in thought-provoking discussions facilitated by the Academy’s
Study Team, and adopted a framework utilizing open discussion, brainstorming, and at times,
additional research outside of the allotted sessions. Data gathering worksheets were used to
introduce project background, summarize the group discussion processes, develop major Actions
and Steps, emphasize key issues, and clarify the connections among the outputs of the Working
Groups. The worksheets served as the primary tool to guide the discussions and, once populated
with the relevant data (including resource requirements, timelines, team composition, and step-
by-step activities, as well as success metrics and accountability measures throughout the
sessions), became the foundation for the Implementation Roadmaps and associated Tracking
Tools. To ensure that all relevant aspects of each focus area were thoroughly discussed and
recorded, the Academy’s Study Team refined the Tracking Tools at the conclusion of each
session to reflect the major topics and inputs of the wide-ranging discussion. The Tracking
Tools evolved into the Implementation Roadmaps.

Once all of the sessions were completed, each Working Group produced a set of tactical actions,
activities, and timelines. The Roadmaps/Tracking Tools were developed based on the
assumption that the implementation process in each area relies on a 3-5 people group (diverting
25 percent of team members’ work time). The estimated timelines for the Actions in the
Tracking Tool reflect the best guess of Working Group members and are subject to change as
issues arise within the OIG.

In addition to yielding the Tracking Tools, the sessions had broader impacts on the OIG-wide
organization, including building a participative management approach, engaging and
empowering staff members, instituting a sustainable process to improve the organization’s
operations, and creating a sense of ownership of the Implementation Roadmaps.




Project Overview                                                                         I-5
                                                          Amtrak OIG Organizational Assessment
                                                                         Phase II Final Report


                                       Data Sources
The Roadmaps offered here rely upon several sources of data and input, including:

      Tracking Tools.
      Detailed notes captured during each Working Group session.
      Data gathered during the Phase I organizational assessment.
      In the case of Internal Communications, interviews with OIG staff identifying specific
       communication needs.
      Observations and expertise of the Academy’s expert Panel.




Project Overview                                                                        I-6
                                                                                                              Amtrak OIG Organizational Assessment
                                                                                                                             Phase II Final Report

Coordinated Efforts Among Working Groups

A common concern—the overlap among the different Working Groups—was raised throughout
the Working Group sessions. While each Working Group was assigned one focus area, some
issues fell within several focus areas. Going forward, this will require close collaboration to
avoid duplicative efforts. The overlapping areas as identified by the Working Groups are
summarized below.

                              Figure I-D: Overlap Among Working Groups
                           Communications (IC)




                                                                                                                                                  Management (HCM)
                                                                    Prioritization (WPP)




                                                                                           Measurement (PM)
                                                 Quality & Timely




                                                                     Work Planning &




                                                                                                                Communications




                                                                                                                                 Management &
                                                  Work Processes




                                                                                                                                 Policy Updates



                                                                                                                                                    Human Capital




                                                                                                                                                                      Independence
                                                                                             Performance
                                                     (QTWP)




                                                                                                                   External
                               Internal




                                                                                                                    (EC)
 Internal Communications
                                                       1                11                      7                   12               8                 2



 Quality & Timely Work
                                 1                                        3                     6                                    8               10
        Processes


    Work Planning &
                              11                       3                                        5                    5
     Prioritization


Performance Measurement
                                 7                     6                  5                                          5                                 4


  Management & Policy
                                 8                     8
       Updates


 External Communications
                              12                                          5                     5                                                                      9


Human Capital Management
                                 2                    10                                        4



      Independence                                                                                                   9




Project Overview                                                                                                                                                     I-7
                                                                 Amtrak OIG Organizational Assessment
                                                                                Phase II Final Report

1. The Fast-Track Implementation Plan was developed to address the outstanding issues within
   TeamMate 4 and Amtrak Investigations Management System (AIMS)5 identified by the IC
   and QTWP Working Groups. The Working Groups laid out a plan to identify an appropriate
   technical lead for TeamMate, and develop tools, guidance, and training to support a
   consistent approach to using automated project management systems within OIG.

2. In the development of the Implementation Roadmap, the IC group identified several
   activities that require coordination with the HCM group, including the development of a new
   OIG employee handbook, clear guidance for preparing individual performance evaluations,
   and metrics for effective internal communications practices.

3. The QTWP group identified the need to coordinate with WPP team in developing the Quality
   Assurance (QA) process, ensuring that the Annual Tactical Audit planning flows from
   Annual Plan and reflects key goals of OIG Strategic Plan.

4. The PM Working Group focused on the OIG organizational performance measurement,
   while individual performance measurement is a critical component of the HCM Action Plans.
   It is necessary to recognize the linkage between these two areas. The organizational
   performance metrics establish the overall performance goals for the organization, and
   individual performance measures should be aligned with organizational performance metrics.
   The importance of coordinating with the HCM group was emphasized by the PM Working
   Group.

5. Both WPP and the PM groups stressed the importance of identifying the value and
   expectations of key external stakeholders, and it was established that these two teams are
   encouraged to reach out to stakeholders as a joint team (also with the EC group).

6. To support the development and improvement of the QA processes, the QTWP
   Implementation Team will identify a set of performance/accountability measures that could
   be leveraged by the PM team to develop OIG internal performance measures and metrics.

7. The PM emerging Implementation Roadmap includes direction for developing a performance
   data collection and reporting mechanism evaluating OIG-wide performance. The PM
   Working Group may find value in coordinating with IC Working Group to define measures
   to assess internal communication processes.

8. The IC, QTWP and MPU Working Groups all touched on the importance of clearly
   communicating new policies and procedures to OIG staff. Each Working Group looked at the
   issue from the perspective of their own focus: the IC group covered it as one aspect of
   designing rules and guidance for internal communication, the QTWP Working Group
   regarded it as part of developing consistent practices to guide investigations, Audit, and I&E,
   and the MPU Working Group highlighted past challenges in this area and recent efforts to
   overcome them.


4
    TeamMate: Audit department’s information management system
5
    AIMS: Investigations department’s information system

Project Overview                                                                                I-8
                                                           Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report

9. Several of the proposed Actions outlined in the EC Working Group’s Roadmap also support
   the goals of the independence workgroup. These Actions include: developing an approach to
   educate stakeholders on the roles and value of an independent, high-performing OIG;
   establishing an independent OIG brand; and developing tools to guide messaging by OIG
   staff.

10. The QTWP’s development of a communication mechanism to ensure training, planning and
    status updates comply with requirements and certifications will be an integral component of
    the QA process they develop. The QTWP recognizes that they will need to coordinate with
    the HCM Working Group to develop and implement this mechanism.

11. As part of their Action plan, the WPP Working Group recommended establishing
    communications guidance on how staff can support senior leaders with decision making. As
    part of the development of this guidance, the WPP Working Group explicitly recommended
    efforts be coordinated with the IC Working Group to examine existing and potential
    communication challenges.

12. The EC Implementation Team should work with their IC counterpart to share the prospective
    marketing plan with OIG staff and solicit their feedback before releasing it externally. This
    will help bring staff on-board with marketing messages.

As these issues were identified, they were tracked and communicated to avoid a redundancy of
activities. They also were documented to ensure that the correct functional areas and
Implementation Teams were properly acknowledged for their efforts, especially since celebrating
accomplishments and rewarding OIG staff for their dedication to process improvement remains a
key element of success during this time of transition.




Project Overview                                                                           I-9
                                                      Amtrak OIG Organizational Assessment
                                                                     Phase II Final Report


Progress towards Becoming a Model OIG

The identification of the OIG’s key focus areas and the development of Implementation
Roadmaps to guide key activities driving change have helped the OIG demonstrate progress
toward achieving its organizational improvement objectives. These Implementation Roadmaps
and associated Tracking Tools lay a strong foundation for success. As depicted below, the
foundational elements defining and clarifying the role and value of the OIG as well as
supporting the development of the Implementation Roadmaps work together to create a strong
infrastructure for achieving organizational improvement.


                   Figure I-E: Foundation of the Desired Future State




Project Overview                                                                    I-10
                                                          Amtrak OIG Organizational Assessment
                                                                         Phase II Final Report

Conclusion

As the Implementation Teams are created and begin taking advantage of the multiple
opportunities for organizational cooperation and collaboration, it is anticipated these
Implementation Roadmaps will serve as integral components of organizational success and will
result in meaningful progress towards fulfilling Amtrak OIG’s mission:

       The OIG will conduct and supervise independent and objective audits, inspections,
       evaluations, and investigations relating to agency programs and operations to promote
       economy, effectiveness and efficiency within the agency; prevent and detect fraud, waste,
       and abuse in agency programs and operations; review security and safety policies and
       programs, and, review and make recommendations regarding existing and proposed
       legislation and regulations relating to Amtrak’s programs and operations.




Project Overview                                                                         I-11
                                             Amtrak OIG Organizational Assessment
                                                            Phase II Final Report

                   This Page Left Intentionally Blank




Project Overview                                                           I-12
                                                       Amtrak OIG Organizational Assessment
                                                                      Phase II Final Report




                                     TAB II

                     The Amtrak Office of Inspector General
                       Organizational Assessment Phase II
                     Implementation Roadmap Development


Subject: Internal Communications


Tab II contains the Internal Communications (IC) Implementation Roadmap and other
supporting documents developed by the Working Group to guide the activities of the
Implementation Team.


     Internal Communications Implementation Roadmap
     Internal Communications Implementation Tracking Tool
     Draft Communications Plan Development Guide




Internal Communications
                                                         Amtrak OIG Organizational Assessment
                                                                        Phase II Final Report

                          This Page Left Intentionally Blank




Internal Communications
                                                              Amtrak OIG Organizational Assessment
                                                                             Phase II Final Report



II. Internal Communications
Desired Future State: Amtrak OIG is an organization with effective internal communication
strategies that allow all OIG staff to be informed and invested in achieving a high-
performance, high-accountability organizational mission.

The Internal Communications Working Group, headed by Executive Sponsor, Assistant
Inspector General (AIG) for Investigations, Adrienne Rish and Initiative Team Lead Denize
Hammond, was the first group to both begin and finish their planning effort. Internal
communications is a critical area targeted for improvement, as it supports virtually all Office of
Inspector General (OIG) processes, and changes in this area can have positive impacts on other
focus areas.

The Working Group met four times during October and early November, 2010, and identified
four key Actions that frame this Roadmap. The Actions identified by the Working Group reflect
two basic goals:
    1. Improved information sharing, which is supported by tools, in the context of performing
        OIG work (Actions 1 and 2).
    2. Broader and more effective IC practices across the OIG, both top-down and within and
        among functional groups (Actions 3 and 4).

These Actions are described in more detail later in this chapter.

Observations

The Working Group indicated that a substantial shift in the organizational culture needs to occur
- away from a ―need to know‖ communication culture to one of more transparency in the sharing
of information about ongoing and recent OIG work, so that trends, issues and lessons learned can
be more readily identified and incorporated across work units. The challenge of achieving this
shift in culture was discussed in depth during the Working Group sessions, and the
Implementation Team is being advised to: focus on the desired behaviors; build a system of
reward and reinforcement for adopting good communication practices; publicize the positive
outcomes resulting from improved communication; and continuously seek the engagement and
visible support of Senior Leadership throughout the implementation process to sustain
momentum for the effort. Both the difficulty and importance of addressing internal
communications cannot be over-emphasized, as effective communication practices within the
OIG are central to improving the organization in every area.

Characteristics and Behaviors of Improved Internal Communication

In addition to defining specific Actions to implement, the Working Group described a set of
future state characteristics and sample behaviors they would expect to see as a result of improved
internal communication (see chart that follows).


Internal Communications                                                                       II-1
                                                             Amtrak OIG Organizational Assessment
                                                                            Phase II Final Report




 Desired Future State: Amtrak OIG is an organization with effective internal communication
 strategies that allow all OIG staff to be informed and invested in achieving a high-
 performance, high-accountability organizational mission.
     Desired Future State Characteristic            Behavior Supporting the Characteristic
 When the OIG achieves its desired future state, its communications will be characterized by
 process and content that:
  Is proactive                                    Opens access to connecting with the right
  Is productive, timely and efficient                 people, regardless of position
  Is transparent                                  Clearly expresses expectations and offers
  Embraces honesty                                    relevant guidance
  Maintains accountability                        Exemplifies honesty
  Fosters integrity                               Provides relevant, accurate and timely
  Supports two-way information flow                   data
  Is generally accessible                         Is responsive, acknowledging requests
  Empowers users to make informed                     even if they can’t be fulfilled
     decisions                                         immediately
  Clarifies responsibilities and expectations        Takes an approach of mentoring and
  Embodies an open and receptive                      coaching, not criticism
     approach that eliminates the risk of             Is receptive to constructive criticism
     retribution within the OIG                    Uses a respectful and polite tone
  Embraces diversity of opinions and              Is attentive and applies active listening
     perspectives in a respectful way              Keeps all team members ―in the know‖
                                                  Shares pertinent and timely information
                                                      between groups, when appropriate
                                                  Avoids intentionally misleading
                                                      information
                                                   Is receptive to different work styles and
                                                       opinions; respects uniqueness and the
                                                       right to set objectives and make decisions

These characteristics and behaviors represent the manifestation of the desired future state in
operational terms. This effort to define the desired state in more concrete terms was thought
necessary, as ―improved communication‖ is both broad and open to interpretation.

Implementation Actions and Steps

The four Actions designed to improve internal communications each have multiple associated
implementation steps, and the Working Group offered additional information to the
Implementation Team in the form of context, guidance and commentary to help them carry out
these Actions and Steps. This information is presented on the following pages in the
Implementation Roadmap.

Internal Communications                                                                        II-2
                                                             Amtrak OIG Organizational Assessment
                                                                            Phase II Final Report


A Tracking Tool for the Implementation Roadmap addresses the need to identify the suggested
lead for the Implementation Team; timeframes or end dates for completing each Action and its
correlating Steps; and suggested measures or targets to assess progress toward accomplishing the
Actions. While the Implementation Roadmap serves more to guide the implementation activities
with guiding principles and tactical support, the Tracking Tool addresses metrics for identifying
progress of and accountability for the outlined processes. The Tracking Tool is included as an
addendum at the end of this chapter.

Action 1. Develop business rules and guidance that support internal information sharing,
making cross-functional and cross-location communications an integral part of performing the
work of the OIG. Identify appropriate opportunities for improved internal information sharing
and transparency that will help improve organizational performance.

The purpose of this Action is to develop practices and mechanisms for sharing work-related
information among staff and foster greater transparency regarding the internal operations of the
OIG. This involves identifying the information needed by staff members to achieve a basic
understanding of the ongoing and previous work across the office and encouraging staff to
engage more with each other to enhance efficiency and effectiveness. The team members who
execute this Action must possess a thorough understanding of the work processes in their own
functional areas, be able to define the basic status information needs of their colleagues, and
possess a comprehensive understanding of which information is appropriate to share. Their
colleagues will represent the end users of the information.

Action 1: Develop business rules and guidance that support internal information sharing,
making cross-functional and cross-location communications an integral part of performing the
work of the OIG. Identify appropriate opportunities for improved internal information sharing
and transparency that will help improve organizational performance.
Guiding Principles:
    It is the guiding assumption that information within the OIG will be shared, unless there is
      a specific reason not to.
       o All staff will benefit from having access to information on the high-level status and
           nature of OIG work.
       o Having a better understanding of the inventory of work and issues (in general terms,
           without revealing sensitive details) will lead to better strategies on how to best to
           integrate the work, enhance OIG effectiveness, and reduce redundancy.
    Clear language regarding appropriate communications which eliminates the likelihood of a
      ―closed-off‖ atmosphere, fosters cooperation and collaboration.
Step 1                               Things To Do:
Discuss and determine the               Identify the circumstances that would preclude the
limitations and exceptions               sharing of information with the entire OIG, or certain
guiding the adoption of a                groups within OIG, i.e., identify data that will be
transparent information sharing          compromised if shared with unauthorized users.
approach within the OIG (i.e.,             o Exceptions to a transparent information sharing
identify those instances that                   approach would include internal discipline issues,
justify need-to-know approach                   issues that could be considered extremely personal

Internal Communications                                                                       II-3
                                                                      Amtrak OIG Organizational Assessment
                                                                                     Phase II Final Report

    Action 1: Develop business rules and guidance that support internal information sharing,
    making cross-functional and cross-location communications an integral part of performing the
    work of the OIG. Identify appropriate opportunities for improved internal information sharing
    and transparency that will help improve organizational performance.
    to access).                                 and not appropriate for sharing, and those
                                                touching on a very high level of confidentiality.
                                             o Additionally, there is a clear need to restrict
                                                detailed information dissemination as it relates to
                                                ongoing audits and investigations and the subjects
                                                of those cases.

    Step 2                               Things To Do:
    Identify the critical pieces of      Content6
    information that should be             Identify the critical information that each functional
    available so that everyone has          group requires to do its job effectively and efficiently, as
    an understanding of both                well as provide OIG employees with a sense of
    ongoing and previous work               belonging and support motivation, including:
    across all functions within the           o Official lines of authority to clarify roles and
    OIG.                                          responsibilities (i.e., clarifying who to contact to
                                                  obtain various forms of approvals, review
                                                  products, submit reports).
                                              o Overall work process and administrative
                                                  representative (contact information) that will
                                                  enable all employees to understand who-does-
                                                  what.
                                           Evaluate the information housed on the OIG Subnet and
                                            determine if it is still relevant.
                                           Determine how to increase access to content on the
                                            Subnet (or updated document repository.)

                                         Mechanism
                                          Design the data elements needed in a database for
                                           researching past and present data pertaining to audit,
                                           evaluations, investigations, M&P, and legal. Although
                                           this database may be developed using an existing
                                           application (e.g., TeamMate, Amtrak Investigations
                                           Management System (AIMS)), the creation of a simple
                                           OIG dashboard might require a new development effort.
                                           (Action 2 involves selection and development of the
                                           appropriate tool.)


6
 These comments reflect ideas generated within the Working Group session as well as input obtained during a data
gathering activity conducted by Working Group members. These comments reflect specific information needs
around position descriptions, performance management, and tracking of administrative data (e.g., leave requests)
and therefore reflect communication aspects and needs specific to Personnel Management, rather than the execution
of work, and will be forwarded to the Human Capital Working Group for their consideration.

Internal Communications                                                                                     II-4
                                                           Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report

Action 1: Develop business rules and guidance that support internal information sharing,
making cross-functional and cross-location communications an integral part of performing the
work of the OIG. Identify appropriate opportunities for improved internal information sharing
and transparency that will help improve organizational performance.
                                   Administrative
                                     Identify a technical lead to provide maintenance and
                                      service to the database. Define the position(s) within the
                                      OIG that should carry out this ongoing responsibility.
                                     Create a template for the project summary that captures
                                      key data elements that users need.
                                         o Provide brief summaries of both current and
                                             previous cases, including, when appropriate, staff
                                             involved, duration, findings, recommendations,
                                             and resolution.
                                     Due to the potentially vast amount of information
                                      available on past work, determine a cut-off date so that
                                      only relevant information that may affect the OIG’s
                                      current and future work are included. (There is
                                      diminishing value and substantial cost associated with
                                      migrating old work into a searchable database.)
                                     Develop policy for what and how information will be
                                      added or deleted from the database.
Step 3                             Things To Do:
Develop direction about how the  Develop protocols on who to communicate with about
conduct of work will change to        specific project-related issues and the preferred method
incorporate this new information      of communication. Include the contact person and
sharing.                              method of communication in the project summary.
                                     Explain what is changing and define the expectations for
                                      new behavior.
                                         o This may include the IG issuing policy for the
                                             office and providing training on the use of
                                             communication tools.
                                         o Explain how the workflow of audit, evaluations,
                                             and investigations work will change when the new
                                             information sharing tools are implemented.
                                         o Determine and explain how the work processes for
                                             M&P and legal will change.
                                     Explain how sharing information can strengthen the
                                      case. Use examples or instances during implementation
                                      that demonstrate how smart information sharing can
                                      yield high quality results.
                                     Share semiannual reports from each functional group
                                      across the OIG to provide information on current,
                                      ongoing and recent efforts, expand knowledge, identify
                                      new sources of information, etc.


Internal Communications                                                                     II-5
                                                             Amtrak OIG Organizational Assessment
                                                                            Phase II Final Report

Action 1: Develop business rules and guidance that support internal information sharing,
making cross-functional and cross-location communications an integral part of performing the
work of the OIG. Identify appropriate opportunities for improved internal information sharing
and transparency that will help improve organizational performance.
Step 4                             Things To Do:
Identify measures of                 Determine the degree to which communication
accountability (both rewards and      contributes to the effectiveness of OIG operations.
sanctions) to ensure that staff      Identify mechanisms to monitor usage and maintenance
appropriately utilize and             of information sharing tools.
maintain information-sharing
tools.

Action 2. Based on the user information needs identified in Action 1, identify communication
tools needed to support information sharing across the OIG. Identify appropriate technical leads
for both AIMS and TeamMate who will be responsible for development of tool functionality,
maintenance and ongoing updates to automated tools.

The purpose of this Action is either modify or develop software tools that support information
sharing across the OIG, using the staff information needs identified as part of Action 1 . This
may involve tailoring TeamMate and AIMS, or developing a new tool (e.g., an OIG ―dashboard‖
or a simple tracking spreadsheet). The tool resulting from this Action is intended to offer
summaries of key data fields for access by all staff (e.g., project name, timeframes, project lead,
summary of project focus). The focus of this Action is the actual design, development and
implementation of the information tool. This effort requires a small team with information
technology expertise specifically related to TeamMate and AIMS.

Action 2: Based on the user information needs identified in Action 1, identify communication
tools needed to support information sharing across the OIG. Identify appropriate technical
leads for both AIMS and TeamMate who will be responsible for development of tool
functionality, maintenance and ongoing updates to automated tools.
Guiding Principles:
     The TeamMate upgrade must be completed (in progress at the time of this writing) in
      order to achieve implementation objectives.
     AIMS has a technical lead, but TeamMate does not, despite a significant need for it.
      Some degree of central policy and maintenance is required.
     TeamMate should be the highest priority, as it is critical to the effectiveness, efficiency,
      and success of Audits and Evaluations (The QTWP Working Group addressed the
      criticality of TeamMate as well, and offered an early recommendation regarding the
      upgrade and OIG-wide training.).
     Creating a clear sense of where overlaps in activities and work processes between Audit,
      I&E and Investigations exist and reducing the ―need to know‖ culture will create higher
      levels of productivity and improved morale.
     All staff should learn how to use the tool, as it is intended to be a key resource that is
      accessed frequently; formalized training and a tutorial schedule will help better prepare
      staff to use information sharing tools.


Internal Communications                                                                        II-6
                                                            Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report

Action 2: Based on the user information needs identified in Action 1, identify communication
tools needed to support information sharing across the OIG. Identify appropriate technical
leads for both AIMS and TeamMate who will be responsible for development of tool
functionality, maintenance and ongoing updates to automated tools.
Step 1                             Things To Do:
Specify roles and                    Recommend the assignment of a TeamMate technical
responsibilities for those who        lead.
will design, develop, and            Specify who is responsible for testing, training, ongoing
maintain internal tools.              support and tool maintenance and enhancements over
                                      time.
                                     Ensure that at least two employees possess expertise in
                                      all areas mentioned above to function as mentors or
                                      super-users to the rest of OIG.
Step 2                             Things To Do:
Using input from users (data          Install the latest version of TeamMate and its modules
from Action 1 Step 2 above),           to support the new OIG Audit and Evaluation policy.
engage in a technical discussion  Determine how TeamMate and AIMS can support the
about how to integrate key             user information needs across the OIG.
pieces of information from                o Define what type of customization is required to
TeamMate and AIMS to form                     adapt these tools to meet the user requirements.
the basis of an OIG dashboard.            o Develop the development plan/approach to
                                              customize these tools.
                                      If TeamMate and/or AIMS will not support the user
                                       needs, determine the difficulty, cost and level of effort
                                       required to develop a workable solution.
                                      The Implementation Team in Action 2 is facing very
                                       technical issues. For instance, AIMS is an internet
                                       based system, while TeamMate is a software
                                       application. The Implementation Team must consider
                                       how or even whether to integrate these two systems; or
                                       if integration is too expensive or too difficult, the team
                                       may consider assigning permissions to allow people to
                                       view key pieces of data in AIMS and TeamMate.
Step 3                             Things To Do:
Build the OIG dashboard OR            Based upon the results of Step 2 and selection of the
assign permissions to allow            best tool option, modify the existing tools or build a
viewing of key pieces of data          custom solution.
within AIMS and TeamMate              Establish a schedule for design, development, testing
across the OIG.                        and implementation.
                                      Execute the schedule, relying on vendor support if
                                       appropriate technical skill is not resident in the OIG.
Step 4                             Things To Do:
Develop and deliver training or  Focus on the technical aspects of how to access the tool
tutorials for all staff in the use     and update project information.
of the new information sharing
tool(s).

Internal Communications                                                                       II-7
                                                              Amtrak OIG Organizational Assessment
                                                                             Phase II Final Report


Action 3. Develop an OIG Communications Strategy to guide internal communications from
Senior Leadership.

The focus of this Action is to formalize both the process and content of communicating with the
entire OIG. By offering a more need-driven structure to Senior Leadership, (which is defined as
the Inspector General (IG), the Deputy Inspector General (DIG), and the Assistant Inspectors
General (AIGs)) as they plan their periodic communications with staff, both Leadership and staff
will benefit by delivering important information in the most efficient and effective manner.
Many of the comments regarding the type of information desired come from interviews with
OIG staff conducted by the Working Group during the course of their activities. Additional data
gathering may be necessary for members of the Implementation Team in order to gain further
clarity regarding the needs and preferences of OIG employees as they relate to internal
communications.

Action 3: Develop an OIG Communications Strategy to guide internal communications from
Senior Leadership.
Guiding Principles:
     Senior Leadership within the OIG has made good progress towards communicating more
      strategically and not simply ―reacting‖ to the need for greater communications. The IG,
      DIG and the AIGs need to continue to communicate in a thoughtful proactive manner.
     Deliberate efforts to deliver thoughtful, cohesive messaging that reflect OIG objectives
      will help to support an open and collaborative culture unified in common purpose.
     Staff need to receive tailored, targeted communications from senior leaders, that are
      relevant to the work of the OIG.
Step1                                Things To Do:
Develop suggested approach for Discuss and develop suggestions that include:
periodic mass communications             Type of content needed or that is appropriate – e.g.,
from Senior Leadership to staff           sharing the expectations of the department, anticipated
(to include all-hands meetings,           changes in staffing levels, actions that may impact work
announcements, etc.).                     practices such as training, new policies or practices, and
                                          other issues that affect large segments or the entire OIG
                                          workforce.
                                         Frequency – on an as-needed basis or at least quarterly.
                                         Specific channels or mechanisms (e.g., email, formal
                                          policy, intranet) – Group emails for immediate
                                          distribution or formal written correspondence for a
                                          longer term distribution.
                                         Specific information identified from Senior Leadership
                                          include:
                                            o Clear communication about their expectations of
                                                their staff
                                            o Current Amtrak developments
                                            o Concerns of the Board that affect the OIG
                                            o Any issues, whether internal or external to the
                                                OIG, that affect jobs

Internal Communications                                                                          II-8
                                                          Amtrak OIG Organizational Assessment
                                                                         Phase II Final Report

                                        o  Meetings
                                        o  Policy changes
                                       o Staffing updates
                                       o Team accomplishments
                                       o Personal news
                                       o Acknowledgement of employees’ perceived
                                           ―loss‖ as a result of recent organizational change
                                    Plan more routine meetings with all staff.
                                       o Establish more group discussions.
                                       o Thoroughly prepare the message when sharing
                                           factual updates.
                                       o Provide feedback mechanisms and consider staff
                                           inputs.
                                    Ensure that verbal communications of department
                                     policy changes are followed up in writing.
                                    Consider the Draft Communications Plan Development
                                     Guide as a resource when engaging in this task, as it
                                     offers a template for structuring the communications
                                     guidance, as well as a summary of interview data
                                     recently collected from OIG staff.
Step 2                            Things To Do:
Develop suggestions for           Elements to discuss include:
developing more effective face-     Address type of content needed or that is appropriate –
to-face communications from          what kinds of work-related information should be
Senior Leadership to staff,          shared only in a less formal, verbal exchange.
based on the information needs      Identify appropriate frequency for engaging staff – how
of the staff.                        often should Senior Leadership try to engage with
                                     individuals or smaller groups.
                                    Offer general principles or a framework for effective
                                     communication are identified and documented.
                                    Be direct, non-emotional, factual, clear, courteous, and
                                     respectful in your communication.
                                    Be prepared for meetings, prepare an agenda, take
                                     minutes and publish them or make them available.




Internal Communications                                                                   II-9
                                                               Amtrak OIG Organizational Assessment
                                                                              Phase II Final Report

Action 4. Develop an OIG Communications Strategy to guide internal communications within
and among functional groups.

The focus of this Action is to provide more clarity and guidance to all staff as they engage with
co-workers across the OIG. This kind of guidance was viewed as critical for helping move the
OIG from a ―need to know‖ culture to a more open, collaborative working environment. The
intent is not to provide rigid structure for all internal communications, but rather to offer general
guidance and clarify who, what, when, where, why and how staff should be communicating in
support of this future state. This guidance is particularly relevant for staff from different teams or
functions who must work together, share information or coordinate efforts.

Action 4. Develop an OIG Communications Strategy to guide internal communications within
and among functional groups.
Guiding Principles:
     It is important to address ad hoc communication issues first, as they are not related to any
      work polices. This type of guidance is needed to help encourage effective internal
      communications and foster greater collaboration.
     Improving cross functional communications will increase efficiencies throughout the
      OIG and will allow for a reduction of duplicative activities.
     Currently there is significant disparity regarding engaging counterparts between
      functions, and therefore the details and tone of communications throughout the
      organization lacks consistency.
Step 1                               Things To Do:
Develop direction for written           Consider the Draft Communications Plan Development
communications within and                Guide as a resource when engaging in this task, as it
across functions and work                offers a template for structuring the communications
groups.                                  guidance, as well as a summary of interview data
                                         recently collected from OIG staff.
   This Action and its Steps
    should be conducted              Include suggestions for ad hoc communication issues:
    separately for policy-driven        Type of content needed or that is appropriate --
    communications (i.e., formal         information on the scope of work, findings, contacts,
    communications with rules            etc.
    and protocols) and ad hoc or  Monthly or quarterly updates to communicate with the
    informal communications              field and include achievements, successes, solicit
    within the OIG.                      suggestions and questions.
                                        Specific channels or mechanisms (e.g., email, intranet).
                                        Frequency – this should tie to the workflow and project
                                         plans; the work being done by the QTWP may be
                                         consulted when developing this guidance.
                                        Roles and responsibilities include:
                                           o Managers below the AIG level can prepare
                                                periodic updates to share with their own groups,
                                                as well as across the OIG about successes, new
                                                developments, important findings, etc.
                                           o Non-managers need guidance on how to engage


Internal Communications                                                                         II-10
                                                        Amtrak OIG Organizational Assessment
                                                                       Phase II Final Report

Action 4. Develop an OIG Communications Strategy to guide internal communications within
and among functional groups.
                                       with those from other groups as well as at higher
                                       positions within the OIG; refrain from prescribing
                                       strict bureaucratic chain-of-command protocols
                                       for routine information sharing/seeking
                                       communications that support the work, given the
                                       small size of the organization and emphasis on
                                       building greater collaboration.
                                Methods to be more inclusive/encouraging of all staff.
                                   o Solicit information from the field and share with
                                       headquarters.
                                   o Be considerate of the field locations when
                                       scheduling dates and times for training and
                                       meetings.

                               Address policy-driven communications next:
                                  Develop communication strategies specifically related
                                   to supporting OIG policy as they are developed and
                                   approved.
                                     o Audit policies were recently written to reflect
                                         Yellow Book standards and are currently being
                                         reviewed and tailored to fit Amtrak OIG desired
                                         culture.
                                     o Office of Investigation policy development is
                                         ongoing and expected to be available in summer
                                         2011.
Step 2                         Things To Do:
Develop direction for face-to- Discuss and develop suggestions for elements including:
face communications within and  Type of content needed or that is appropriate – what
across functions and work          kinds of work-related information should be shared only
groups.                            in a verbal exchange.
                                  Frequency – how often should functional groups engage
                                   with one another for the purpose of information sharing.
                                  Offer general principles or a framework for effective
                                   communication to be identified and documented:
                                     o Be direct, non-emotional, factual, clear, courteous,
                                         and respectful in your communication.
                                     o Be prepared for meetings, prepare an agenda, take
                                         minutes and publish them or make them available.
                                     o Encourage direct method of communications
                                         versus taking action based on indirect or hearsay
                                         communications. Sr. Management should not be
                                         easily influenced by communications that may be
                                         based on personal gain or have some bias.


Internal Communications                                                                II-11
                                                            Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report

Action 4. Develop an OIG Communications Strategy to guide internal communications within
and among functional groups.
Step 3                             Things To Do:
Identify accountability              Define what is meant by being ―accountable‖ for
mechanisms to ensure that OIG         supporting the improvements and engaging in more
communications reflect one            open communication.
collective voice and that hold all  Encourage, measure and acknowledge open
members responsible for               communication among all OIG staff in employee
improving communication               evaluations.
practices.                              o Build accountability for desired communication
                                            behaviors into the overall performance evaluation
                                            process, including group, team and employee and
                                            performance goals.
                                     Set improvement goals that management expects to
                                      achieve upon adoption of the new communication
                                      practices (i.e., define the specific measures of success
                                      for improving communication).

Additional Support

The Actions and steps described above are intended to guide the activities of the Implementation
Team. A draft Communications Plan Guide, which serves as an additional support document is
listed as an addendum at the end of the chapter.




Internal Communications                                                                    II-12
                                             Tracking Tool to Guide Action Plan Implementation

                                                      Internal Communications
Desired Future State: Amtrak OIG is an organization with effective internal communication strategies that allow all OIG staff to be
informed and invested in achieving a high-performance, high-accountability organizational mission.
Action 1. Develop business rules and direction that support internal information sharing, making cross-functional and cross-
location communications an integral part of performing the work of the OIG. Identify opportunities for improved internal
information sharing and transparency that will help improve organizational performance.
Estimated time for this Action: 30 days7
                                                                                                            Comments:
                     Step                        Examples of Targets/Measure           Status         Obstacles; Help Needed;
                                                                                                   Dependencies; Other Comments
1) Discuss and determine the limitations
   and exceptions guiding the adoption of    Documented list of situations or
   a transparent information sharing         instances that justify need-to-know
   approach within the OIG (i.e., identify   and require confidentiality
   those instances that justify need-to-
   know approach to access).
2) Identify the critical pieces of
   information that should be available to   Documented list of key data elements
   give everyone an understanding of both that are relevant across the OIG
   ongoing and previous work across all
   functions within the OIG.
3) Develop direction about how the           Written description of work processes
   conduct of work will change to            that are affected by greater sharing
   incorporate this new information          information
   sharing.
4) Identify measures of accountability                  Documented list of rewards and
   (both rewards and sanctions) to ensure               sanctions to adopt to reinforce better
   that staff appropriately utilize and                 communication
   maintain information-sharing tools.

7
    In many cases durations are offered for the time being, until review by and discussions with Amtrak OIG and commitment to act on this plan

Internal Communications                                                                                                                          II-13
                                      Tracking Tool to Guide Action Plan Implementation


                                                       Internal Communications
Desired Future State: Amtrak OIG is an organization with effective internal communication strategies that allow all OIG staff to be
informed and invested in achieving a high-performance, high-accountability organizational mission.
Action 2. Based on the user information needs identified in Action 1, identify communication tools needed to support
information sharing across the OIG. Identify appropriate technical leads for both AIMS and TeamMate who will be responsible for
development of tool functionality, maintenance and ongoing updates to automated tools.
Estimated time for this Action: Completion of Action 1 plus 30 days
                                                                                                            Comments:
                   Step                         Examples of Targets/Measure            Status         Obstacles; Help Needed;
                                                                                                   Dependencies; Other Comments

1) Specify roles and responsibilities for
   those who will design, develop, and         Documented roles and
   maintain internal tools.                    responsibilities for tool ―owners‖

2) Using input from users (data from
   Action 1 Step 2 above), engage in a         Documented recommended solution
   technical discussion about how to           (options include an integrated
   integrate key pieces of information from    dashboard and/or open access to both
   TeamMate and AIMS to form the basis         tools across all staff)
   of an OIG dashboard.
3) Build the OIG dashboard OR assign
   permissions to allow viewing of key         Developed tool ready for
   pieces of data within AIMS and              implementation across the OIG
   TeamMate across the OIG.
4) Develop and deliver training or tutorials
                                               All staff trained on use of information
   for all staff in the use of the new
                                               sharing tools
   information sharing tool(s).



Internal Communications                                                                                                     II-14
                                     Tracking Tool to Guide Action Plan Implementation


                                                     Internal Communications
Desired Future State: Amtrak OIG is an organization with effective internal communication strategies that allow all OIG staff to be
informed and invested in achieving a high-performance, high-accountability organizational mission.
Action 3. Develop an OIG Communications Strategy to guide internal communications from Senior Leadership.
Estimated time for this Action: 30 days
                                                                                                            Comments:
                                                                                                      Obstacles; Help Needed;
                    Step                        Examples of Targets/Measure            Status
                                                                                                   Dependencies; Other Comments

1) Develop suggested approach for periodic
                                              Documented approach for Senior
   mass communications from senior
                                              Leadership as a component of an
   management to staff (to include all-
                                              overall communications plan
   hands meetings, announcements, etc.)
2) Develop suggestions for developing
   more effective face-to-face                Documented suggestions for Senior
   communications from Senior Leadership      Leadership as a component of an
   to staff, based on the information needs   overall communications plan
   of the staff.




 Internal Communications                                                                                                    II-15
                                    Tracking Tool to Guide Action Plan Implementation


                                                      Internal Communications
Desired Future State: Amtrak OIG is an organization with effective internal communication strategies that allow all OIG staff to be
informed and invested in achieving a high-performance, high-accountability organizational mission.
Action 4. Develop an OIG Communications Strategy to guide internal communications within and among functional groups.
Estimated time for this Action:
       Policy-driven: 2 months after the OI completes its policy development
       Ad hoc: 3 months

                                                                                                          Comments:
                  Step                         Examples of Targets/Measure           Status         Obstacles; Help Needed;
                                                                                                 Dependencies; Other Comments
                         Policy-driven
                         Communications
1) Develop direction                        Documented direction as a component
                         (formal
   for written                              of an overall OIG staff
                         communications
   communications                           communications plan
                         rules and
   within and across     protocols)
   functions and work
   groups.               Ad hoc
                                            Documented direction as a component
                         Communications
                                            of an overall OIG staff
                         (informal
                                            communications plan
                         communications)




 Internal Communications                                                                                                    II-16
                                    Tracking Tool to Guide Action Plan Implementation


                                                      Internal Communications
Desired Future State: Amtrak OIG is an organization with effective internal communication strategies that allow all OIG staff to be
informed and invested in achieving a high-performance, high-accountability organizational mission.
Action 4. Develop an OIG Communications Strategy to guide internal communications within and among functional groups.
Estimated time for this Action:
       Policy-driven: 2 months after the OI completes its policy development
       Ad hoc: 3 months

                                                                                                          Comments:
                  Step                         Examples of Targets/Measure           Status         Obstacles; Help Needed;
                                                                                                 Dependencies; Other Comments
                         Policy-driven
2) Develop direction     Communications     Documented direction as a component
   for face-to-face      (formal            of an overall staff communications
   communications        communications     plan.
   within and across     rules and
   functions and work    protocols)
   groups.                Ad hoc            Documented direction as a component
                          Communications    of an overall staff communications
                          (informal         plan
                          communications)
3) Identify accountability mechanisms to
                                            Documented performance
   ensure that OIG communications reflect
                                            measurement criteria that reflect
   one collective voice and that hold all
                                            appropriate communication practices
   members responsible for improving
                                            (to be coordinated with HCM.)
   communication practices.




 Internal Communications                                                                                                    II-17
                          Tracking Tool to Guide Action Plan Implementation

                                   This Page Left Intentionally Blank




Internal Communications                                                       II-18
Amtrak OIG                          Draft Communications Plan Development Guide




                                  Amtrak, Office of the Inspector General
                          Draft Communications Plan Development Guide



                                                                Presented By:
                                    National Academy of Public Administration
                                                        Contact Information:
                                                                 Brenna Isman
                                                               Project Director
                                    National Academy of Public Administration
                                                             (o) 202 204 3625
                                                        bisman@napawash.org

                            900 7th Street, NW, Suite 600 Washington, DC 20001




Internal Communications                                                  II-19
Amtrak OIG                                                                              Draft Communications Plan Development Guide




Introduction

The purpose of communications planning in the context of this project is to provide a framework for engaging staff members
throughout the development of Implementation Roadmaps to guide operational and organizational improvements within the Office of
Inspector General (OIG). A clear approach to communication ensures that all staff receive and offer appropriate communications in a
clear, timely fashion through the most effective channels.

The purpose of this planning template is to address the following communication objectives:
 Audiences - Identify the best way to organize staff groupings to ensure effective and timely distribution of information
 Channels and Timing - Provide a basic schedule or timeframe for sharing information and status of the effort
 Content - Assist in framing staff expectations of the project and overall OIG objectives
 Accountability - Implement mechanisms throughout the organization so that communication is not simply a top-down process
          o Reinforce the OIG’s commitment to work as a team and communicate with ―one voice‖ in messages to ensure that
              staff:
                   receive consistent information;
                   receive accurate information in a timely manner; and
                   have multiple opportunities to participate in achieving project objectives and actively engage in the
                       communication process.

Communication Plan

Having a communication plan further strengthens the concept of unified, consistent messaging and encourages knowledge sharing by
following shared procedures for all communications. This basic guidance allows all audiences within OIG to receive accurate and
timely information about the implementation activities that affect or include them. The communication plan also offers other
mechanisms and types of messaging that OIG staff have requested and suggested while participating in interviews and the recent staff-
wide survey. These multiple forms of communication serve as critical aspects of OIG’s work toward becoming a high-performing
organization and achieving Strategic Goal #6 – Leading by Example as a Model OIG.




Internal Communications                                                                                                    II-20
Amtrak OIG                                                                               Draft Communications Plan Development Guide



Staff Input to Communications
As part of the Internal Communications Working Group Sessions, members gathered data regarding perceptions and preferences as
they relate to communicating within the OIG. The Working Group engaged members from diverse functional areas, organizational
levels and geographic locations. The input gathered from these sessions will help shape the development of new communications
policy. Not all comments or suggestions could be accommodated but all were acknowledged. The feedback about communication
offered by staff revealed the following:

Which groups would you like to have more ongoing access to in the course of your work?

      A majority of interviewees highlighted the importance of enhancing the cooperation between the Audit group and the IT group.
       It is very difficult for the Audit group to complete some audit projects without IT’s technical expertise.
      It is noted that there should be more cooperation between the Audit and I&E groups. I&E’s subject matter expertise could be
       leveraged by the Audit group.
      The relationships between auditors and investigators were mentioned by several people.
      Some interviewees stated that they need to have better communications with everyone.
      It seems like the I&E group didn’t have as many communication issues as other groups. Several interviewees from the I&E
       group stressed that their supervisor has maintained effective and constant communications within the group.


How communication would improve the work?

It is believed that effective internal communications would significantly enhance the work performance of the OIG. Better
communication would enable the OIG staff to
      reduce conflicts and misunderstanding;
      share each other’s knowledge and expertise to improve efficiency and minimize duplicate efforts; and
      increase productivity by having clear expectations and directions from the senior management team.




Internal Communications                                                                                                     II-21
Amtrak OIG                                                                                Draft Communications Plan Development Guide



How do you prefer to communicate?

Some people noted that communication methods depend on the nature of the communications. Suggested communication mechanisms
include:

      Face-to-face communications such as bi-weekly staff meetings, team meetings (inviting people from other functional groups),
       quarterly meetings between functional groups, etc. It is recognized that face-to-face communication is important to establish
       strong relationships. Many interviewees highlighted the importance of having routine face time with and email updates from
       the senior management team.
      Email is a preferred communication method mentioned by a number of interviewees, as it requires less coordination and
       provides evidence of the communication.
      Phone is convenient and good for communicating pressing or time sensitive issues.
      Newsletters including meaningful information on successful projects and emerging issues
      Internal dashboard or internal website
      A monthly work summary between groups (2-3 pages)

Although it is important to develop effective communication tools, several interviewees pointed out that OIG’s communication
problem resulted from the lack of structured processes and policies to ensure routine information sharing in the organization. This
point was reiterated by several interviewees through other questions.

What suggestions do you have for improving ongoing, work-related communications among the various OIG locations?

Many interviewees stressed the importance of initiating communication policies and procedures to hold staff members accountable.
For example, respond to all emails within 24 hours; put out-of-office reply notifications on email and voicemails; make adherence to
policy part of everyone’s performance evaluation.

It is believed that regular meetings are crucial to improve communications. Effective meetings should be structured to allow open
discussions and encourage staff’s participations.
      All-hands meeting (twice a year)
      By-weekly staff meetings/calls including field offices



Internal Communications                                                                                                       II-22
Amtrak OIG                                                                                Draft Communications Plan Development Guide




      Conference calls to allow each group to summarize activities

The use of electronic tools was mentioned by a number of interviewees to improve communications between field offices and HQ.
    Internal web page/website to exchange information
    Internal instant chat capability
    TeamMate
           o Allow access to TeamMate from staff laptops and remotely to allow the audit teams to use their time efficiently and
               effectively while working away from the office.
           o Everyone should have Read-Only access to all TeamMate projects.
           o Assign someone to be in charge of administering TeamMate.

Many interviewees noted that the Senior Management team should play a more active role in improving communications between HQ
and field offices. The importance of field visits by the senior management was highlighted by several interviewees, however, it is also
noted that field visits promised previously have not been materialized.

What kinds of information would you like to receive on a regular basis from senior management?

When asked about the desired information from the Senior Leadership, interviewees provided a wide range of responses. Typical
comments were:
    Information on 1) ongoing work status; 2) staff updates (new hires, reassignments, and promotions); 3) changes in policy,
      procedure or administrative issues (sent in writing); 4) team accomplishments; 5) all-hands meeting agenda, focus, and
      purpose; and 6) training opportunities.
    Clear expectations for staff members; performance goals and objectives
    External Issues that impact the work of OIG:
      o Executive Committee Meetings and Board Meetings (Amtrak’s development and priorities)
      o Congressional investigations




Internal Communications                                                                                                      II-23
Amtrak OIG                                                                                Draft Communications Plan Development Guide



What are the best ways to solicit feedback from the staff?

Interviewees noted that staff feedback to the senior management should be anonymous and confidential. Suggested feedback
mechanisms include:
     Team Meetings, All-hands Meetings (with discussions), Focus Groups, Brownbag Lunches
     Individual face-to-face talk with the senior management
     Website, all-staff email
     Suggestion Box, Surveys, Newsletter, professional celebration
     Internal Advisors
     Distribution of a quick reference listing all employees with their primary duties

It is suggested that the OIG use an outside vendor to facilitate anonymous upward feedback to supervisors and peers annually.
Individuals should specify the corrective actions to address opportunities for improvement identified in their upward feedback reports.
In addition, performance managers should take into account the feedback provided to individuals when developing specific
professional development goals during the goal setting process.


Meeting Communication Objectives

These findings helped shape the areas for action in the Internal Communications Working Group sessions and identified the need for
more structured communications activities. This information - as well as potentially gathering additional data - can assist in
addressing communication objectives and developing a communications plan that meets the needs of the OIG and improves
information sharing.

Objectives noted earlier in the document include:

Audiences - Identify the best way to organize staff groupings to ensure effective and timely distribution of information

This activity will allow the Implementation Team to focus communications content and timing on the appropriate groups and
customize accordingly. Sample questions to ask include:



Internal Communications                                                                                                      II-24
Amtrak OIG                                                                               Draft Communications Plan Development Guide




      How should groups be organized to receive OIG-wide information?
         o By functional group?
         o By geographic location?
         o By level within the OIG?

      What is the best way to solicit upward communications from staff at all levels?
         o By functional group?
         o By geographic location?
         o By level within the OIG?

      How are these staff members currently being engaged in the communications process and what mechanisms are the most (and
       least) effective?




Internal Communications                                                                                                   II-25
Amtrak OIG                                                                            Draft Communications Plan Development Guide



Channels and Timing - Provide a basic schedule or timeframe for sharing information and status of the effort

A key activity for the Internal Communications Implementation Team will be to develop a communications schedule and populate the
template below, which can be customized or modified during the Implementation phase.

Communications Schedule

Top Down Messaging From Leadership

                                                                                                                    Purpose/
  Communication
                             Content              Audience          Channel            Timing           Owner       Outcome/
     Item
                                                                                                                    Outputs

                                                         Face-to-Face




                                                             Written




Internal Communications                                                                                                II-26
Amtrak OIG                                                             Draft Communications Plan Development Guide



Horizontal Messaging Across OIG Functions

                                                                                                     Purpose/
 Communication
                           Content          Audience         Channel   Timing            Owner       Outcome/
    Item
                                                                                                     Outputs

                                                 Face-to-Face




                                                       Written




Internal Communications                                                                                 II-27
Amtrak OIG                                                                                 Draft Communications Plan Development Guide



Content - Assist in framing staff expectations of the project and overall OIG Objectives

The Implementation Team will need to maintain an open relationship with both Senior Leadership as well as staff representatives to
ensure that the communications activities respond to staff expectations and offer opportunities to clarify and respond to these
expectations periodically. The Implementation Team will need to develop a ―pulse checking‖ mechanism during the implementation
process.


Reinforce the Senior Staff’s commitment to work as a team and communicate with “one voice” in messages to ensure that staff:

        receive consistent information;
        receive accurate information in a timely manner; and
        have multiple opportunities to participate in achieving project objectives

The Implementation Team’s will be tasked with a quality assurance role in order to ensure that the messages being received
consistently reflect the intended timeline, convey the same message to all and maintain the collective tone of the OIG and its
leadership.


Implement accountabilities throughout the organization so that communication is not simply a top-down process

A challenge for this Implementation Team is identifying ways to motivate all communicators to maintain positive momentum for
consistent, high-quality communication.




Internal Communications                                                                                                     II-28
                                                 Amtrak OIG Organizational Assessment
                                                               Phase II Final Report




                                     TAB III

                     The Amtrak Office of Inspector General
                       Organizational Assessment Phase II
                     Implementation Roadmap Development


Subject: External Communications


Tab III contains the External Communications Implementation Roadmap and Tracking
Tool developed by the Working Group to guide the activities of the Implementation
Team.


     External Communications Implementation Roadmap
     External Communications Implementation Tracking Tool




External Communications
                                                  Amtrak OIG Organizational Assessment
                                                                Phase II Final Report


                          This Page Left Intentionally Blank




External Communications
                                                       Amtrak OIG Organizational Assessment
                                                                     Phase II Final Report




III. External Communications
Desired Future State: Amtrak OIG has constructive relationships with Amtrak, Congress, and
its other external stakeholders that enable it to gather and share information in order to
conduct proactive and timely communications while maintaining independence and
supporting its mission.

The External Communications (EC) Working Group, headed by Executive Sponsor, Assistant
Inspector General (AIG) for Investigations, Adrienne Rish and assisted by Principal
Communications Officer, Michael Fruitman (Initiative Team Lead, John Grimes, was on medical
leave) completed two Working Group sessions and continued work via email and phone
conferences during January and early February 2011, and identified three key Actions that frame
this Roadmap. These Actions are described in more detail later in this chapter.

External Communications

The key observations from the Amtrak Phase I review included:
  • The IG has developed good, early working relationships with Amtrak management, the
      Board, and the Hill.
  • OIG does not have an established process with standardized timeframes for providing
      stakeholders updates on work-in-progress; stakeholders have expressed a desire in
      knowing how and when the OIG will communicate with them.
  • Some external stakeholders perceive that they have received less information than others
      from the Amtrak OIG and suspect that information has been leaked by OIG staff.

In addition to maintaining outreach to the Amtrak Board and Congress this year, OIG Leadership
has attended other key stakeholder meetings, such as the Council of the Inspectors General on
Integrity and Efficiency. OIG has also begun working on further strengthening their
relationships with stakeholders by developing a more proactive approach to engaging
stakeholders and coordinating both internal and external messaging to ensure consistency.

Observations

The Working Group indicated that Amtrak OIG needs to engage external stakeholders in a way
that clarifies the uniquely relevant value of the Amtrak OIG as a capable and independent body
of oversight. The group recognized the value of developing a ―marketing plan‖ in essence that
helps explain what the OIG does, how the work gets done and what the meaningful results of this
work are. In the past, Congressional engagement was extremely reactive and did not provide the
relationship building and mutual trust and respect that empower an effective OIG.

The group identified the need to develop an ―OIG 101‖, basic approach that would allow for
customization of a standard baseline document that can be shared with stakeholders, external and
internal alike. The key steps in this endeavor will require keen attention to accountability and
creative approaches to measuring impact.

External Communications                                                             III- 1
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report


Characteristics of Improved External Communication

In addition to defining specific actions to implement, the Working Group described a set of
future state characteristics and sample behaviors they would expect to see as a result of improved
external communication (see chart that follows).

 Desired Future State - Amtrak OIG has constructive relationships with Amtrak, Congress
 and its other external stakeholders that enable it to gather and share information in order to
 conduct proactive and timely communications while maintaining independence and
 supporting its mission.
                                Desired Future State Characteristic
 We will know that the organization has achieved this desired future state because the
 activities related to external communications will be:
 • Proactive
 • Supporting a clear, consistent brand image
 • Easily understood and free of jargon
 • Well-received by external stakeholders
 • Reflecting high-impact, useful, and valuable
 • Periodically monitored for feedback
 • Appropriately coordinated to ensure the appropriate channels, audience and content
 • Communicating OIG independence
 • Engaging and approachable by stakeholders
 • Reflective of Strategic Plan Goal 6 – Leading by Example as a Model OIG


Implementation Actions and Steps

The three Actions designed to improve external communications each have multiple associated
implementation steps, and the Working Group offered additional information to the
Implementation Team in the form of context, guidance and commentary to help them carry out
these Actions and Steps. This information is presented on the following pages in the
Implementation Roadmap.

A Tracking Tool for the Implementation Roadmap addresses the need to identify the suggested
lead for the Implementation Team; timeframes or end dates for completing each Action and its
correlating Steps; and suggested measures or targets to assess progress toward accomplishing the
Actions. While the Implementation Roadmap serves more to guide the implementation activities
with guiding principles and tactical support, the Tracking Tool addresses metrics for identifying
progress of and accountability for the outlined processes. The Tracking Tool is included as an
addendum at the end of this chapter.




External Communications                                                                   III - 2
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report


Action 1. Develop overall approach to educating stakeholders about the unique value of the
Amtrak OIG.

The purpose of this Action is to develop a practical and concise message relating to the uniquely
relevant value of Amtrak OIG. As effective engagement of key external stakeholders is crucial
to a successful OIG, it is imperative that the Implementation Team take an approach that allows
the organization to ―market‖ its capabilities. The first Step in this process is to ensure that
stakeholders understand what Amtrak OIG does, what its goals and objectives are and why no
one else is equally suited to perform this work.

Action 1: Develop overall approach to educating stakeholders about the unique value of the
Amtrak OIG.
1a. Develop a practical, succinct statement of the roles and value of an independent, high-
performing OIG.
Guiding Principles:
   The Implementation Team will need to develop the language that offers a concise
      business case for the uniquely relevant value of the Amtrak OIG and responds to the
      reasonable expectations of the external stakeholders.
   This OIG value statement should be incorporated into the OIG overall marketing plan.
Step 1                              Things To Do:
Clarify the overall goals and        Clarify overall goals and objectives in its strategic plan.
specific objectives of the OIG.       [This task has already been completed.]
Step 2                              Things To Do:
Identify information needs from  Take advantage of existing information:
external stakeholders that help        o NAPA Phase I report includes the information regarding
OIG achieve its objectives and           stakeholders’ information needs.
provide value to stakeholders.
Step 3                              Things To Do:
Develop the business case that       The new relationship document is a good information
communicates the value of the         source.
OIG.                                 Coordinate with the Independence Working Group.
Step 4
Solicit feedback from OIG
Senior Leadership.




External Communications                                                                  III - 3
                                                             Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report

Action 1: Develop overall approach to educating stakeholders about the unique value of
Amtrak OIG.
1b. Develop an organized, high-level marketing plan to establish the brand of Amtrak OIG.
Guiding Principles:
   Given the lack of clear understanding of OIG roles and unique values among stakeholders
     and OIG employees, it is crucial to develop an organized, high-level marketing plan that
     will strategically scope out Amtrak OIG branding efforts and provide the framework to
     guide OIG communication activities.
   The goal is not to develop a comprehensive, detailed plan, but some basic, high-level
     guidance.

Step 1                             Things To Do:
Identify target audiences of the   The Working Group identified the main target audiences:
OIG marketing efforts.              Amtrak Board and Management
                                    Amtrak Staff who OIG directly work with when
                                     conducting audit, investigations, and evaluations
                                    Congress
                                    Press, Public, and others.
Step 2                             Things To Do:
Conduct Amtrak OIG SWOT             Conduct internal and external analysis of strengths and
analysis.                            weaknesses of the OIG.
                                    Scan the cultural environment of OIG as well as key
                                     stakeholders (Amtrak Board and Management, Congress).
                                    Identify capabilities of and challenges for others to
                                     conduct oversight of Amtrak.
Step 3                             Things To Do:
Develop marketing/branding          The overall introduction (Action 1a) of OIG roles,
materials for different              responsibilities, and unique values is the core message that
audiences.                           should stay the same for every audience.
                                    Develop selected materials to meet the needs of different
                                     audiences.
                                    Ensure consistency and accuracy of marketing products.
                                    Example marketing products: OIG 101(Action 1c) and the
                                     Semiannual Reports (SARs).
Step 4                             Things To Do:
Develop instruments and             Develop different communication channels for different
structure to distribute OIG          audiences.
marketing messages.
Step 5                             Things To Do:
Specify roles and                   Ensure clarity related to roles and responsibilities as they
responsibilities for those who       relate to marketing efforts.
will manage the OIG marketing
efforts.




External Communications                                                                    III - 4
                                                        Amtrak OIG Organizational Assessment
                                                                      Phase II Final Report

Action 1: Develop overall approach to educating stakeholders about the unique value of
Amtrak OIG.
1b. Develop an organized, high-level marketing plan to establish the brand of Amtrak OIG.
Step 6                            Things To Do:
Solicit feedback from OIG          Coordinate with the Internal Communications Group. The
Senior Leadership and staff         OIG should share the marketing plan internally—every
members.                            employee will become an OIG ―ambassador.‖




External Communications                                                             III - 5
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report



Action 1: Develop overall approach to educating stakeholders about the unique value of the
Amtrak OIG.
1c. Develop details of ―OIG 101‖ to support high-level messaging.
Guiding Principles:
   The goal of an ―OIG 101‖ approach is to help stakeholders understand the roles and
       responsibilities of an independent, high-performing OIG and guide the interactions
       between the OIG and its stakeholders.
   OIG 101 is one of the OIG marketing products and can be developed concurrently with
       the marketing plan (Action 1b); however, it is important to ensure that the OIG 101
       supports the overall OIG marketing efforts.
Step 1                               Things To Do:
Identify the stakeholders who        The Working Group identified the main stakeholders:
should receive OIG 101.               Amtrak Board, Management, and Staff
                                      Congress
                                      OIG Staff.
Step 2                               Things To Do:
Identify those working on             Suggested OIG educational materials/products to check:
content development in                 o Quality Standards for Federal OIGs
functional areas to avoid              o Office of Investigations:
duplicative content                       ―Investigations Handbook‖
development activities.                   Hotline Information
                                          Fraud Awareness
                                       o Legal Counsel—Overall OIG Introduction
                                       o Audit –Audit 101 materials
                                       o I&E New Employees Orientation Materials
                                      This Step could be done concurrently with Step 3.
Step 3                               Things To Do:
Develop the critical pieces of        Include suggested key elements of the OIG 101 materials:
information that should be             o Vision and mission of the Amtrak OIG
included in messaging                  o OIG’s roles, responsibilities, and value to Amtrak, its
materials.                                passengers, the public, and stakeholders
                                       o Effective interactions with an independent OIG.
                                       o OIG value statement to be developed in 1a.
Step 4                               Things To Do:
Determine message delivery            Consider suggestions for delivery mechanisms: PPT
format/mechanism for OIG 101.          presentation, coordinating leave-behind
                                      Coordinate with the Internal Communications Working
                                       Group.
Step 5                               Things To Do:
Select the OIG staff members          Consider empowering a diverse cross section of employees
with effective communication           to share messaging responsibilities.
skills to share the materials and
or give presentation.



External Communications                                                                  III - 6
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report

Action 1: Develop overall approach to educating stakeholders about the unique value of the
Amtrak OIG.
1c. Develop details of ―OIG 101‖ to support high-level messaging.
Step 6                            Things To Do:
Develop follow-up guidelines.       Develop a schedule and method(s) to follow up with
                                     stakeholders after conducting the OIG 101
                                    Revise the OIG 101 (materials, mechanisms, schedule,
                                     etc.) based on the feedback from stakeholders.
Step 7                            Things To Do:
Solicit feedback from OIG           Coordinate with the Internal Communications Group to
Senior Leadership and staff          share the OIG 101 internally.
members.

Action 2. Establish standard external communication strategies for OIG work

The purpose of this Action is to identify the key external stakeholders and generate standards
that will guide external communication activities and enable a consistent and proactive process.
Once in place this process will allow external stakeholders to anticipate on a regular basis
updates on key cases, progress on activities and emerging issues in a timely fashion. This all
needs to be done in a way that clearly defines Amtrak OIG’s roles an independent oversight body
with a clear value and purpose.

Action 2: Establish standard external communication strategies for OIG work.
Guiding Principles:
   The goals is to develop general standards to guide OIG communication activities—
       communicating OIG work results, status, interim findings, heads-up, potential issues, etc.
Step 1                            Things To Do:
Identify the core stakeholders     Coordinate with the Work Planning and Prioritization and
who should receive OIG              Performance Measurement Working Groups.
communications on a regular
basis.
Step 2                            Things To Do:
Establish external                 Develop different distribution protocols for different
communications                      groups.
protocols/rules.
Step 3                            Things To Do:
Determine the key                  Consider suggestions for communication content:
information that should             o Progress, highlights, summary of significant activities
be communicated to                  o Emerging and potential Amtrak issues that may warrant
stakeholders regularly.                OIG involvement.
                                    o Perceived risks
                                    o OIG strategic plan and work plans
                                    o Interesting/successful cases
                                    o ARRA audit efforts
                                    o OIG recommendations follow-up.



External Communications                                                                   III - 7
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report

Action 2: Establish standard external communication strategies for OIG work.
Step 4                            Things To Do:
Specify roles and                  Identify the responsibilities of the Communication Director
responsibilities for               Identify the people/groups that should be involved in the
those who will maintain             communication process and their responsibilities
external communication             Develop guidance on the interactions among
process in the OIG.                 individuals/groups during the process (e.g. a
                                    communication timeframe).
Step 5                            Things To Do:
Develop standard                   Consider suggestions for communication channels or
communication instruments           mechanisms:
and structure for reporting to      o Regular newsletter/written updates to the Amtrak
external stakeholders.                  Management, Board, and Congress.
                                    o Improve the OIG website to create a user-friendly and
                                        informative tool for communicating activities and results
                                    o Author a monthly column in the Amtrak newsletter
                                    o Attend board meetings and management meetings
                                        regularly.
Step 6                            Things To Do:
Develop a schedule to inform       It is extremely important to solicit feedback in a manner
stakeholders of OIG progress,       that clearly communicates OIG’s independence and its
discuss issues, and seek            oversight role.
appropriate input.
Step 7                            Things To Do:
Solicit feedback from OIG          Incorporate feedback into communications materials.
Senior Leadership and staff
members.

Action 3. Develop Plan to Assess the Impact of External Communications Effort

The purpose of this Action is focus on accountability as a key component of a successful
communications strategy. Assigning accountability in communications activities is a challenge
and requires clearly defined expectations and common understanding of the overall goals of the
initiative. Assessing progress will require soliciting feedback from the stakeholders and
identifying creative ways to measure impact.

Action 3: Develop Plan to Assess the Impact of External Communications Effort.
Guiding Principles:
   Accountability is a key component of the Implementation Roadmap; however, it is a very
     subjective concept and difficult to measure.
Step 1                            Things To Do:
Clearly articulate expectations    The Working Group has clarified external communication
and goals of external               expectations and goals in the Desired Future State Elements
communications activities.          List. This list can be shared with Implementation Team.



External Communications                                                                  III - 8
                                                         Amtrak OIG Organizational Assessment
                                                                       Phase II Final Report

Action 3: Develop Plan to Assess the Impact of External Communications Effort.
Step 2                          Things To Do:
Identify mechanisms for          Suggested method to assess external communication
ensuring adherence to             efforts:
established external              o Periodically monitoring feedback from stakeholders
communication processes.                Conduct survey with ―customers‖(e.g., Amtrak,
                                           Congress) to assess OIG communication
                                           performance
                                        5-6 questions, keep it simple
                                        The survey should focus on the effectiveness of the
                                           communication, not their happiness with the
                                           finding of the reports. For example:
                                                ―Was the communication timely?‖
                                                ―Were the messages clear and easy to
                                                   understand?‖
                                                ―Any suggestions to improve the
                                                   communications?‖
                                        The goal of the survey is NOT to ask whether
                                           stakeholders are happy with OIG reports findings,
                                           but to provide them the right information at the
                                           right time.
                                        Some OIGs have the materials that could be
                                           tailored for Amtrak OIG to develop the survey.
Step 3                          Things To Do:
Identify measurements of         Example measurements (from other OIGs): the DOJ IG
impact of External                considered fewer requests to testify before Congress a
Communication Efforts.            positive outcome and an indication of the strength of their
                                  reports.




External Communications                                                               III - 9
                                                     Amtrak OIG Organizational Assessment
                                                                   Phase II Final Report

                          This Page Left Intentionally Blank




External Communications                                                          III - 10
                                  Tracking Tool to Guide Action Plan Implementation
                                                        External Communications
Desired Future State: Amtrak OIG has constructive relationships with Amtrak, Congress and its other external stakeholders that
enable it to gather and share information in order to conduct proactive and timely communications while maintaining independence and
supporting its mission.
Action 1: Develop overall approach to educating stakeholders about the unique value of the Amtrak OIG.
1a. Develop a practical, succinct statement of the roles and value of an independent, high-performing OIG.
Estimated time for this Action: 30 days
                                                                                                           Comments:
                   Step                       Examples of Targets/Measures            Status         Obstacles; Help Needed;
                                                                                                  Dependencies; Other Comments

1) Clarify the overall goals and specific
                                                                                                 Done
   objectives of the OIG.

2) Identify information needs from
   external stakeholders that help OIG      Documented list of the information
   achieve its objectives and provide       needs from external stakeholders.
   value to stakeholders.

3) Develop the business case that           Developed Amtrak OIG value
   communicates the value of the OIG.       statement.


4) Solicit feedback from OIG Senior         Revised OIG value statement based on
   Leadership.                              feedback from the Senior Leadership.




External Communications                                                                                                     III - 11
                                 Tracking Tool to Guide Action Plan Implementation


                                                        External Communications
Desired Future State: Amtrak OIG has constructive relationships with Amtrak, Congress and its other external stakeholders that
enable it to gather and share information in order to conduct proactive and timely communications while maintaining independence and
supporting its mission.
Action 1: Develop overall approach to educating stakeholders about the unique value of the Amtrak OIG.
1b. Develop an organized, high-level marketing plan to establish the brand of Amtrak OIG.
Estimated time for this Action: 4 months
                                                                                                               Comments:
                    Step                         Examples of Targets/Measures           Status          Obstacles; Help Needed;
                                                                                                   Dependencies; Other Comments

1) Identify target audiences of the OIG
                                           Documented list of target audiences.
   marketing efforts.



2) Conduct Amtrak OIG SWOT analysis.       An Amtrak OIG SWOT report.


                                           OIG Marketing materials for:
                                             Amtrak Management
3) Develop marketing/branding materials
                                             Amtrak staff
   for different audiences.
                                             Congress
                                             Others




External Communications                                                                                                     III - 12
                                  Tracking Tool to Guide Action Plan Implementation
                                                        External Communications
Desired Future State: Amtrak OIG has constructive relationships with Amtrak, Congress and its other external stakeholders that
enable it to gather and share information in order to conduct proactive and timely communications while maintaining independence and
supporting its mission.
Action 1: Develop overall approach to educating stakeholders about the unique value of the Amtrak OIG.
1b. Develop an organized, high-level marketing plan to establish the brand of Amtrak OIG.
Estimated time for this Action: 4 months
                                                                                                               Comments:
                    Step                         Examples of Targets/Measures           Status          Obstacles; Help Needed;
                                                                                                   Dependencies; Other Comments
                                            Developed communication
                                            instruments and documented
                                            communication schedules for:
4) Develop instruments and structure to
                                              Amtrak Management
   distribute OIG marketing messages.
                                              Amtrak staff
                                              Congress
                                              Others

5) Specify roles and responsibilities for
                                            Documented roles and responsibilities
   those who will manage the OIG
                                            for marketing process ―owners.‖
   marketing efforts.


                                            Revised OIG marking plan based on
6) Solicit feedback from OIG Senior
                                            the comments from the Senior
   Leadership and staff members.
                                            Leadership.




External Communications                                                                                                     III - 13
                                  Tracking Tool to Guide Action Plan Implementation


                                                        External Communications
Desired Future State: Amtrak OIG has constructive relationships with Amtrak, Congress and its other external stakeholders that
enable it to gather and share information in order to conduct proactive and timely communications while maintaining independence and
supporting its mission.
Action 1: Develop overall approach to educating stakeholders about the unique value of the Amtrak OIG.
1c. Develop details of “OIG 101” to support high-level messaging.
Estimated time for this Action: 4 months
                                                                                                           Comments:
                   Step                       Examples of Targets/Measures            Status         Obstacles; Help Needed;
                                                                                                  Dependencies; Other Comments


1) Identify the stakeholders who should     Documented list of stakeholders who
   receive OIG 101.                         should receive OIG 101.


2) Identify those working on content
                                            Documented plan for cooperation with
   development in functional areas to
                                            other groups working on content
   avoid duplicative content development
                                            development.
   activities.
                                            Developed Amtrak OIG 101 materials
                                            for:
3) Develop the critical pieces of
                                              Amtrak Management
   information that should be included in
                                              Amtrak staff
   messaging materials.
                                              Congress
                                              Others




External Communications                                                                                                     III - 14
                                   Tracking Tool to Guide Action Plan Implementation
                                                        External Communications
Desired Future State: Amtrak OIG has constructive relationships with Amtrak, Congress and its other external stakeholders that
enable it to gather and share information in order to conduct proactive and timely communications while maintaining independence and
supporting its mission.
Action 1: Develop overall approach to educating stakeholders about the unique value of the Amtrak OIG.
1c. Develop details of “OIG 101” to support high-level messaging.
Estimated time for this Action: 4 months
                                                                                                           Comments:
                   Step                         Examples of Targets/Measures             Status      Obstacles; Help Needed;
                                                                                                  Dependencies; Other Comments
                                             Developed OIG 101 distribution
                                             mechanism for:
4) Determine message delivery                  Amtrak Management
   format/mechanism for OIG 101.               Amtrak staff
                                               Congress
                                               Others

5) Select the OIG staff members with         Documented list of staff members who
   effective communication skills to share   will take the responsibilities of sharing
   the materials and or give presentation.   the materials with stakeholders.



6) Develop follow-up guidelines.             Documented follow-up guidelines



                                             Revised OIG 101 materials and plans
7) Solicit feedback from OIG Senior
                                             based on the Senior Leadership’s
   Leadership and staff members.
                                             comments.




External Communications                                                                                                     III - 15
                                 Tracking Tool to Guide Action Plan Implementation

                                                        External Communications
Desired Future State: Amtrak OIG has constructive relationships with Amtrak, Congress and its other external stakeholders that
enable it to gather and share information in order to conduct proactive and timely communications while maintaining independence and
supporting its mission.
Action 2: Establish standard external communication strategies for OIG work
Estimated time for this Action: 9 months
                                                                                                               Comments:
                    Step                         Examples of Targets/Measures           Status          Obstacles; Help Needed;
                                                                                                   Dependencies; Other Comments


1) Identify the core stakeholders who      Documented list of stakeholders who
   should receive OIG communications       should receive OIG communications
   on a regular basis.                     on a regular basis.

                         Audit             Documented external communication
2) Establish external                      rules in:
   communications        Investigations      Audit
   protocols/rules.                          Investigations
                         I&E                 I&E
                                           Documented list of the key
                                           information that should be
3) Determine the key information that      communicated regularly to:
   should be communicated to                 Amtrak Management
   stakeholders regularly.                   Amtrak staff
                                             Congress
                                             Others




External Communications                                                                                                     III - 16
                                  Tracking Tool to Guide Action Plan Implementation
                                                        External Communications
Desired Future State: Amtrak OIG has constructive relationships with Amtrak, Congress and its other external stakeholders that
enable it to gather and share information in order to conduct proactive and timely communications while maintaining independence and
supporting its mission.
Action 2: Establish standard external communication strategies for OIG work
Estimated time for this Action: 9 months
                                                                                                               Comments:
                    Step                         Examples of Targets/Measures           Status          Obstacles; Help Needed;
                                                                                                   Dependencies; Other Comments


4) Specify roles and responsibilities for    Documented roles and responsibilities
   those who will maintain external          for external communication
   communication process in the OIG.         ―managers.‖

                                             Developed communication tools and
                                             for reporting to:
5) Develop standard communication
                                               Amtrak Management
   instruments and structure for reporting
                                               Amtrak staff
   to external stakeholders.
                                               Congress
                                               Others
                                             Documented schedules to
                                             communicate with:
6) Develop a schedule to inform
                                               Amtrak Management
   stakeholders of OIG progress, discuss
                                               Amtrak staff
   issues, and seek appropriate input.
                                               Congress
                                               Others




External Communications                                                                                                     III - 17
                                 Tracking Tool to Guide Action Plan Implementation

                                                          External Communications
Desired Future State: Amtrak OIG has constructive relationships with Amtrak, Congress and its other external stakeholders that
enable it to gather and share information in order to conduct proactive and timely communications while maintaining independence and
supporting its mission.
Action 3: Develop Plan to Assess the Impact of External Communication Effort.
Estimated time for this Action: 4 months (Beginning 4 months after implementation begins and could be done concurrently with Action
2.)
                                                                                                           Comments:
                   Step                        Examples of Targets/Measures           Status         Obstacles; Help Needed;
                                                                                                  Dependencies; Other Comments

1) Clearly articulate expectations and      Documented expectations and goals
   goals of external communications         of OIG external communications
   activities.                              activities.


2) Identify mechanisms for ensuring         Developed mechanisms to monitor
   adherence to established external        feedback from stakeholders
   communication processes.                 periodically.


                                            Documented list of measures that
3) Identify measurements of impact.         reflect the impact of OIG external
                                            communication efforts.




External Communications                                                                                                     III - 18
                                                          Amtrak OIG Organizational Assessment
                                                                        Phase II Final Report




                                       TAB IV

                      The Amtrak Office of Inspector General
                        Organizational Assessment Phase II
                      Implementation Roadmap Development


Subject: Quality and Timely Work Processes


Tab IV contains the Quality and Timely Work Processes Implementation Roadmap and
other supporting documents developed by the Working Group to guide the activities of
the Implementation Team.


       Quality and Timely Work Processes Implementation Roadmap
       Quality and Timely Work Processes Implementation Tracking Tool
       Audit Workflow Chart
       Investigations Workflow Chart




Quality Timely Work Processes
                                                       Amtrak OIG Organizational Assessment
                                                                     Phase II Final Report

                        This Page Left Intentionally Blank




Quality Timely Work Processes
                                                                   Amtrak OIG Organizational Assessment
                                                                                 Phase II Final Report

IV. Quality and Timely Work Processes
Desired Future State: Amtrak OIG consistently follows commonly accepted work practices
and standards both within functional areas and across locations. Work adheres to established
quality standards and, as appropriate, is accessible and transparent to OIG staff.

The Quality and Timely Work Processes (QTWP) Working Group, headed by Executive
Sponsor, Assistant Inspector General (AIG) for Audit, Dave Warren and Initiative Team Lead,
Dan Krueger, completed three Working Group sessions and continued work via email and by
phone to refine documents developed during these Working Group sessions.

The Working Group unanimously agreed that the Office of Inspector General (OIG)’s goal
should not be simply to pass the pending peer review, but to fully comply with the IG Act and
always be prepared to pass a peer review. All group members actively participated in discussions
and contributed to the development of the Tracking Tool, each sharing his or her unique and
valuable perspective.

The Working Group outlined the plan to support the OIG workforce in the adoption of consistent
business practices to guide its work in Audit, Inspections and Evaluations (I&E), and
Investigations. In addition, group participants highlighted the importance of a strong, effective
Quality Assurance (QA) process in the organization, as well as the risks of not having
consistency in the OIG’s work processes. While reviewing project progress, the Panel concurred
with the assessment of this risk and, referencing their past experiences within the IG and audit
communities, voiced concern about current work processes. They cautioned that the OIG should
recognize the criticality of developing rigorous work processes for both audit and non-audit
functions, and should acknowledge the potential outcome that another OIG would take over
Amtrak OIG’s responsibilities if Amtrak OIG does not follow standards.

The group also recognized the overarching importance of QA and the connections it has with the
entire OIG organization. The graphic below represents the Working Group’s view of the
interrelationship between QA and the key functional groups of the OIG.

                                       Figure IV-A
    The Interrelationship of Quality Assurance and Key Functions within Amtrak OIG



                                                 Investigations

                                  Audit


                                              Quality
                                             Assurance
                                                         Counsel
                               Inspections
                                    &
                               Evaluations     Management
                                                & Policy            OIG Support
                                                                     Functions




Quality and Timely Work Processes                                                                IV-1
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report


The Working Group also developed a draft flowchart of Audit steps and activities, which
provides a launching point for the Implementation Team to develop the OIG QA process.
Similarly, an Investigations process flow document was developed to allow for a starting point
for further discussion during implementation. (Both documents are listed as addendums at the
end of this chapter.)

Characteristics and Behaviors of Improved Quality and Timely Work Processes

In addition to defining specific actions to implement, the Working Group described a set of
future state characteristics and sample behaviors they would expect to see as a result of improved
quality and timely work processes (see chart that follows).

 Desired Future State - Amtrak OIG consistently follows commonly accepted work practices
 and standards both within functional areas and across locations. Work adheres to
 established quality standards and, as appropriate, is accessible and transparent to OIG staff.
     Desired Future State Characteristics         Behavior Supporting the Characteristics
 When OIG achieves its desired future state, the organization will be characterized by process
 and content that fosters the capability to:
  Be self-confident and prepared to always       Providing clear expectations
   adhere to IG Act standards for policy and      Facilitating active two-way
   procedure                                        communications
  Possess a common understanding of the          Encouraging openness
   processes driving the achievement of           Creating a retribution-free environment
   quality throughout the organization            Increasing training to model good
  Clearly define procedures, timeframes, and       behaviors and clarify desired conduct
   responsibilities for all components of the     Showing respect for others
   OIG
  Assure each member of the OIG is
   accountable for conducting work to the
   highest QA standards
  Create and sustain a culture of teamwork
   and collaboration
  Standardize procedures throughout the
   levels of the OIG
  Effectively communicate to stakeholders
   how OIG’s work adds value
  Identify the skills needed to conduct value-
   added activities
  Conduct operations at both OIG
   headquarters and field offices in a
   consistent and transparent manner




Quality and Timely Work Processes                                                           IV-2
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report


Implementation Actions and Steps

The Actions designed to improve quality and timely work processes within the OIG each have
multiple associated implementation steps, and the Working Group offered additional information
to the eventual Implementation Team in the form of context, guidance and commentary to help
them carry out these Actions and Steps. This information is presented on the following pages in
the Implementation Roadmap.

A Tracking Tool for the Implementation Roadmap addresses the need to identify the suggested
lead for the Implementation Team; timeframes or end dates for completing each Action and its
correlating Steps; and suggested measures or targets to assess progress toward accomplishing the
Actions. While the Implementation Roadmap serves more to guide the implementation activities
with guiding principles and tactical support, the tracking tool addresses metrics for identifying
progress of and accountability for the outlined processes. The Tracking Tool is included as an
addendum at the end of this chapter.

Since the sessions have been completed, the OIG has completed some Actions and Steps
developed by the Working Group. The progress and current status are noted on the
Implementation Roadmaps and Tracking Tools.

Action 1. Policy and Practices. Support the Amtrak OIG workforce in the adoption of consistent
business practices to guide its work in Audit, Inspections & Evaluations, and Investigations.

Action 1a. The purpose of Action 1a is to adopt a shared set of business practices across all OIG
locations that guide the work of the Audit and I&E groups. New policies for these two groups
have recently been developed, based on Yellow Book standards, which form the basis of this
Action. The policies have been reviewed, refined and published. The Audit and I&E are
implementing these policies.




Quality and Timely Work Processes                                                          IV-3
                                                             Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report

Action 1: Policy and Practices. Support the Amtrak OIG workforce in the adoption of
consistent business practices to guide its work in Audit, Inspections & Evaluations, and
Investigations.
1a. Support the Amtrak OIG workforce in the adoption of consistent business practices to
guide its work in Audit and Inspections & Evaluations.
Guiding Principles:
   All affected staff within the OIG must be formally communicated with when new policy
      is approved.
   Training provides the information about both ―what‖ the new policy is and ―how‖ it will
      be put into practice. It is a critical link in turning policy into new behaviors and work
      practices.
   All OIG staff would benefit from a rudimentary understanding of all functions within the
      office. Special attention should be paid to those policies in one group that somehow link
      to or affect the work of another group.
   Adoption of new policy requires reinforcement for appropriate behaviors associated with
      procedural changes, as well as feedback and opportunities for improvement with the
      policy is not followed
Step 1                             Things To Do:
Create functional focus groups       Per subsequent communications with the Deputy IG, this
to review and update                     review is currently being performed and may be
policies/best practices guiding          completed by the time an implementation team is
Audit and I&E.                           selected for this focus area. [Policies and best practices
                                         have undergone an initial review and revision. Further
                                         review to identify additional improvements is
                                         necessary.]

Step 2                      Things To Do:
Communicate new and updated  Prepare messages from the IG/DIG/AIG to all Audit and
policies.                       I&E staff when the new policy is available, with
                                messages to include the subject matter addressed, how it
                                will be implemented, and where staff can access the
                                policy. [This task has been completed initially. Once
                                additional polices are established and/or updated,
                                additional communication will be necessary.]
Step 3                      Things To Do:
Provide training on revised  Develop and deliver training (possibly with vendor
policies and updates.           support) to all Audit and I&E staff on the new policies,
                                modified procedures, and expected behaviors in how the
                                work is performed. [This task was completed using the
                                writing course to reinforce how we do our work.
                                Periodic training should be scheduled to reinforce the
                                new policies.]




Quality and Timely Work Processes                                                             IV-4
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report

Action 1: Policy and Practices. Support the Amtrak OIG workforce in the adoption of
consistent business practices to guide its work in Audit, Inspections & Evaluations, and
Investigations.
1a. Support the Amtrak OIG workforce in the adoption of consistent business practices to
guide its work in Audit and Inspections & Evaluations.
Step 4                             Things To Do:
Provide cross-training to            Develop a high-level overview course or briefing to all
Investigations on basic Audit           non-Audit/I&E staff that explains key policies and work
and I&E processes.                      processes from Audit/I&E. This course may be a
                                        simplified version of that developed in Step 3 for the
                                        Audit/I&E staff, or may require a separate effort.
Step 5                             Things To Do:
Identify and establish               Develop appropriate accountability measures to assess
accountability measures and             how well individuals and groups adhere to Audit/I&E
mechanisms (links to peer               policy
review process).                     Using the measures of accountability, build in
                                        behavioral elements into performance appraisals to
                                        reinforce personal responsibility for adhering to policy.

Action 1b. The purpose of Action 1b is to adopt a shared set of business practices across all OIG
locations that guide the work of the Investigations. New policies for this group are currently in
development, based on federal law enforcement standards, which form the basis of this Action.
At present the policies are being developed, with an anticipated completion date of July 2011.
This Action encompasses the completion of those policies, and the associated communication
and training that accompany their adoption.




Quality and Timely Work Processes                                                           IV-5
                                                             Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report


Action 1: Policy and Practices. Support the Amtrak OIG workforce in the adoption of consistent
business practices to guide its work in Audit, Inspections & Evaluations, and Investigations.
Action 1b. Policy and Practices. Support the Amtrak OIG workforce in the adoption of
consistent business practices to guide its work in Investigations.
Guiding Principles:
   All affected staff within the OIG must be formally communicated with when new policy is
      approved.
   Training provides the information about both ―what‖ the new policy is and ―how‖ it will be
      put into practice. It is a critical link in turning policy into new behaviors and work
      practices.
   All OIG staff would benefit from a rudimentary understanding of all functions within the
      office. Special attention should be paid to those policies in one group that somehow link to
      or affect the work of another group.
   Adoption of new policy requires reinforcement for appropriate behaviors associated with
      procedural changes, as well as feedback and opportunities for improvement with the policy
      is not followed.
Step 1                               Things To Do:
Finalize and get approval for          Investigative policy is currently under development,
policies guiding Investigations.          with an anticipated completion date of late July, 2011.
                                          As each policy is developed and approved it can be
                                          moved, communicated and adopted.
Step 2                               Things To Do:
Communicate new and updated            Prepare messages from the IG/DIG/AIG to all
policies.                                 Investigations staff when the new policy is available,
                                          with messages to include the subject matter addressed,
                                          how it will be implemented, and where staff can access
                                          the policy.
Step 3                               Things To Do:
Train staff in new procedures.         Develop and deliver training (possibly with vendor
                                          support) to all Investigations staff on the new policies,
                                          modified procedures, and expected behaviors in how the
                                          work is performed.
Step 4                               Things To Do:
Provide cross-training to Audit        Develop a high-level overview course or briefing to all
and I&E on basic processes                non-Investigations staff that explains key policies and
(e.g., offer Fraud Awareness              work processes from Investigations. This course may be
briefing).                                a simplified version of that developed in Step 3 for the
                                          Investigations staff, or may require a separate effort.




Quality and Timely Work Processes                                                            IV-6
                                                             Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report

Action 1: Policy and Practices. Support the Amtrak OIG workforce in the adoption of consistent
business practices to guide its work in Audit, Inspections & Evaluations, and Investigations.
Action 1b. Policy and Practices. Support the Amtrak OIG workforce in the adoption of
consistent business practices to guide its work in Investigations.
Step 5                              Things To Do:
Identify and establish                Develop appropriate accountability measures to assess
accountability measures and               how well individuals and groups adhere to
mechanisms (links to QA                   Investigations.
process).                             Using the measures of accountability, build behavioral
                                          elements into performance appraisals to reinforce
                                          personal responsibility for adhering to policy.

Action 2. Quality Assurance Process to Adhere to the IG Act. Develop and implement a quality
assurance process that is encompassed by work plans to ensure that OIG maintains high-quality
standards.

This Action is aimed at creating a culture that is committed to producing high quality products
and embeds QA into the overall work process, rather than treating it as a stand-alone activity
conducted at a project’s conclusion. Periodic quality checks that are based upon criteria from IG
peer reviews will ensure that concerns are identified early, course corrections are made, and final
products require little revision. The intent is to build QA into the basic work processes adopted
across the OIG and make it a natural part of performing the work.

Action 2: Quality Assurance Process to Adhere to the IG Act. Develop and implement a
quality assurance process that is encompassed by work plans to ensure that OIG maintains
high-quality standards.
Guiding Principles:
   All OIGs are subject to peer review. The methodology for performing peer reviews is
      prescribed by the Council of Inspectors General for Integrity and Efficiency (CIGIE).
   A clear depiction of the key activities and steps in the execution of work is a necessary
      precursor to identifying the appropriate QA activities throughout the process.
   Because QA must be an ingrained part of performing the work, not exclusively a final
      step in the work process, a mapping of specific QA actions within workflow is required.
   Training provides the information about both ―what‖ the QA process is and ―how‖ it will
      be put into practice. It is a critical link in developing new behaviors and work practices.
   Many OIG staff, particularly auditors, have specific periodic training and certification
      requirements that are foundational elements of a QA approach. OIG staff must be current
      in their training and certifications to ensure successful outcomes from a peer review.
   Adoption of new behaviors requires some level of accountability, and adherence to
      quality standards is critical to the success of the OIG.
Step 1                                  Things To Do:
Identify the criteria that guide          Obtain and review the methodology and criteria used
peer reviews in the IG                        in peer reviews for both Audit/I&E and Investigations
community and make it readily             Identify the relationship between the criteria and
available.                                    internal work practices within the OIG


Quality and Timely Work Processes                                                             IV-7
                                                           Amtrak OIG Organizational Assessment
                                                                         Phase II Final Report

Action 2: Quality Assurance Process to Adhere to the IG Act. Develop and implement a
quality assurance process that is encompassed by work plans to ensure that OIG maintains
high-quality standards.
Step 2                             Things To Do:
Map consistent workflow for         Review the draft workflow prepared by this Working
Audit, I&E, and Investigations         Group
(incorporating support functions,  Review and modify the draft workflow by meeting
i.e., Counsel, M&P, HR and IT).        with team (auditors, I&E staff, investigators) to further
                                       refine workflow in their areas
                                    Include a depiction of the role of the Director of QA
                                       and how they support QA among each group and the
                                       office overall
                                    Validate workflow with AIGs from each area

Step 3                              Things To Do:
Identify points in workflow to       Utilize draft workflow prepared by this Working
introduce QA process.                   Group once validated by AIGs

Step 4                              Things To Do:
Develop and deliver training on      Develop and deliver training (possibly with vendor
workflow and the QA process.            support) to all OIG staff on the QA activities that
                                        apply to the workflow guiding their work.
                                     Content should be developed for Audit, I&E and
                                        Investigations.
Step 5                              Things To Do:
Establish a communication            Identify the annual training requirements among the
mechanism to support training           OIG staff to maintain their certifications and other
planning and status updates to          skills
comply with requirements and         Have each AIG or their designate coordinate with the
certifications.                         Human Resources group to ensure annual training
                                        requirements are identified for each individual and
                                        training is actually taken by those staff
                                     Work with Human Resources to develop an annual
                                        training plan
                                     Develop an estimate for the cost of required training in
                                        the annual OIG budget cycle
                                     Work with Human Resources to develop a Tracking
                                        Tool to ensure all staff receive training and it is
                                        appropriately recorded in their personnel records




Quality and Timely Work Processes                                                          IV-8
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report

Action 2: Quality Assurance Process to Adhere to the IG Act. Develop and implement a
quality assurance process that is encompassed by work plans to ensure that OIG maintains
high-quality standards.
Step 6                             Things To Do:
Identify and establish              Create metrics that explicitly measure organization-
accountability measures and            wide accountability and ensure compliance to
mechanisms for adhering to             established quality standards.
quality standards.                  Communicate consequences related to non-
                                       compliance.

Action 3: Project Management System. Develop tools, guidance and training to support a
consistent approach to use of automated tools in the conduct of work across the OIG.

Intermediate Outcomes

In the early phase of its work the QTWP Working Group developed a Fast-Track
Implementation Plan to address the outstanding TeamMate and Amtrak Investigations
Management System (AIMS) issues identified by both the Internal Communications and QTWP
Working Groups. The groups concurred that TeamMate had become an urgent problem in the
OIG that required immediate action. The QTWP group submitted a fast-track plan to the IG and
DIG in November 2010 for immediate consideration. The actions and steps identified in the plan
are critical to ensure basic, effective use of TeamMate and AIMS, and to build expertise to meet
the long-term needs of the OIG. This Fast-Track Implementation Plan Outline, listed below, was
submitted in November of 2010 and activities have been initiated to determine the appropriate
upgrade that is needed as well as developing an effective schedule for additional training on new
features. Amtrak OIG Senior Leadership is respectful of time constraints placed on employees
as a result of recent training and employee engagement activities and is making every attempt to
balance the need for systems upgrades and adaptation as well as additional training associated
with this transition.

Within the Investigations group, all field staff have received basic and follow-on training
(refresher training using existing training materials) in the use of the AIMS, and are currently
inputting all case data into system. All users have been granted rights to the system based upon
their roles in the organizational structure and have been instructed that utilization of the AIMS
will be incorporated into their individual performance appraisal. This ensures a consistent level
of accountability necessary within the organization. As a result of the recent training, the
Investigations staff is also enjoying additional user capabilities such as exporting reports as MS
Excel spreadsheets to allow further manipulation of data. Additional reporting capabilities
include the ability to view activity at global, regional and individual levels, giving the user a
wider variety of ways to interpret and analyze data.




Quality and Timely Work Processes                                                           IV-9
                                                                       Amtrak OIG Organizational Assessment
                                                                                     Phase II Final Report


Submitted to Senior Leadership in November, 2010 for immediate consideration:

           Implementation Plan Supporting the Consistent Use of TeamMate and AIMS

Two Working Groups (Internal Communications and Quality and Timely Work Processes) each
identified the urgent need to address outstanding issues that have hampered the routine usage of
TeamMate and AIMS throughout the OIG. The issues surrounding these tools were thoroughly
addressed by both Working Groups, with each indicating that no further discussion was needed
before forwarding this recommendation to Senior Leadership for immediate consideration. Both
groups concur that these actions and steps are critical to improving internal operations of the
OIG. Establishing mechanisms to ensure these issues are addressed (as well as identifying
owners of the initiative activities) should be considered by OIG leadership at this time to avoid
any delays.

These groups propose the establishment of Implementation Team/s to address the following
Actions and steps:

Action Items from Internal Communications:

          Identify communication tools needed to support information sharing within the OIG.
          Identify appropriate technical leads for both AIMS 8 and TeamMate responsible for
           development of tool functionality, maintenance and ongoing updates to automated tools.

Action Item from Quality & Timely Work Processes:

          Develop tools, guidance and training to support a consistent approach to use of automated
           tools in the conduct of work across the OIG.

Steps to support these actions:
TeamMate Phase I – to be completed by June 30, 2011
       (A pre-requisite step is to purchase and install most current version of TeamMate
       that offers technical support available from vendor.)

       1) Specify roles and responsibilities for those who will design, develop, and maintain
          TeamMate.
       2) Determine the basic features and functions of TeamMate that will be used across the OIG
          and determine user training requirements. The new features that may be used are being
          piloted in the Los Angeles and Chicago offices during April and May 2011.

8
    A technical lead has been designated for AIMS, but none has yet been chosen for TeamMate

Quality and Timely Work Processes                                                                    IV-10
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report

   3) Develop and deliver training for all OIG employees on the use of TeamMate basic
      features and functions. A statement of work has been developed to contract for
      TeamMate training.
   4) Identify and train TeamMate Champions as key point of contact for technical questions at
      various OIG locations.
   5) Identify and establish accountability measures and mechanisms regarding use of
      TeamMate tools in the conduct of work.
   6) Revise the existing TeamMate protocol documents, so it is consistent with the revised
      Audit and I&E policies.

The Quality and Timely Work Process Working Group also identified Phase II actions that will
further expand usage of these tools and tailor functionality to specific Amtrak OIG policy and
user requirements. Both Working Groups recognized the criticality of a basic level of usage, as
well as the longer-term need for building expertise beyond the basic functions.

TeamMate Phase II

   7) Determine what additional functions are needed in TeamMate (beyond basics) that
      support new OIG policies (i.e., define user requirements.)
   8) Develop and deliver training for all OIG employees on the use of TeamMate additional
      functions.

AIMS Phase I – to be completed by January 31, 2011

   1) Provide information and training for AIMS (this is refresher training using existing
      training materials).
   2) Explore and resolve any issues or limitations related to user permissions (i.e., ensure that
      users have appropriate accesses to functions they need).
   3) Identify and establish accountability measures and mechanisms regarding use of AIMS in
      the conduct of work.

AIMS Phase II

   4) Determine what additional capabilities, add-ons, etc. are both useful and possible, given
      the user needs and technical capabilities of AIMS (e.g., explore ability to link with
      external spreadsheets, generate individual productivity reports).

The Working Groups acknowledged that some of these capabilities can be developed only after
policy development efforts for Audit, I&E and Investigations are further along. Timelines for
these Phase II steps will be developed as the work of the Quality and Timely Work Processes


Quality and Timely Work Processes                                                           IV-11
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report


Working Group continues. The groups also recognize that time and human resource constraints
need to be considered but felt strongly about bringing forth this critical issue prior to the
culmination of the Academy Phase II initiative to ensure that actions are taken on a timely basis
and that the important work of the focus groups does not impede necessary organizational
progress.

The Quality and Timely Work Processes group continues to clarify details related to these Action
steps (including identifying the skills needed for Implementation Team members and potential
participants) in anticipation of an impending Implementation Team being established.

Current Status of Fast-track Implementation Plan

Under the leadership of a quality assurance contractor, this implementation effort has begun with
the necessary training and consideration for the appropriate technical updates that will allow for
optimal utilization of these extremely integral project management tools. Statements of Work
have been developed for contracting to upgrade to the R-9 version of TeamMate and to provide
the related training. Contractors should be selected during April to accomplish these tasks.




Quality and Timely Work Processes                                                           IV-12
                                Tracking Tool to Guide Action Plan Implementation
                                                 Quality and Timely Work Processes
Desired Future State: Amtrak OIG consistently follows commonly accepted work practices and standards both within functional areas
and across locations. Work adheres to established quality standards and, as appropriate, is accessible and transparent to OIG staff.
Action 1: Policy and Practices. Support the Amtrak OIG workforce in the adoption of consistent business practices to guide its work in
Audit, Inspections & Evaluations, and Investigations.
Action 1a. Support the Amtrak OIG workforce in the adoption of consistent business practices to guide its work in Audit and
Inspections & Evaluations.
Estimated time for this Action is: 6 months
                                                                                                                  Comments:
                   Step                         Examples of Targets/Measures             Status            Obstacles; Help Needed;
                                                                                                      Dependencies; Other Comments
                                                                                                       Policies and best practices have
                                                                                                          undergone an initial review and
1) Create functional focus groups to review
                                             First meeting of focus group to                              revision.
   and update policies/best practices
   guiding Audit and I&E.
                                             review policies for Audit and I&E.                          Further review to identify
                                                                                                          additional improvements is
                                                                                                          necessary.
                                         OIG leadership sends first
2) Communicate new and updated policies. communication on new policies to
                                         Audit and I&E staff.

                                              Audit and I&E staff receive training
3) Provide training on revised policies and
                                              on new policies and modified
   updates.
                                              procedures.

                                              Investigations staff receive simplified
4) Provide cross-training to Investigations
                                              training course on Audit and I&E
   on basic Audit and I&E processes.
                                              processes.




Quality and Timely Work Processes                                                                                               IV-13
                                Tracking Tool to Guide Action Plan Implementation
                                                 Quality and Timely Work Processes
Desired Future State: Amtrak OIG consistently follows commonly accepted work practices and standards both within functional areas
and across locations. Work adheres to established quality standards and, as appropriate, is accessible and transparent to OIG staff.
Action 1: Policy and Practices. Support the Amtrak OIG workforce in the adoption of consistent business practices to guide its work in
Audit, Inspections & Evaluations, and Investigations.
Action 1a. Support the Amtrak OIG workforce in the adoption of consistent business practices to guide its work in Audit and
Inspections & Evaluations.
Estimated time for this Action is: 6 months
                                                                                                                 Comments:
                   Step                         Examples of Targets/Measures             Status           Obstacles; Help Needed;
                                                                                                      Dependencies; Other Comments
5) Identify and establish accountability    Performance appraisal process is
   measures and mechanisms (links to peer   modified to include measures of
   review process).                         accountability for adhering to policy.


                                                 Quality and Timely Work Processes
Desired Future State: Amtrak OIG consistently follows commonly accepted work practices and standards both within functional areas
and across locations. Work adheres to established quality standards and, as appropriate, is accessible and transparent to OIG staff.
Action 1: Policy and Practices. Support the Amtrak OIG workforce in the adoption of consistent business practices to guide its work in
Audit, Inspections & Evaluations, and Investigations.
Action 1b. Support the Amtrak OIG workforce in the adoption of consistent business practices to guide its work in
Investigations.
Estimated time for Action is: 5 months to develop and adopt policies; execution ongoing.
                                                                                                                 Comments:
                   Step                         Examples of Targets/Measures             Status           Obstacles; Help Needed;
                                                                                                      Dependencies; Other Comments

1) Finalize and get approval for policies   Investigations policies are approved
   guiding Investigations.                  by Senior Leadership



Quality and Timely Work Processes                                                                                            IV-14
                                Tracking Tool to Guide Action Plan Implementation
                                                 Quality and Timely Work Processes
Desired Future State: Amtrak OIG consistently follows commonly accepted work practices and standards both within functional areas
and across locations. Work adheres to established quality standards and, as appropriate, is accessible and transparent to OIG staff.
Action 1: Policy and Practices. Support the Amtrak OIG workforce in the adoption of consistent business practices to guide its work in
Audit, Inspections & Evaluations, and Investigations.
Action 1b. Support the Amtrak OIG workforce in the adoption of consistent business practices to guide its work in
Investigations.
Estimated time for Action is: 5 months to develop and adopt policies; execution ongoing.
                                                                                                                 Comments:
                   Step                         Examples of Targets/Measures             Status           Obstacles; Help Needed;
                                                                                                      Dependencies; Other Comments
                                         OIG Senior Leadership sends first
2) Communicate new and updated policies. communication on new policies to
                                         Investigations staff.

                                             Investigations staff receive training
3) Train staff in new procedures.            on new policies and modified
                                             procedures.

4) Provide cross-training to Audit and I&E   Audit and I&E staff receive
   on basic processes (e.g., offer Fraud     simplified training course on
   Awareness briefing).                      Investigations processes.

5) Identify and establish accountability     Performance appraisal process is
   measures and mechanisms (links to QA      modified to include measures of
   process).                                 accountability for adhering to policy.




Quality and Timely Work Processes                                                                                            IV-15
                                Tracking Tool to Guide Action Plan Implementation

                                                Quality and Timely Work Processes
Desired Future State: Amtrak OIG consistently follows commonly accepted work practices and standards both within functional areas
and across locations. Work adheres to established quality standards and, as appropriate, is accessible and transparent to OIG staff.
Action 2. Quality Assurance Process to Adhere to the IG Act. Develop and implement a quality assurance process that is
encompassed by work plans to ensure that OIG maintains high-quality standards.
Estimated time for Action is: 6 months.
                                                                                                                 Comments:
                     Step                       Examples of Targets/Measures             Status           Obstacles; Help Needed;
                                                                                                      Dependencies; Other Comments
                                             Methodology and criteria for OIG
1) Identify the criteria that guide peer
                                             peer review process is documented
   reviews in the IG community and make
                                             and communicated to Audit/I&E and
   it readily available.
                                             Investigations staff.
2) Map consistent workflow for Audit,
   I&E, and Investigations (incorporating     Comprehensive workflow for Audit,
   support functions, i.e., Counsel, M&P,     I&E and Investigations is composed.
   HR and IT).

3) Identify points in workflow to introduce
                                              Q&A process is added to workflow.
   Q&A process.


                                              All OIG staff have been trained on the
4) Develop and deliver training on
                                              Q&A activities that apply to their
   workflow and the QA process.
                                              work.

5) Establish a communication mechanism        Training program is implemented and
   to support training planning and status    processes are developed to ensure that
   updates to comply with requirements        all OIG staff remain up-to-date with
   and certifications.                        their Q&A training requirements


Quality and Timely Work Processes                                                                                           IV-16
                               Tracking Tool to Guide Action Plan Implementation
                                                Quality and Timely Work Processes
Desired Future State: Amtrak OIG consistently follows commonly accepted work practices and standards both within functional areas
and across locations. Work adheres to established quality standards and, as appropriate, is accessible and transparent to OIG staff.
Action 2. Quality Assurance Process to Adhere to the IG Act. Develop and implement a quality assurance process that is
encompassed by work plans to ensure that OIG maintains high-quality standards.
Estimated time for Action is: 6 months.
                                                                                                                 Comments:
                    Step                        Examples of Targets/Measures             Status           Obstacles; Help Needed;
                                                                                                      Dependencies; Other Comments
                                             Metrics are developed that measure
                                             accountability organization-wide and
6) Identify and establish accountability
                                             ensure compliance with established
   measures and mechanisms for adhering
                                             quality standards. Consequences for
   to quality standards.
                                             non-compliance are clearly
                                             communicated to staff.




Quality and Timely Work Processes                                                                                           IV-17
                            Tracking Tool to Guide Action Plan Implementation
                                         This Page Left Intentionally Blank




Quality and Timely Work Processes                                               IV-18
                                                                                                                                       Amtrak OIG Organizational Assessment
                                                                                                                                                      Phase II Final Report


                                                  Figure 1: Flow Chart of the 6 Phases and 2 Decision Points
                                                                  of the Audit and Evaluation Process
                                                                                               •    Develop meaningful audit objective(s)
 3 to 4    a. Project                                                                          •    Select scope and methodology that will achieve each objective
 weeks     Proposal Phase                                                                      •    Identify and cite Criteria
                                                                                               •    Quality Assurance check, ensure scope and methodology can achieve objective
                                                                                               •    Evaluate Preliminary Impact & Benefits
                                                                                               •    Identify Resources Draft Schedule
                                                                                               •    Prepare project initiation package or project proposals
                                                                                               •    Obtain AIG approval (signs engagement letter)
 8 to 12                                               C. Decision Meeting
           b. Survey Phase
 weeks                                                                                                            • Meet with team (auditors or investigators) to further develop plan &
                                                                                                                    procedures
                                                                                                                  • Prepare survey guide
                                                                                                                  • Assign Preliminary work
                                                                                                                  • Hold Entrance Conference with Amtrak Management and audit liaison
                                                                                                                  • Conduct preliminary survey phase testing
           d. Verification                                                                                        • Draft in Teammate
           Phase                                                                                                  • Audit team meets to discuss field work, support material and results
           (with Audit/Evaluation                                                                                 • Quality Assurance check: Team checks for completed survey guide
           Program and Mid-                                                                                         steps and cross-indexes to appropriate documentation, message,
           course Meeting)                                                                                          facts & support
                                                                                                                  • Audit Team prepares material for decision meeting
                                                                                                                  • Audit Lead conducts decision meeting with OIG/DIG or appropriate
                                                                                                                    personnel


           f. Draft Report                                 e. Message
                                                              Meeting                                       • Audit or evaluation program is approved by AIG
           Phase                                                                                            • Complete the audit or evaluation program steps by obtaining sufficient,
                                                                                                              relevant, and appropriate evidence to meet the objectives and that lead to
                                                                                                              findings, conclusions, and recommendations
                                                                                                            • Team to review the Quality Assurance Checklist to ensure all required steps
                                                                                                              are included in the audit or evaluation program
                                                                                                            • Collect additional data, perform field work and analysis
           g. Final Report                      • Quality Assurance check -ensure independent               • Adjust program as necessary, significant changes approved by AIG
                                                  referencing is completed                                  • Mid course meeting, if requested by AIG
           Phase
                                                • Draft final report and include auditee comments           • Prepare draft results in brief or executive summary
                                                • Finalize and distribute through OIG Liaison in
                                                  accordance with Chapter 9 procedures
                                                • Audit or evaluation team coordinates with General
                                                  Counsel and M&P on web posting and public
                                                                                                         • Meet with auditee to discuss preliminary audit results audit findings and
           Recommendation                         release of the final report.
                                                                                                           recommendations.
            Follow-up Phase                                                                              • Write a draft report that clearly and logically presents the agreement from the
             (Chapter 16)           • Enter all recommendations into the tracking database system          message meeting and findings as related to the audit or evaluation objectives.
                                      and TeamMate or the evaluation project documentation file          • This includes following the results in brief or executive summary and required
                                    • OIG designated person to follow up on agreed upon                    elements such as background and recommendations.
                                      recommendations, management actions and milestone dates            • Complete cross indexing draft report and work papers in Teammate
                                      with responsible management.                                       • Quality Assurance & Referencing review Teammate
                                    • Quality Assurance – Perioidic review and validation of             • Have independent referencing completed
                                      accuracy of tracking tool data.                                    • Hold exit conference
                                    • Communicate when recommendations are implemented




Quality and Timely Work Processes                                                                                                                                                  IV-19
                                                      Amtrak OIG Organizational Assessment
                                                                     Phase II Final Report

                           This Page Left Intentionally Blank




Quality and Timely Work Processes                                                   IV-20
                                                             Amtrak OIG Organizational Assessment
                                                                            Phase II Final Report

Investigative Process Flow

Activities below are outlined for actions taken when opening and closing investigations. As
investigations can differ in nature, not all documents will appear in all case files.

The Agent’s role in these tasks is to execute and his or her supervisor should be verifying the
activities and outcomes.


Investigative Plan

Upon opening a Preliminary Investigation, the agent in charge should:

          Determine the primary nature of the allegation (criminal, civil and/or administrative);
          Determine the plan focus and objectives of the investigation;
          Identify possible violations of law, rule or regulation and understand the
           corresponding elements of proof standards;
          Coordinate the decision to open an investigation with appropriate authorities, if
           warranted;
          Verify whether Internal Audit or Evaluations is performing or has performed an audit
           relating to the subject matter of the investigation;
          Determine the applicable judicial venue and coordinate with prosecutors, when
           appropriate;
          Determine the appropriate administrative office and coordinate with adjudicators,
           when appropriate;
          Identify and prioritize the investigative steps necessary to meet investigative
           objectives. This includes identifying the best approach to take during the
           investigation in order to resolve the allegation(s) or issue(s);
          Determine the resources necessary to meet investigative requirements;
          Establish a time-phased approach that ensures individual leads are pursued on a
           timely basis and periodic evaluations of progress occur. This should include an
           affirmative decision to continue or terminate the investigation;
          Ensure that investigative steps include the identification of any causative factors that
           can be reported as weaknesses or internal control issues requiring corrective action by
           agency management;
          Coordinate with the appropriate agency or other Government officials if notable
           security or public health and safety issues are raised.




Quality and Timely Work Processes                                                           IV-21
                                                              Amtrak OIG Organizational Assessment
                                                                             Phase II Final Report

After a case is closed, the investigations supervisor must verify:

          Documents properly indexed in case file;
          Case file properly labeled and tabbed;
          Investigative plan and case review documents present;
          302s with appropriate attachments and approvals in folder;
          302s with attachments uploaded in AIM;
          Verify all statistics are documented in AIM;
          Verify that all statistics are supported by 302 or Stand Alone Documents (Indictment,
           Judgments of Convictions);
          Were the allegations addressed?
          Was the complainant interviewed?
          Were appropriate interviews conducted;
          Evidence noted and suspended by Evidence Custodian for disposal;
          302 notes filed in envelop or bulky folder;
          Case file reviewed for potential Amtrak management referral issues and alternative
           remedies;
          Response from Amtrak Management;
          Closing ROI indexed.




Quality and Timely Work Processes                                                           IV-22
                                                        Amtrak OIG Organizational Assessment
                                                                      Phase II Final Report




                                          TAB V

                          The Amtrak Office of Inspector General
                            Organizational Assessment Phase II
                          Implementation Roadmap Development


Subject: Work Planning and Prioritization


Tab V contains the Work Planning and Prioritization Implementation Roadmap and other
supporting documents developed by the Working Group to guide the activities of the
Implementation Team.


     Work Planning and Prioritization Implementation Roadmap
     Work Planning and Prioritization Implementation Tracking Tool
     Amtrak OIG Stakeholders Chart




Work Planning and Prioritization
                                                        Amtrak OIG Organizational Assessment
                                                                      Phase II Final Report

                             This Page Left Intentionally Blank




Work Planning and Prioritization
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report


V.       Work Planning and Prioritization
Desired Future State: Amtrak OIG has an annual work planning and prioritization process
that engages stakeholders in identifying opportunities for improvement and risk reduction.
This process identifies high value work and enables OIG to more effectively allocate its
resources to this work.
The Work Planning and Prioritization (WPP) Working Group Team, headed by Executive
Sponsor, Cal Evans, Assistant Inspector General (AIG) for Inspection and Evaluation (I&E) and
Initiative Team Lead, Phil Ong, completed four Working Group sessions.

An Implementation Roadmap and Tracking Tool were drafted based upon the findings and
materials developed during the facilitated Working Group sessions.           The Working Group
participants shared their experiences and challenges as they related to consistent, and in some
parts of the organization, non-existent planning and prioritization of work for an upcoming year.
Some key findings that emerged from these sessions include:

        The efforts to develop the Annual Planning process refer to the Audit and I&E functional
         areas, as the work conducted in Investigations is more reactive. Eventually the
         Investigations may be able to adapt elements of this planning process to segments of its
         work.
        There was some concern that the Office of Inspector General (OIG) Five Year Strategic
         Plan may not reflect the appropriate goals for the OIG. With that concern noted, the
         planning process developed here is intended to support any goals and objectives for the
         office, and focus on the creation of a documented process for planning that transcends
         specific goals.
        The objectives for the Annual Audit Planning Process are unclear to some staff. Staff in
         functional and support areas other than Audit and I&E are somewhat unfamiliar with this
         process.
        There is acknowledgement that the development of an effective Annual Planning process
         will take some time and require some evolution into a meaningful and impactful
         endeavor.

Implementation Actions and Steps
The Actions and Steps listed below reflect the outputs from the WPP Working Group sessions.

Action 1: Identify Annual Planning Methodology. Establish a planning methodology that reflects
both OIG best practices in work planning and any relevant, unique issues faced by the Amtrak
OIG.

The focus of this Action is to develop and document an overall Annual Planning process that
     is consistent with internal policy,
     ensures that work undertaken is of value to stakeholders, and
     reflects the priorities and criteria of internal OIG leadership.

Work Planning and Prioritization                                                              V-1
                                                             Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report


The output of this Action is a documented annual work planning process.

Action 1: Identify Annual Planning Methodology. Establish a planning methodology that
reflects both OIG best practices in work planning and any relevant, unique issues faced by the
Amtrak OIG.
Guiding Principles:
   The OIG leadership believes that the current planning needs include documenting and
      formalizing the process, including more opportunities for staff to engage and utilize
      designated leaders or spokespersons to assist in the communications process.
   Working Group findings revealed that the Senior Leadership value an approach that
      leverages the knowledge and experience of the senior staff and their ability to consider
      multiple sources of information (e.g., external requirements from Congress, Amtrak,
      Amtrak OIG’s broader environment) over a heavily quantitative approach to risk
      assessment.
   Both the Inspector General (IG) and the Working Group recognize the need to maintain
      large, medium and small projects to support a balanced portfolio. This is necessary both to
      employ staff with varying levels of experience and to continuously have outputs in a timely
      manner (i.e., big, important issues may take more than a year to complete, but smaller and
      intermediate findings must be made available throughout any given year).
   Senior Leadership approval is essential to development of this or any OIG procedure. It is
      crucial to capture leadership perspective and make refinements to reflect the best way to
      plan work within the Amtrak OIG.
   When this planning approach is finalized, it becomes another form of OIG policy that can
      be posted and shared with all office staff.
Step 1                             Things To Do:
Review recently developed               Identify areas where the current work planning
OIG Policy & Procedures and                guidance is insufficient or unclear.
use as a starting point for             Review the benchmarking conducted during Phase I to
developing more detailed                   learn about the approaches model OIGs take to
guidance to conduct annual                 planning and possibly expand benchmarking to focus
work planning. Identify any                on the content of the work other organizations engage
areas in the new policy that               in and identify as having high value.
need additional detail to add      Content
clarity regarding the actual            Include Senior Leadership guidance in the
required procedures.                       review/selection of OIG work planning methods.
                                   Mechanism
                                        Refrain from heavily quantitative, tool-driven activities
                                           - employ qualitative data-gathering approach in order to
                                           gain Senior Leadership insight related to risk.




Work Planning and Prioritization                                                             V-2
                                                              Amtrak OIG Organizational Assessment
                                                                            Phase II Final Report

Action 1: Identify Annual Planning Methodology. Establish a planning methodology that
reflects both OIG best practices in work planning and any relevant, unique issues faced by the
Amtrak OIG.
Step 2                             Things To Do:
Identify key external                   Coordinate with the Performance Measurement
stakeholders and what they                 Working Group to avoid duplication of effort.
value from Amtrak OIG.                  Describe the characteristics stakeholders value in
                                           OIG’s work.
                                   Mechanism
                                        Use initial list of stakeholders and accompanying
                                           graphic developed by WPP Working Group as a
                                           starting point.
Step 3                             Things To Do:
Engage OIG senior leaders to       Note: this Step can be done concurrently with Step 1; They do
identify and prioritize key        not need to take place sequentially.
areas/criteria that will guide the
assessment of opportunities             Develop a clearer understanding of the considerations
and risk (e.g., what are the               and criteria used in prioritizing the work.
types of opportunities and risks Content
that will always be high in             Gather information through individual interviews with
priority; what kinds of                    the IG, Deputy IG (DIG) and AIGs. Examples of
opportunities and risks are                questions to include:
unique to Amtrak and the                       o How do they accommodate emergent
Amtrak OIG).                                       requirements and/or special projects?
                                               o How do they prioritize stakeholders (i.e., who’s
                                                   most important)?
                                               o How do they factor in special requirements,
                                                   such as ARRA, that require considerable
                                                   resources, but have a specific end-date (i.e., are
                                                   temporary)?
                                   Mechanism
                                        Include a mechanism to record information gathered
                                           from the Senior Leadership highlighting areas such as:
                                               o Staff capabilities
                                               o Timing of projects
                                               o Balance of strategic goals with internal
                                                   priorities
                                               o New work vs. revisiting previous issues or work
                                               o Residual risk
Step 4                             Things To Do:
Document the planning model             Identify optimal format for recording and sharing
based on input from Steps 1, 2             details of the planning approach based on input from
and 3.                                     Steps 1, 2 and 3.


Work Planning and Prioritization                                                               V-3
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report

Action 1: Identify Annual Planning Methodology. Establish a planning methodology that
reflects both OIG best practices in work planning and any relevant, unique issues faced by the
Amtrak OIG.
Step 5                             Things To Do:
Solicit feedback from OIG              Recommend a group meeting with the IG, DIG and
Senior Leadership on the draft            AIGs to discuss the documented process, review
of the documented work                    expectations and assumptions held by leadership, and
planning process.                         identify any modifications needed.
Step 6                             Things To Do:
Refine planning assessment             Refine planning assessment method based on OIG
method based on OIG Senior                Senior Leadership feedback and establish documented
Leadership feedback and                   process for annual work planning and prioritization.
establish documented process           Coordinate with M&P after the plan is finalized and
for annual work planning and              post on the shared policy repository.
prioritization.

Action 2: Establish communications guidance on what staff needs to provide to Senior
Leadership to support the decision-making and planning process. Create the foundation for
greater participation in the annual work planning process.

The intent of this Action is to define who, what and when staff are included in the work planning
process. Because the IG is committed to greater staff participation in aspects related to how the
office plans and conducts its business, this Action is key to identifying how that participation
will be fostered and carried out.

Action 2: Establish communications guidance on what staff needs to provide to Senior
Leadership to support the decision-making and planning process. Create the foundation for
greater participation in the annual work planning process.
Guiding Principles:
   It is imperative to establish a participative approach within the organization to develop OIG
      annual work plans.
   OIG staff should be encouraged to offer ideas with sufficient information to the Senior
      Leadership to make an informed decision.
Step 1                             Things To Do:
Develop specific guidance for          Prepare guidelines that explain what and how to submit
staff on preparing information             ideas or respond to requests for information (e.g.,
related to both ―data calls‖               provide a set of points to address that reflect the
(top-down requests) and                    considerations or criteria used in the prioritization
unsolicited or bottom-up                   process identified in the previous Action).
submissions of issues.




Work Planning and Prioritization                                                           V-4
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report

Action 2: Establish communications guidance on what staff needs to provide to Senior
Leadership to support the decision-making and planning process. Create the foundation for
greater participation in the annual work planning process.
Step 2                             Things To Do:
Identify communication                 Review the existing communication channels already in
mechanisms within the OIG                 use within the OIG; identify new channels that might
that can be used to gather                be needed.
input.                                 Coordinate this Step with the Internal Communications
                                          Implementation Team; they are creating an inventory of
                                          existing OIG communication mechanisms.
Step 3                             Things To Do:
Outline the Annual Planning            Outline the Annual Planning schedule and identify the
schedule and identify the                 timeframe for gathering input from the workforce in the
timeframe for gathering input             planning cycle. This is a high level schedule that notes
from the workforce in the                 when inputs will be gathered, when OIG leadership will
planning cycle.                           be developing the annual plan, and other major
                                          activities. The level of measurement is in months and
                                          general timeframes, not specific dates as this is
                                          intended to be the overall approach to annual planning
                                          and not the plan for any particular year.




Work Planning and Prioritization                                                            V-5
                                                               Amtrak OIG Organizational Assessment
                                                                             Phase II Final Report

Action 3: Develop a mechanism to document, share and track information from key stakeholders
and environmental scanning to support annual work planning process.

Input from external sources, such as Congress, CIGIE, and others is critical to the Annual
Planning process. There must be a thoughtful, coordinated approach to how this information is
gathered, captured, and included in the OIG’s planning activities.

Action 3: Develop a mechanism to document, share and track information from key stakeholders
and environmental scanning to support annual work planning process.
Guiding Principles:
   The interactions with external stakeholders must be well coordinated within the OIG. At
      present there is no mechanism to record conversations held among OIG staff with the
      various stakeholders, which increases the risk that certain issues may be inadvertently
      overlooked during the Annual Planning process.
   The Implementation Team will develop a rudimentary knowledge management tool (Step
      2) for compiling relevant information from external sources and making it available to the
      IG, DIG, AIGs and others who engage with external stakeholders in conversations that
      would impact the overall work planning process. The issues identified during conversations
      with stakeholders should be periodically reviewed for relevance and criticality.
Step 1                             Things To Do:
Identify existing mechanisms           Conduct conversations with the IG and DIG to identify:
for gathering information from            o Who they and the AIGs routinely interact with,
external sources to support               o How frequently they interact with different external
work planning.                                stakeholders (e.g., how often they meet with
                                              Amtrak board members, hill staff, others), and
                                          o What the best option is for recording these
                                              conversations to create a resource for the planning
                                              activity.
Step 2                             Things To Do:
Develop a simple Tracking              Develop a simple spreadsheet for IG, DIG, AIGs and
Tool for IG, DIG, AIGs and                others to track relevant planning-related information.
others to track information
obtained through discussions
with stakeholders.
Step 3                             Things To Do:
Develop process for updating           Identify person/s responsible for overseeing planning-
and maintaining the content of            related data management.
the data contained in the              Develop process for updating and maintaining the
Tracking Tool.                            content of the data contained in the Tracking Tool.
                                       Identify criteria to guide the review that assess whether
                                          the issues are still valid, should be raised to the level of
                                          a planned action by the OIG, or if they are no longer
                                          relevant.



Work Planning and Prioritization                                                                V-6
                                          Tracking Tool to Guide Action Plan Implementation

                                                     Work Planning & Prioritization
Desired Future State: Amtrak OIG has an annual work planning and prioritization process that engages stakeholders in identifying
opportunities for improvement and risk reduction. This process identifies high value work and enables OIG to more effectively allocate
its resources to this work.
Action 1: Identify Annual Planning Methodology. Establish a planning methodology that reflects both OIG best practices in work
planning and any relevant, unique issues faced by the Amtrak OIG.
Estimated time for Action is: 4 Months
                                                                                                              Comments:
                      Step                        Examples of Targets/Measures          Status          Obstacles; Help Needed;
                                                                                                    Dependencies; Other Comments
1) Review recently developed OIG Policy
     & Procedures and use as a starting
     point for developing more detailed
                                               Documented list of areas that need
     guidance to conduct annual work
                                               additional details and clarification.
     planning. Identify any areas in the new
     policy that need additional detail to add
     clarity about the actual required
     procedures.
2) Identify key external stakeholders and      Descriptions of the characteristics
     what they value from Amtrak OIG.     9    stakeholders value in OIG’s work.




9
 This Step is also identified in the Performance Measurement roadmap; the intent is not to duplicate this task, but ensure that stakeholder identification is
conducted and used in both road maps

Work Planning and Prioritization                                                                                                                                V-7
                                   Tracking Tool to Guide Action Plan Implementation

                                                      Work Planning & Prioritization
Desired Future State: Amtrak OIG has an annual work planning and prioritization process that engages stakeholders in identifying
opportunities for improvement and risk reduction. This process identifies high value work and enables OIG to more effectively allocate
its resources to this work.
Action 1: Identify Annual Planning Methodology. Establish a planning methodology that reflects both OIG best practices in work
planning and any relevant, unique issues faced by the Amtrak OIG.
Estimated time for Action is: 4 Months
                                                                                                              Comments:
                     Step                         Examples of Targets/Measures          Status          Obstacles; Help Needed;
                                                                                                    Dependencies; Other Comments
3) Engage OIG senior leaders to identify       Documented list of the key
     and prioritize key areas/criteria that    considerations and criteria in
     will guide the assessment of              prioritizing OIG opportunities and
     opportunities and risks (e.g., what are   risks.
     the types of opportunities and risks that
     will always be high in priority; what
     kinds of opportunities and risks are
     unique to Amtrak and the Amtrak
     OIG).
4) Document the planning model based           Developed OIG planning model.
     on input from steps 1,2 and 3.
                                               Scheduled group meeting with the
5) Solicit feedback from OIG Senior
                                               OIG Senior Leadership to review the
     Leadership on the draft of the
                                               draft work planning process.
     documented work planning process.
6) Refine planning assessment method         Revised work planning process based
   based on OIG Senior Leadership            on the comments from the Senior
   feedback and establish documented         Leadership.
   process for annual work planning and
   prioritization.


Work Planning and Prioritization                                                                                                V-8
                                   Tracking Tool to Guide Action Plan Implementation


                                                  Work Planning & Prioritization
Desired Future State: Amtrak OIG has an annual work planning and prioritization process that engages stakeholders in identifying
opportunities for improvement and risk reduction. This process identifies high value work and enables OIG to more effectively allocate
its resources to this work.
Action 2: Establish communications guidance on what staff needs to provide to Senior Leadership to support the decision-
making and planning process. Create the foundation for greater participation in the annual work planning process
Estimated time for Action is: 30 Days
                                                                                                              Comments:
                      Step                     Examples of Targets/Measures             Status          Obstacles; Help Needed;
                                                                                                    Dependencies; Other Comments
1) Develop specific guidance for staff on
                                            Documented guidance (what & how)
     preparing information related to both
                                            for staff members to provide
     ―data calls‖ (top-down requests) and
                                            information to support the work
     unsolicited, or bottom-up submissions
                                            planning process.
     of issues.
                                            Documented list of the mechanisms to
2) Identify communication mechanisms        collect input from OIG staff
     within the OIG that can be used to     members.
     gather input.
                                             Documented overall OIG annual
3) Outline the annual planning schedule      planning schedule.
   and identify the timeframe for
   gathering input from the workforce in     Documented timeframe to gather
   the planning cycle.                       input from OIG staff members in the
                                             planning cycle.




Work Planning and Prioritization                                                                                                V-9
                                           Tracking Tool to Guide Action Plan Implementation


                                                  Work Planning & Prioritization
Desired Future State: Amtrak OIG has an annual work planning and prioritization process that engages stakeholders in identifying
opportunities for improvement and risk reduction. This process identifies high value work and enables OIG to more effectively allocate
its resources to this work.
Action 3: Develop a mechanism to document, share and track information from key stakeholders and environmental scanning
to support annual work planning process. 10
Estimated time for Action is: 30 Days
                                                                                                              Comments:
                     Step                      Examples of Targets/Measures             Status          Obstacles; Help Needed;
                                                                                                    Dependencies; Other Comments
                                            Scheduled of meetings with the IG
                                            and DIG.
1) Identify existing mechanisms for
     gathering information from external    Documented list of the mechanisms to
     sources to support work planning.      gather information from external
                                            stakeholders for the OIG annual work
                                            planning.
2) Develop a simple Tracking Tool for       Developed spreadsheet to track
     IG, DIG, AIGs and others to track      relevant planning related information.
     information obtained through
     discussions with stakeholders.




10
     This Action has a direct link to the External Communications focus area

Work Planning and Prioritization                                                                                                V-10
                                   Tracking Tool to Guide Action Plan Implementation

                                                  Work Planning & Prioritization
Desired Future State: Amtrak OIG has an annual work planning and prioritization process that engages stakeholders in identifying
opportunities for improvement and risk reduction. This process identifies high value work and enables OIG to more effectively allocate
its resources to this work.
Action 3: Develop a mechanism to document, share and track information from key stakeholders and environmental scanning
to support annual work planning process. 10
Estimated time for Action is: 30 Days
                                                                                                              Comments:
                     Step                      Examples of Targets/Measures             Status          Obstacles; Help Needed;
                                                                                                    Dependencies; Other Comments
                                            Documented roles and responsibilities
                                            for the planning related data
                                            managers.
3) Develop process for updating and
                                             Developed process for updating and
   maintaining the content of the data
                                             maintaining the Tracking Tool.
   contained in the Tracking Tool.
                                             Documented list of criteria to
                                             determine whether certain issues are
                                             relevant to OIG work planning.




Work Planning and Prioritization                                                                                                V-11
                                   Tracking Tool to Guide Action Plan Implementation

                                             This Page Left Intentionally Blank




Work Planning and Prioritization                                                       V-12
                                                            Figure V-A Amtrak OIG Stakeholders



                                                     External Stakeholders



                                         Tier III: Taxpayers; Riders/customers;
                                          Amtrak Employees; Unions; NARP;                                                                      Internal Stakeholders
                                          Freight Railroads; Business Partners;
                                                     Partners abroad


                                             Tier II: FRA; DOT; DOT OIG;
                                               Administration; State DOT;                                                                       OIG Employees
                                         Local Communities; Commuter Agencies




                                                Tier I: Core Stakeholders
                                                   Amtrak Management
                                                      Amtrak Board
                                                         Congress
                                                          CIGIE*




                               Tier I: Parties that are directly impacted by OIG reports/products and can directly effect change.
                               Tier II: Parties that are indirectly impacted by OIG reports and can reasonably effect change.
                               Tier III: Parties that are indirectly impacted by OIG and have little ability to effect change.

                 *CIGIE is included in the Tier I group because it is a user of Amtrak OIG products, but not a body that is a subject of their work. They collect and track outputs
                 from all OIGs and play a key role in offering peer input regarding the quality of OIG products and processes across the community.




Work Planning and Prioritization                                                                                                                                                      V-13
                                                        Amtrak OIG Organizational Assessment
                                                                       Phase II Final Report


                             This Page Left Intentionally Blank




Work Planning and Prioritization                                                    V-14
                                                         Amtrak OIG Organizational Assessment
                                                                        Phase II Final Report




                                          TAB VI

                          The Amtrak Office of Inspector General
                            Organizational Assessment Phase II
                          Implementation Roadmap Development


Subject: Performance Measurement


Tab VI contains the Performance Measurement Implementation Roadmap and other supporting
documents developed by the Working Group to guide the activities of the Implementation Team.


     Performance Measurement Implementation Roadmap
     Performance Measurement Implementation Tracking Tool
     Amtrak OIG Stakeholders Chart




Performance Measurement
                                                     Amtrak OIG Organizational Assessment
                                                                    Phase II Final Report

                          This Page Left Intentionally Blank




Performance Measurement
                                                          Amtrak OIG Organizational Assessment
                                                                         Phase II Final Report

VI. Performance Measurement
Desired Future State: Amtrak OIG has performance metrics that reflect the requirements of
the Inspector General Act; meet the expectations of Congress and other stakeholders; and
reflect the value of OIG work to Amtrak. These metrics are integrated into OIG’s operating
and performance management systems.

The Performance Measurement (PM) Working Group Team, led by Executive Sponsor Cal
Evans, Assistant Inspector General (AIG) for Inspection and Evaluation (I&E), and Initiative
Team Lead, Nico Lindenau, completed four Working Group sessions.

The Implementation Roadmap and Tracking Tool are based upon the findings and materials
developed during the facilitated Working Group sessions. Some key findings that emerged from
these sessions included:

      Senior Leadership engagement is a crucial component of the overall success of
       identifying the most meaningful performance metrics.
      There is a need to address Human Capital Management decision makers to ensure
       appropriate linkages exist between organizational goals and individual performance
       measures. The performance measures addressed by this Working Group are at the
       organizational level, and do not reflect individual performance appraisal components.
      This group anticipated that, like many other Offices of Inspector General (OIG), a PM
       Implementation Team may be challenged in its efforts to identify meaningful, outcome-
       based qualitative metrics of organizational performance.
      There is a lack of consensus across the OIG in how stakeholders are identified and
       prioritized as they relate to the independent oversight work of the Amtrak OIG. The
       Working Group developed a tool to guide the Implementation Team and assist in
       clarifying stakeholder positioning. (Figure VI – A is located as an addendum at the end
       of this chapter.) The Working Group had mixed perceptions about the role or importance
       of some stakeholders (e.g., Council of Inspector General on Integrity and Efficiency
       (CIGIE)). This graphic requires further review and validation by the OIG leadership as
       well as the PM and Work Planning and Prioritization (WPP) Implementation Teams.




Performance Measurement                                                                VI - 1
                                                            Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report

Implementation Actions and Steps

The Actions designed to improve performance measurement within the OIG have multiple
associated implementation steps, and the Working Group offered additional information to the
Implementation Team in the form of context, guidance, and commentary to help them carry out
these Actions and Steps. This information is presented on the following pages in the
Implementation Roadmap.

The Tracking Tool for the Implementation Roadmap addresses the need to identify the suggested
lead for the Implementation Team; timeframes or end dates for completing each Action and its
correlating Steps; and suggested measures or targets to assess progress toward accomplishing the
Actions. While the Implementation Roadmap serves more to guide the implementation activities
with guiding principles and tactical support, the Tracking Tool provides metrics for identifying
progress of and accountability for the outlined processes. The Tracking Tool is included as an
addendum at the end of this chapter.

Action 1. Identification of Measures and Metrics. Develop measures that reflect the overall
performance of the OIG, including both outputs (quantities) and outcomes (impacts).

The purpose of this Action is to identify and/or develop a concise set of metrics that serve as
meaningful indicators of the OIG’s performance. These metrics will be office-wide in
perspective, and are intended to help leadership assess the OIG’s performance in fulfilling its
mission and demonstrating its impact. These measures will include those that support statutory
reporting requirements, as well as non-traditional measures that can be more meaningful
indicators of performance and success. Development of these non-traditional measures will
require a bit of creativity, as well as original thinking about how OIGs can demonstrate their
value as trusted stewards of public funds.

Action 1: Identification of Measures and Metrics. Develop measures that reflect the overall
performance of the OIG, including both outputs (quantities) and outcomes (impacts).
Guiding Principles:
   OIGs have established reporting requirements. Measures and reporting mechanisms to
     support those requirements are currently in place. An initial inventory of those measures is
     necessary to learn what is currently being used.
   The OIG needs to understand the range and priority of its stakeholders as it determines how
     to demonstrate its value.
   The Inspector General (IG) and Deputy IG (DIG) have a strong understanding of the
     perceptions and needs of the OIG’s stakeholder community. In addition, the IG and DIG
     have certain expectations about the scope of performance measurement. Clarification is
     needed on the degree to which performance measurement will focus on measures that
     support external reporting or internal efficiency.
   There are no standard outcome-reporting measures in the IG community. Many metrics are
     not quantifiable or data-driven.
   Measures should be meaningful and practical to garner support; measures that impose a
     significant administrative burden are less likely to be adopted. There is no need to take a
     theoretical approach and develop comprehensive metrics that cover every possibility. The

Performance Measurement                                                                   VI - 2
                                                            Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report

Action 1: Identification of Measures and Metrics. Develop measures that reflect the overall
performance of the OIG, including both outputs (quantities) and outcomes (impacts).
      OIG needs reasonable number of meaningful, basic performance indicators.
   The current strategic plan includes a number of output and outcome measures that could
      serve as a starting point from which the OIG can move forward. The Implementation Team
      should take full advantage of existing data and tools.
   Senior leaders must ultimately show their approval and support for the performance
      measures, and commit the office to reporting on the measures. This is critical in moving the
      OIG toward becoming a culture that emphasizes performance.
Step 1                             Things To Do:
Document measures and                 Consult IG Act, semi-annual reports, Management &
metrics that support statutory          Policy (M&P) group, Senior Leadership and CIGIE
reporting requirements.                 literature for guidance on statutory reporting
                                        requirements
                                      Identify what is currently gathered and reported within
                                        Amtrak OIG. Consult with M&P to identify existing
                                        mechanisms, as this group currently compiles the data
                                        and prepares the semi-annual reports.
Step 2                             Things To Do:
Identify key external                 Coordinate with the WPP group; this Step is also
stakeholders and what they              identified in the WPP Roadmap; the intent is not to
value from Amtrak OIG.                  duplicate this task, but ensure that stakeholder
                                        identification is conducted and used in both Roadmaps.
                                      Review, refine, and validate the initial list/graphic of
                                        stakeholders developed by WPP and PM Working
                                        Groups.
                                      Review the stakeholder interview data captured during
                                        the earlier organizational assessment to understand what
                                        Amtrak stakeholders have said they value.
                                      Benchmark CIGIE and other OIGs for latest work on
                                        organizational performance measures; suggest conducting
                                        interviews with members of these organizations. The
                                        discussions should focus on big-picture measures and
                                        indicators of performance, not specific metrics.




Performance Measurement                                                                    VI - 3
                                                           Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report

Action 1: Identification of Measures and Metrics. Develop measures that reflect the overall
performance of the OIG, including both outputs (quantities) and outcomes (impacts).
Step 3                          Things To Do:
Discuss with Senior                 Rather than contacting these stakeholders directly, the
Leadership their perception of         implementation team should leverage the Senior
key external stakeholders’             Leadership as a data source. IG and DIG have very
expectations relating to               frequent conversations with stakeholders, have a good
meaningful performance                 sense of stakeholders’ interests, and can clarify for the
measures and indicators.               Implementation Team any confusion about the balance of
                                       stakeholders’ expectations and OIG responsibilities. This
                                       is the first Step in gauging stakeholder perception.
                                    Frame the discussion with the IG and DIG around: ―What
                                       does Congress/Amtrak Management/Board value most
                                       from the OIG?‖; ―How do they judge the OIG’s
                                       impact?‖; ―What do they most need from the OIG?‖
                                    Summarize the findings from this discussion to serve as
                                       valuable information to share within the OIG.
Step 4                          Things To Do:
Develop additional qualitative      Based on the conversations with the IG and DIG in Step
measures and metrics of OIG            3, determine the degree to which such items as efficiency
performance that address:              and potential savings should be measured.
 OIG overall                       Coordinate this effort with:
  o internal processes                   o Human Capital Management to help them in
     (efficiency, outputs)                   developing cascading measures of performance
  o external measures and                    (ensure that individual measures relate to
     outcomes (impact of                     organizational level measures).
     work)                               o Quality and Timely Work Process (QTWP) to
 Each functional group                      support their efforts in improving the quality
                                             assurance(QA) processes; the QTWP
                                             Implementation Team will identify a set of
                                             performance/accountability measures that could be
                                             leveraged by the PM team to develop internal
                                             performance measures and metrics.
                                         o Internal Communications team to develop ways to
                                             assess improved internal communication processes.
Step 5                          Things To Do:
Engage with OIG Senior              Present the Senior Leadership with draft measures and
Leadership to discuss, refine          metrics developed based on all the research, interviews,
and finalize the list of OIG           and discussions and ask for feedback.
performance measures and
metrics.




Performance Measurement                                                                  VI - 4
                                                              Amtrak OIG Organizational Assessment
                                                                             Phase II Final Report


Action 2. Identification of Data Sources and Reporting Mechanism. Determine data sources for
supporting the measures and generating reports; develop a data collection and reporting plan.

This Action focuses on the logistics of determining how to collect, compile, and report
performance data, after the measures are identified in Action 1. It includes an assessment of
existing data collection and internal communication channels, as well as identification of new
data collection and reporting mechanisms that must be established.

Action 2: Identification of Data Sources and Reporting Mechanism. Determine data sources
for supporting the measures and generating reports; develop a data collection and reporting plan.
Guiding Principles:
   An understanding of existing mechanisms provides a way to save both cost and effort in
      accomplishing this Action.
   Keep data collection as simple and seamless as possible.
Step 1                          Things To Do:
Identify existing data             Consult with M&P and others to identify existing
sources and collection               mechanisms to gather data for semi-annual reports
mechanisms.
Step 2                          Things To Do:
Determine gaps where no            Consider the areas identified by the Working Group.
data source currently exists.          o New measures may not currently have a data source.
Step 3                          Things To Do:
Propose new data collection        Identify areas where data collection and reporting can be
mechanisms to close any              incorporated into existing work practices and work flow.
gaps or improve existing
process.
Step 4                          Things To Do:
Develop a dashboard or             Utilize vehicles such as the internal staff newsletter to keep
other tool to report both            OIG staff posted on current progresses in the organization.
statutory and outcome-             Coordinate with the Internal Communication Group to
based data.                          identify existing mechanisms to report performance
                                     measurement data.
Step 5                          Things To Do:
Solicit feedback from OIG          Identify optimal mechanisms for reporting as perceived by
Senior Leadership on data            Senior Leadership.
collection and reporting
mechanisms.
Step 6
Review feedback and
incorporate modifications
as appropriate to data
collection and reporting
plan.


Performance Measurement                                                                     VI - 5
                                                           Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report


Action 3. Establish Accountability for Gathering and Reporting Performance Data. Identify
mechanisms for ensuring adherence to established, inclusive performance measurement
processes

Accountability is a key component of the Implementation Roadmap and contributes greatly to
supporting the adoption of new performance measures and behaviors within the OIG. The intent
of this Action is to develop the mechanisms to ensure the accountability for gathering and
reporting performance data in the organization. Although the OIG needs a participative approach
to measure its performance, the Working Group highlighted the importance of identifying the
group and its leader who will be responsible for managing the performance measurement process
(Step 1).

Action 3: Establish Accountability for Gathering and Reporting Performance Data.
Identify mechanisms for ensuring adherence to established, inclusive performance measurement
processes.
Guiding Principle:
   Clarifying the process ―ownership‖ is a key component for the success in developing
       effective performance measurements within the OIG.
Step 1                         Things To Do:
Identify the responsible         Clarify the roles and responsibilities of ―Performance
group/leader who will              Measurement Manager‖
maintain the overall                o Such as coordinating activities, analyzing data, setting
responsibility for managing             schedules, providing guidance, and monitoring the
performance measurement                 number of OIG recommendations implemented.
process.
Step 2
Identify the mechanism by
which managers are held
accountable for requesting
and gathering input from
staff.




Performance Measurement                                                                 VI - 6
                                 Tracking Tool to Guide Action Plan Implementation

                                                     Performance Measurement
Desired Future State: Amtrak OIG has performance metrics that reflect the requirements of the Inspector General Act; meet the
expectations of Congress and other stakeholders; and reflect the value of OIG work to Amtrak. These metrics are integrated into OIG’s
operating and performance management systems.
Action 1. Identification of Measures and Metrics. Develop measures that reflect the overall performance of the OIG, including both
outputs (quantities) and outcomes (impacts).
Estimated time for this Action is: 9 Weeks
                                                                                                              Comments:
                    Step                       Examples of Targets/Measures            Status         Obstacles; Help Needed;
                                                                                                  Dependencies; Other Comments
1) Document measures and metrics that
                                              Assembled list of measures used to
   support statutory reporting
                                              assess performance of other OIGs.
   requirements.


2) Identify key external stakeholders and     Descriptions of the characteristics
   what they value from Amtrak OIG.           stakeholders value in OIG’s work.

3) Discuss with Senior Leadership their
                                              Summary of discussion with OIG
   perception of key external stakeholder’s
                                              Senior Leadership on external
   expectations relating to meaningful
                                              stakeholder’s expectations.
   performance measures and indicators.




Performance Measurement                                                                                                      VI - 7
                                Tracking Tool to Guide Action Plan Implementation

                                                     Performance Measurement
Desired Future State: Amtrak OIG has performance metrics that reflect the requirements of the Inspector General Act; meet the
expectations of Congress and other stakeholders; and reflect the value of OIG work to Amtrak. These metrics are integrated into OIG’s
operating and performance management systems.
Action 1. Identification of Measures and Metrics. Develop measures that reflect the overall performance of the OIG, including both
outputs (quantities) and outcomes (impacts).
Estimated time for this Action is: 9 Weeks
                                                                                                              Comments:
                    Step                       Examples of Targets/Measures            Status         Obstacles; Help Needed;
                                                                                                  Dependencies; Other Comments
4) Develop additional qualitative measures
                                             List of qualitative measures of OIG
   and metrics of OIG performance that
                                             performance developed in
   address:
                                             conjunction with the Human Capital,
   OIG overall
                                             Quality and Timely Work Processes,
       o internal processes (efficiency,
                                             and Internal Communication Working
            outputs)
                                             Groups, which cover the individual
       o external measures and
                                             functional groups and OIG as a
            outcomes (impact of work)
                                             whole.
   Each functional group

5) Engage with OIG Senior Leadership to
                                            Finalized list of OIG performance
   discuss, refine and finalize the list of
                                            measures and metrics.
   OIG performance measures and metrics.




Performance Measurement                                                                                                      VI - 8
                                 Tracking Tool to Guide Action Plan Implementation


                                                      Performance Measurement
Desired Future State: Amtrak OIG has performance metrics that reflect the requirements of the Inspector General Act; meet the
expectations of Congress and other stakeholders; and reflect the value of OIG work to Amtrak. These metrics are integrated into OIG’s
operating and performance management systems.
Action 2. Identification of Data Sources and Reporting Mechanism. Determine data sources for supporting the measures and
generating reports; develop a data collection and reporting plan.
Estimated time for Action is: 4 Weeks
                                                                                                              Comments:
                    Step                         Examples of Targets/Measures          Status         Obstacles; Help Needed;
                                                                                                  Dependencies; Other Comments
                                             Documented list of data sources and
1) Identify existing data sources and
                                             collection mechanisms currently
   collection mechanisms.
                                             available to the Amtrak OIG.


2) Determine gaps where no data source       List of Amtrak OIG activities for
   currently exists.                         which performance data is lacking.


3) Propose new data collection
                                             List of data collection mechanisms to
   mechanisms to close any gaps or
                                             cover existing gaps.
   improve existing process.

4) Develop a dashboard or other tool to      Creation of a tool through which
   report both statutory and outcome-based   Amtrak OIG staff can submit and
   data.                                     record data.




Performance Measurement                                                                                                      VI - 9
                                 Tracking Tool to Guide Action Plan Implementation

                                                      Performance Measurement
Desired Future State: Amtrak OIG has performance metrics that reflect the requirements of the Inspector General Act; meet the
expectations of Congress and other stakeholders; and reflect the value of OIG work to Amtrak. These metrics are integrated into OIG’s
operating and performance management systems.
Action 2. Identification of Data Sources and Reporting Mechanism. Determine data sources for supporting the measures and
generating reports; develop a data collection and reporting plan.
Estimated time for Action is: 4 Weeks
                                                                                                              Comments:
                    Step                         Examples of Targets/Measures          Status         Obstacles; Help Needed;
                                                                                                  Dependencies; Other Comments
5) Solicit feedback from OIG Senior         Brief assessment by Senior
   Leadership on data collection and        Leadership on the new data collection
   reporting mechanisms.                    and reporting mechanisms.

6) Review feedback and incorporate
                                            Modified data collection and
   modifications as appropriate to data
                                            reporting mechanisms.
   collection and reporting plan.




Performance Measurement                                                                                                      VI - 10
                                Tracking Tool to Guide Action Plan Implementation


                                                     Performance Measurement
Desired Future State: Amtrak OIG has performance metrics that reflect the requirements of the Inspector General Act; meet the
expectations of Congress and other stakeholders; and reflect the value of OIG work to Amtrak. These metrics are integrated into OIG’s
operating and performance management systems.
Action 3. Establish Accountability for Gathering and Reporting Performance Data. Identify mechanisms for ensuring adherence to
established, inclusive performance measurement processes.
Estimated time for Action is: 4 Weeks
                                                                                                              Comments:
                    Step                       Examples of Targets/Measures            Status         Obstacles; Help Needed;
                                                                                                  Dependencies; Other Comments
1) Identify the responsible group/leader
                                            Group/leader accepts responsibility
   who will maintain the overall
                                            for managing performance
   responsibility for managing
                                            measurement process.
   performance measurement process.
2) Identify the mechanism by which
                                            Mechanism selected for gathering
   managers are held accountable for
                                            input from staff; selection of
   requesting and gathering input from
                                            mechanism is communicated to staff.
   staff.




Performance Measurement                                                                                                     VI - 11
                          Tracking Tool to Guide Action Plan Implementation


                                      This Page Left Intentionally Blank




Performance Measurement                                                       VI - 12
                                                        Figure VI-A Amtrak OIG Stakeholders



                                                   External Stakeholders



                                       Tier III: Taxpayers; Riders/customers;
                                        Amtrak Employees; Unions; NARP;                                                                      Internal Stakeholders
                                        Freight Railroads; Business Partners;
                                                   Partners abroad


                                           Tier II: FRA; DOT; DOT OIG;
                                             Administration; State DOT;                                                                       OIG Employees
                                       Local Communities; Commuter Agencies




                                              Tier I: Core Stakeholders
                                                 Amtrak Management
                                                    Amtrak Board
                                                       Congress
                                                        CIGIE*




                             Tier I: Parties that are directly impacted by OIG reports/products and can directly effect change.
                             Tier II: Parties that are indirectly impacted by OIG reports and can reasonably effect change.
                             Tier III: Parties that are indirectly impacted by OIG and have little ability to effect change.

               *CIGIE is included in the Tier I group because it is a user of Amtrak OIG products, but not a body that is a subject of their work. They collect and track outputs
               from all OIGs and play a key role in offering peer input regarding the quality of OIG products and processes across the community.




Performance Measurement                                                                                                                                                             VI - 13
                                                     Amtrak OIG Organizational Assessment
                                                                   Phase II Final Report

                          This Page Left Intentionally Blank




Performance Measurement                                                          VI - 14
                                                        Amtrak OIG Organizational Assessment
                                                                      Phase II Final Report




                                         TAB VII

                         The Amtrak Office of Inspector General
                           Organizational Assessment Phase II
                         Implementation Roadmap Development


Subject: Management & Policy Updates


Tab VII contains the Management & Policy Updates Implementation Roadmap and Tracking
Tool developed by the Working Group to guide the activities of the Implementation Team.


     Management & Policy Updates Implementation Roadmap
     Management & Policy Updates Implementation Tracking Tool




Management and Policy Updates
                                                     Amtrak OIG Organizational Assessment
                                                                   Phase II Final Report


                          This Page Left Intentionally Blank




Management and Policy Updates
                                                            Amtrak OIG Organizational Assessment
                                                                          Phase II Final Report


VII. Management and Policy Updates

Desired Future State: Amtrak OIG maintains and applies current, accurate, and consistent
policies across the office; has a process to monitor changes in the broader external
environment that affects its work practices (e.g., Amtrak policies; Yellow Book updates;
CIGIE information) as well as a mechanism for incorporating those changes into internal
policy; and the office makes all guidance easily accessible to and used regularly by staff.

The Management and Policy Updates (MPU) Working Group was headed by Executive Sponsor,
Assistant Inspector General (AIG) for Management and Policy (M&P), Bret Coulson and
Initiative Team Lead Tarun Goel. MPU was selected for improvement, as it plays a key support
role to the Office of Inspector General (OIG) processes, but the earlier organizational assessment
indicated that few staff understood the role or operations of M&P. In particular, the role of M&P
in the policy development and updating process required further clarification and documentation.

The Working Group met four times during January and early February 2011, and identified four
key Actions that frame this Roadmap. These Actions are described in more detail later in this
chapter.

Observations

Key observations from the Amtrak Phase I review included:
     OIG leadership and staff recognize the need for standardized, quality polices and
       guidance.
     OIG has thus far not been able to fully engage staff in policy development.
     Recently developed policies have been placed on the secure subnet, but they do not
       appear to have been widely read and understood.
     The function and role of M&P is not clear, and skill sets may not be aligned to OIG
       needs.

The Working Group recognized early in the process that there is a lack of clarity among OIG
staff about what the role of M&P is, especially in regard to policy development and updates.
Similar to other OIGs, the AIGs for Audit/Inspections and Evaluations (I&E), and Investigations
take the lead in developing policy within their functional areas. M&P does not champion this
type of policy development, but serves in a more administrative or support role. M&P does take
a stronger lead, however, in developing OIG administrative policy (e.g., travel, expenses, and
personnel matters). These policies are sometimes taken directly from Amtrak corporate policy,
with or without modifications to better fit the OIG. M&P consults with the OIG Senior
Leadership in this policy development process.

Some of the policy issues identified in the Amtrak Phase I Review were addressed late in 2010.
For example, in September 2010, Audit and I&E policies that follow Yellow Book standards
were finalized and approved by the OIG leadership. Since that time staff in Audit and I&E have


Management and Policy Updates                                                               VII-1
                                                              Amtrak OIG Organizational Assessment
                                                                            Phase II Final Report

been receiving training on those policies. In addition, the developed policies have been posted
on the secure subnet.

Finally, it should be noted that many of the issues mentioned in this section align with the issues
addressed by the Quality and Timely Work Processes Working Group. Because quality
assurance (QA)—particularly for Audit and I&E—requires policy that is up-to-date with Yellow
Book, updates to policy may affect specific aspects of the QA guidance.

Characteristics of Improved Management and Policy Updates

As part of its work, this Working Group identified a set of characteristics that describe the future
state of MPU in the policy update process (see chart that follows). These characteristics frame
the desired future state in concrete terms, and provide a way to measure the progress of the
implementation team and sustain the momentum for the effort.

 Desired Future State: Amtrak OIG maintains and applies current, accurate, and consistent
 policies across the office; has a process to monitor changes in the broader external
 environment that affects its work practices (e.g., Amtrak policies; Yellow Book updates;
 CIGIE information) as well as a mechanism for incorporating those changes into internal
 policy; and the office makes all guidance easily accessible to and used regularly by staff.
                              Desired Future State Characteristic
 When the OIG achieves its desired future state, its Management and Policy Updates will be
 characterized by process and content that is:
      Efficient
      Upgraded
      User-friendly
      Reflective of a Model OIG
      Nimble
      Dependable
      Reliable
      Providing Consistent Output
      Providing Great Transparency
      Proactive (versus Reactive)




Management and Policy Updates                                                                 VII-2
                                                             Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report

Implementation Actions and Steps

The four Actions designed to improve MPU each have multiple associated implementation steps,
and the Working Group offered additional information to the Implementation Team in the form
of context, guidance and commentary to help them carry out these Actions and Steps. This
information is presented on the following pages in the Implementation Roadmap.

A Tracking Tool for the Implementation Roadmap addresses the need to identify the suggested
lead for the Implementation Team; timeframes or end dates for completing each Action and its
correlating Steps; and suggested measures or targets to assess progress toward accomplishing the
Actions. While the Implementation Roadmap serves more to guide the implementation activities
with guiding principles and tactical support, the Tracking Tool addresses metrics for identifying
progress of and accountability for the outlined processes. The Tracking Tool is included as an
addendum at the end of this chapter.

Action 1. Define departmental roles and responsibilities in the policy development process.

The purpose of this Action is to clarify existing roles of each functional unit within the OIG in
the policy development process. Audit/I&E and Investigations each lead policy development that
guides the way the work is performed within that group. M&P has a role in this process, but in
an administrative capacity, rather than leading the effort. This effort will clarify and document
who-does-what in the policy development process. This is a high-level focus on the groups
within the OIG, describing how each group supports the process and relates to other groups. A
more detailed description of process, including specific roles and responsibilities is developed in
Action 2.

Action 1: Define departmental roles and responsibilities in the policy development process.
Guiding Principles:
   Each group has primary responsibility for developing policy regarding their work area, but
      the process is not yet documented or institutionalized.
   M&P has a supporting role in most policy development activities and the specific nature of
      their relationship requires documentation.
   A visual depiction of the process provides another way to enhance understanding about
      how the different groups coordinate.
Step 1                              Things To Do:
Document roles and                     Meet with leaders from each functional group to
responsibilities of each                 identify and document the overall approach followed to
functional department (Audit,            developing policy governing their group (e.g., annual
I&E, Investigations, Legal, and          cycles, groups involved in review and approval).
M&P) in policy development             Note the standards they follow (e.g., Audit and I&E
and updates.                             follow Yellow Book; Investigations follows Quality
                                         Standards for Investigations)




Management and Policy Updates                                                                 VII-3
                                                             Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report

Action 1: Define departmental roles and responsibilities in the policy development process.
Step 2                           Things To Do:
Describe how each functional         Examine the policy development process for the
department relates to M&P in            functional groups noted in Step 1 and identify points in
the context of policy                   the process where M&P can lend support and the nature
development and updates.                of that support (e.g., compiling, facilitating reviews, and
                                        publishing to the web).
                                     Document the types of policy that M&P takes the lead
                                        in development efforts (e.g., administrative policies)
Step 3                           Things To Do:
Document work flow between           Using input from Steps 1 and 2, create a graphic
Audit, I&E, Investigations,             depicting the flow of activities in the policy
Legal, and M&P in the                   development processes for each group, noting where
development of policy and               M&P lends support.
updates.

Action 2. Develop roles and responsibilities of leaders from each functional area in the policy
development process

The first Action addressed how policy is developed among the groups. This Action adds further
detail by specifying the roles and responsibilities of the people within the groups.

Action 2: Develop roles and responsibilities of leaders from each functional area in the policy
development process
Guiding Principles:
   Each AIG has key authorities in the policy development process within their area. This
     Action specifies what each functional leader does in the policy development process.
   The processes of developing policy among each group are slightly different. The processes
     must be documented to enhance clarity and ensure that each is consistently followed over
     time.
   There is recognition that input within functional areas should be supplied mainly from the
     coordinating functional experts, recognizing the value of specialized experience in the
     development of policy. Support-related policy feedback would be solicited and provided
     more broadly.




Management and Policy Updates                                                                VII-4
                                                           Amtrak OIG Organizational Assessment
                                                                         Phase II Final Report

Action 2: Develop roles and responsibilities of leaders from each functional area in the policy
development process
Step 1                             Things To Do:
Identify leadership roles and         Discuss with each AIG what they specifically do in the
responsibilities for each AIG in        policy development process, particularly how they
monitoring the external                 monitor events external to Amtrak OIG that have policy
environment for potential policy        implications for how the work is performed
updates.                              Document differences or special considerations for
    Define process for                 dealing with Amtrak corporate policies adopted by the
       monitoring Amtrak                OIG.
       corporate policy updates
    Define process for
       monitoring non-Amtrak
       sources (e.g., Congress,
       CIGIE, other groups)
Step 2                             Things To Do:
Determine roles and                   Specify who-does-what within a group in the policy
responsibilities of each                development process.
functional group in developing        Include annual policy reviews and identify the
and updating internal policy,           timeframe when those will occur (OIG decided to
including the review and                review and update all policies at each January). Some
approval process.                       policy revisions may emerge during the course of the
    Define process for                 year, such as changes to Yellow Book—these changes
       developing and updating          should be made as they arise, not wait for an annual
       policy related to conduct        review. The intent is that all policy gets reviewed at
       of Audits, I&E,                  least annually—not that it waits for a set policy review
       Investigations.                  period.
    Define process for
       developing and updating
       policy related to OIG
       administration and office
       management.
    Recognize the evolving
       role of QA as it relates to
       policy.
Step 3                             Things To Do:
Document a policy development         Identify the scope of roles and responsibilities within
process that engages managers           each group among the various staff including the AIGs,
and key staff in reviews of draft       senior managers, and others.
policies in each functional area      Document how each group updates its policies.
(i.e., institute a top down and
bottom up process for policy
development when staff is
experienced with standard IG
practices).

Management and Policy Updates                                                             VII-5
                                                             Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report



Action 3.Create and publish policy guidance across the OIG

After policy is developed and finalized, it must be published and prepared for dissemination.
Associated internal guidance in how to apply the policy must be compiled, explained, and made
accessible to staff. This Action focuses on the compilation of OIG policy into distinct volumes,
and development of training to teach new policies and procedures.

Action 3: Create and publish policy guidance across the OIG
Guiding Principles:
   New policies must be shared with staff beyond sending out an email that they exist or where
      to find them. Staff must also be trained in new procedures or methods that support those
      policies to ensure they are followed.
Step 1                              Things To Do:
Facilitate policy updates and           Take note of the status of each type of policy:
implementation by developing             o Audit policies development: completed
tools and training guidelines            o Investigation policies development: in progress
that demonstrate the practical           o Internal policies: in progress
application of the policies (e.g.,       o Legal has a role in policy development of all groups.
Agent Handbook for                      Develop and deliver training to increase understanding of
Investigators). Create two               the policy, and teach any new procedures or behaviors
types of ―handbooks‖:                    associated with the policy:
   Two or three that address            o People who develop the policies may not be
      the technical aspects of               responsible for conducting the training—consider
      how work is performed                  contractor support for policy training.
      by Audit/I&E and
      Investigations, and
   One that describes
      administrative office
      policy

Action 4. Develop and deploy an online repository of all OIG policy.

All OIG policy must be easily accessible by staff. The secure subnet, which has been the
mechanism for hosting policy, is not easily accessible and is rarely used by the majority of staff.
The MPU Working Group identified an immediate solution to posting both existing and new
policy that will greatly enhance accessibility.

In addition, the group discussed posting the policies on an OIG intranet. This site was in
development at the time of this writing, thus the group proposed the immediate posting to the
external website on a secure page. In the future, the OIG may wish to post the policies on the
intranet in addition to the website. This would offer staff one more option for accessing the
information in a user-friendly manner and would avoid the need for an additional login to a
secure external page.

Management and Policy Updates                                                                VII-6
                                                             Amtrak OIG Organizational Assessment
                                                                           Phase II Final Report


Action 4: Develop and deploy an online repository of all OIG policy.
Guiding Principles:
   Individuals may want to review multiple policies related to a certain theme, such as review
       local and long distance travel policies. An underlying approach to organizing policies by
       ―type‖ will aid users in finding related information.
   The migration and posting of policy must have a lead point-of-contact to ensure the Action
       is carried out.
   All staff must be informed about where the policy is located and given guidance on how to
       access the secure webpage.
Step 1                               Things To Do:
Develop technical approach            This is technical discussion; a review or analysis will be
regarding how policies will be          necessary to identify which policies should be grouped
posted on secure Amtrak OIG             and/or linked as being related in some way.
webpage for employees only
(e.g., link to a static pdf file for
each posted policy, provide
password access to employees
only).
Step 2                               Things To Do:
Identify responsibilities for         Identify point person in each functional area to ensure
migrating all policies that have        relevant newly-developed policy and updates are posted in
currently been housed on the            timely fashion.
secure subnet to the secure           Audit/I&E policy has been developed and can be posted
webpage and identify process            immediately.
and timeframes for posting            Policy for Investigations can be posted on a rolling schedule
newly-developed policy.                 as it is developed (expected completion date for
                                        Investigations policy development is July 2011)
                                      M&P (Organization-wide) can be posted immediately.
                                      Any other newly-developed or revised policy can be posted
                                        as completed.
Step 3                               Things To Do:
Communicate new location of  Communicate to all staff the new procedure for accessing
policy information to staff             policy along with organizational expectations for
along with secure webpage               compliance with Amtrak OIG Policy
access information.                   Provide each staff member with links, permissions and
                                        passwords for accessing the secure pages

Step 4                            Things To Do:
Determine the approach to          Identify timeline for intranet development and analyze the
further refining the policy          value of migrating policy once again to the intranet, once
repository.                          established.
                                   Establish linkage so that changes made to policy in one
                                     location also occur in other locations.


Management and Policy Updates                                                                VII-7
                                                     Amtrak OIG Organizational Assessment
                                                                   Phase II Final Report


                          This Page Left Intentionally Blank




Management and Policy Updates                                                      VII-8
                                           Tracking Tool to Guide Action Plan Implementation



                                                            Management and Policy Updates
Desired Future State: Amtrak OIG maintains and applies current, accurate, and consistent policies across the office; has a process to monitor changes
in the broader external environment that affects its work practices (e.g., Amtrak policies; Yellow Book updates; CIGIE information) as well as a
mechanism for incorporating those changes into internal policy; and the office makes all guidance easily accessible and used regularly by staff.
Action 1. Define departmental roles and responsibilities in the policy development process.
Estimated time for this Action is: no more than 30 days.
                                                                                                                              Comments:
                        Step                               Example of Targets/Measure                Status            Obstacles; Help Needed;
                                                                                                                   Dependencies; Other Comments
1) Document roles and responsibilities of each
                                                      Documented roles and responsibilities
    functional department (Audit, Inspections and
                                                      for each functional department in policy
    Evaluation, Investigations, Legal, and M&P)
                                                      development.
    in policy development and updates.
                                                      Documented roles of M&P in the policy
                                                      development in each functional group.
2) Describe how each functional department
    relates to M&P in the context of policy
                                                      Documented list of the policies that
    development and updates.
                                                      M&P should take the lead in
                                                      development efforts.
                                                      Graphic description of the policy
3) Document work flow between Audit, I&E,
                                                      development work flow in each group
    Investigations, Legal, and M&P in the
                                                      and the relationships between M&P and
    development of policy and updates.
                                                      other groups in these processes.




        Management and Policy Updates                                                                                                  VII-9
                                            Tracking Tool to Guide Action Plan Implementation

                                                            Management and Policy Updates
Desired Future State: Amtrak OIG maintains and applies current, accurate, and consistent policies across the office; has a process to monitor changes
in the broader external environment that affects its work practices (e.g., Amtrak policies; Yellow Book updates; CIGIE information) as well as a
mechanism for incorporating those changes into internal policy; and the office makes all guidance easily accessible and used regularly by staff.
Action 2. Develop roles and responsibilities of leaders from each functional area in the policy development process
Estimated time for this Action is: no more than 30 days, could be done concurrently with Action 1.
                                                                                                                              Comments:
                        Step                                Example of Targets/Measure               Status            Obstacles; Help Needed;
                                                                                                                   Dependencies; Other Comments
                                                       Documented leadership roles and
1) Identify leadership roles and responsibilities
                                                       responsibilities for each AIG in
    for each AIG in monitoring the external
                                                       monitoring external environment.
    environment for potential policy updates.
     Define process for monitoring Amtrak
                                                       Documented process for monitoring
        corporate policy updates.
                                                       Amtrak corporate policy updates.
     Define process for monitoring non-Amtrak
        sources (e.g., Congress, CIGIE, other          Documented process for monitoring non-
        groups).                                       Amtrak sources.
2) Determine roles and responsibilities of each     Documented review and approval
   functional group in developing and updating      process in:
   internal policy, including the review and          each functional group
   approval process.                                  OIG administration and office
    Define process for developing and updating        management
       policy related to conduct of Audits, I&E,
       Investigations.                              Documented roles of QA in policy
    Define process for developing and updating     development.
       policy related to OIG administration and
       office management.
    Recognize the evolving role of QA as it
       relates to policy.


        Management and Policy Updates                                                                                                  VII-10
                                            Tracking Tool to Guide Action Plan Implementation

                                                             Management and Policy Updates
Desired Future State: Amtrak OIG maintains and applies current, accurate, and consistent policies across the office; has a process to monitor changes
in the broader external environment that affects its work practices (e.g., Amtrak policies; Yellow Book updates; CIGIE information) as well as a
mechanism for incorporating those changes into internal policy; and the office makes all guidance easily accessible and used regularly by staff.
Action 2. Develop roles and responsibilities of leaders from each functional area in the policy development process
Estimated time for this Action is: no more than 30 days, could be done concurrently with Action 1.
                                                                                                                          Comments:
                       Step                              Example of Targets/Measure               Status            Obstacles; Help Needed;
                                                                                                                 Dependencies; Other Comments
3) Document a policy development process that       Documented roles and responsibilities
   engages managers and key staff in reviews of     of various staff (AIGs, senior managers,
   draft policies in each functional area (i.e.,    and others) within each group.
   institute a top down and bottom up process for
   policy development when staff is experienced     Documented policy updates process in
   with standard IG practices).                     each group.




        Management and Policy Updates                                                                                                  VII-11
                                              Tracking Tool to Guide Action Plan Implementation


                                                                   Management and Policy Updates
Desired Future State: Amtrak OIG maintains and applies current, accurate, and consistent policies across the office; has a process to monitor changes
in the broader external environment that affects its work practices (e.g., Amtrak policies; Yellow Book updates; CIGIE information) as well as a
mechanism for incorporating those changes into internal policy; and the office makes all guidance easily accessible and used regularly by staff.
Action 3. Create and publish policy guidance across the OIG
Estimated time for this Action: depends on the policy development of each groups (three different timelines)*
                                                                                                                                         Comments:
                         Step                                      Example of Targets/Measure                      Status          Obstacles; Help Needed;
                                                                                                                                Dependencies; Other Comments
1) Facilitate policy updates and implementation
                                                               Developed handbooks that address the
    by developing tools and training guidelines that
                                                               technical aspects of how work is
    demonstrate the practical application of the
                                                               performed by Audit, I&E, and
    policies (e.g., Agent Handbook for
                                                               Investigations.
    Investigators). Create two types of
    ―handbooks‖:
                                                               Developed handbook that describes
     Two or three that address the technical
                                                               administrative office policies.
        aspects of how work is performed by
        Audit/I&E, and OI, and
                                                               Documented policy training guidance
     One that describes administrative office                 in each group.
        policy
             * Audit: 30 Days, Investigations: 6 months (in conjunction with completion of its policy development, M&P: 45 Days




        Management and Policy Updates                                                                                                        VII-12
                                            Tracking Tool to Guide Action Plan Implementation


                                                            Management and Policy Updates
Desired Future State: Amtrak OIG maintains and applies current, accurate, and consistent policies across the office; has a process to monitor changes
in the broader external environment that affects its work practices (e.g., Amtrak policies; Yellow Book updates; CIGIE information) as well as a
mechanism for incorporating those changes into internal policy; and the office makes all guidance easily accessible and used regularly by staff.
Action 4. Develop and deploy an online repository of all OIG policy.
Estimated time for this Action is: 60 Days
                                                                                                                              Comments:
                          Step                              Example of Targets/Measure               Status            Obstacles; Help Needed;
                                                                                                                   Dependencies; Other Comments
1) Develop technical approach regarding how
                                                       Developed method to assess which
    policies will be posted on secure Amtrak OIG
                                                       policies are related and create broad
    webpage for employees only (e.g., link to a
                                                       categories for grouping individual
    static pdf file for each posted policy, provide
                                                       policies.
    password access to employees only).
                                                     Documented roles and responsibilities
2) Identify responsibilities for migrating all
                                                     for migrating policies to secure webpage
   policies that have currently been housed on the
                                                     in each group.
   secure subnet to the secure webpage and
   identify process and timeframes for posting
                                                     Documented schedule to post newly-
   newly-developed policy.
                                                     developed policies and updates.
3) Communicate new location of policy                Documented plan to communicate new
   information to staff along with secure webpage    procedures for accessing policies within
   access information.                               the OIG.
                                                     Documented plan to improve the
                                                     functionalities of the secure webpage.
4) Determine the approach to further refining the
   policy repository.
                                                     Documented timeline of OIG intranet
                                                     development.


        Management and Policy Updates                                                                                                  VII-13
                                Tracking Tool to Guide Action Plan Implementation

                                         This Page Left Intentionally Blank




Management and Policy Updates                                                       VII-14
                                                                              Human Capital Management/Human Resources Management Tactical Plan
                                                                                                     Benchmark Area #7
HCM GOALS: (1) OIG attract & retain high-performing employees; (2) has consistent job titles and job descriptions; and (3) has in place training plans and (4) performance management plans that link
indivdual performance to OIG objectives.
 REC #                                  RECOMMENDATION                                                      ACTION                      ECD                         STATUS                                    COMMENT
                                             Quick Wins
         Incorporate the development of a skills inventory into upcoming training                                                    ACTION          Partially started in OA and I&E, and   Per NAPA, "…IG's greatest challenge would
         delivery. Take advantage of upcoming oportunities to determine what employees                                               COMPLETED       OI, but need an office-wide            be the development of staff." The current
         know (and don't know), as training is launched.                                                                             (03/2011)       approach. We must capture (learn)      skill sets of many employees are not
                                                                                                                                                     past experience and                    adequate to perform high-value work.
HCM 31                                                                                                                                               edcuation/training to ensure we
                                                                                                                                                     properly place individuals into the
                                                                                                                                                     "best/fit" position for the OIG as
                                                                                                                                                     well as the employee. This also
                                                                                                                                                     helps with "retention."
           - Audit & Evaluation positions. Baseline skills: Audit 101, Evidence, Report   OA and I&E - Audit training in progress.   ACTION          Baseline skills training is ongoing.
         Writing                                                                                                                     COMPLETED
                                                                                                                                     (03/2011)
           - Criminal Investigators. Baseline skills: Federal Law Enforcement Training    OI - FLETC training in progress.           ACTION          Baseline skills training is ongoing.   Per NAPA, physical & Health limitations of
         Center (FLETC)                                                                                                              COMPLETED       Investigators are being sent to        many may prevent successful completion of
                                                                                                                                     (12/2010)       FLETC.                                 the training. MUST SUCCESSFULLY
                                                                                                                                                                                            COMPLETE THIS TRAINING TO OBTAIN LAW
                                                                                                                                                                                            ENFORCEMENT AUTHORITY.

           - Managers/Supervisors                                                          Safe-2-Safer for managers & supervisors ACTION is         Leadership/Management training is Per Napa, many lacking strong supv skills &
                                                                                           currently in progress. OIG Leadership 360 inplace,        being addressed (ECD early 2011). subject-matter expertise to train staff to
                                                                                           degree evaluation/training underway.      continuous      SUPERVISORY TRAINING IS LACKING. work.
                                                                                                                                     and ongoing.
       Streamline the number of job titles, make job titles consistent across functional   (1) OIG is developing a Total Workforce   Completion is   Leadership decisions required.         A broad scope plan for FMP work may be
       units, and developm standarized PDs that accurately reflect job requirements. E.g., Staffing Plan and Structure (current and pending          FMP is developing OI PDs and           necessary - develop PDs, competencies &
       in OI, document and inform staff of the requisite training associated with law      future most effective organization). (2)  determination   competencies.                          skill sets for each position. - for each of our
HCM 32 enforcement positions.                                                              Meeting with AIGs & Deputy to determine of Audit titles                                          five groups.
                                                                                           individual priorities and preferences.    & M&P
                                                                                                                                     evaluation.
                                                                                                                                     ECD 06/2011
                                                                              Human Capital Management/Human Resources Management Tactical Plan
                                                                                                     Benchmark Area #7
         As new training initiatives are implemented, establish a tracking system to     (1) Establish a dedicated HR position to   ACTION           Sheila Scott (M&P HR)'s position is
         monitor employee needs and completion of coursework.                            perform this duty. (2) IMMEDIATELY         COMPLETE on      identified as the training position
                                                                                         implement a paper process & then           centralizing     for centrally tracking completion of
                                                                                         develop IT solution.                       training         coursework. A process must be
                                                                                                                                    tracking.        established & implemented.
HCM 33                                                                                                                              M&P is
                                                                                                                                    evaluating
                                                                                                                                    tools to
                                                                                                                                    automate the
                                                                                                                                    process.
         Continue to engage those employees who have participated in the benchmarked Meeting with each OIG staff member to          ACTION
         OIG interviews and give them ownership of process improvement ideas that have acquire data, their insight, background      COMPLETE
         resu;lted from those interviews.                                              (experience & education).                    (12/08/10);
HCM 34                                                                                                                              collaboration
                                                                                                                                    will continue
                                                                                                                                    to be ongoing.
                                                                        Human Capital Management/Human Resources Management Tactical Plan
                                                                                               Benchmark Area #7
HCM GOALS: (1) OIG attract & retain high-performing employees; (2) has consistent job titles and job descriptions; and (3) has in place training plans and (4) performance management plans that link
indivdual performance to OIG objectives.
 REC #                                    RECOMMENDATION                                               ACTION                     ECD                 STATUS                                   COMMENT
                                    Longer Term Recommendations
         Conduct a comprehensive HC needs assessment and develop a HC plan. Areas of   Developed parallel HCM & HRM plans.              Currently conducting an HC
         focus should include the following:                                           Plans are being implemented.                     assessment. Once complete, a
HCM 35                                                                                                                                  Strategic HC Plan will be developed
                                                                                                                                        to document those findings.

           - Competitive market salary guidelines                                      NAPA believes the compensation issue                                                    Per NAPA, OIG was unable to establish
                                                                                       has been resolved between Amtrak HR                                                     salaries using comparisons, making it
                                                                                       and the OIG.                                                                            difficult to attract highly-qualified
                                                                                                                                                                               candidates. With this issue now being
                                                                                                                                                                               addressed, this problem shoud be
                                                                                                                                                                               somewhat alleviated moving forward.
           - Recruitment strategies                                                    IMMEDIATELY institute: (1) sending out           10/15/10-OIG HR has agreed to          These ensure collaboration, teambuilding
                                                                                       job announcements to OIG staff when              send out job announcements to          and accountability.
                                                                                       posted. (2) Present regular update of            OIG staff prior to posting. They are
                                                                                       recruitment progress at AIG Staff Mtg.           also considering providing regular
                                                                                                                                        progress updates on hiring at the
                                                                                                                                        AIG Staff Mtg.

           - Staffing strategies (added)                                               IMMEDIATELY develop a check-in and               10/15/10-Requested a copy of all       As part of the check-in and check-out
                                                                                       check-out process for new & exiting              check-in/check-out material from       require in-briefs and out-briefs with AIG
                                                                                       employees. Include a sponsorship                 OIG HR. The Strategic HCM Team         and IG/DIG.
                                                                                       program.                                         will work on this issue.

           - Skills inventory development                                                                                               Federal Management Partners
                                                                                                                                        (FMP) are working on PDs &
                                                                                                                                        competencies.
           - Position description development                                          Develop std PDs, competencies and skills         Federal Management Partners            Ensure "career ladders"
                                                                                       inventory for each position.                     (FMP) are working on PDs &
                                                                                                                                        competencies. This must be
                                                                                                                                        integrated into the reduction of
                                                                                                                                        position titles ASAP.
           - Performance management                                                    (1) Follow Amtrak performance program.                                                  Per NAPA, must communicate performance
                                                                                       (2) Must train all staff - managers and                                                 expectations to all new hires. AND
                                                                                       employees! Dual responsibility.                                                         EXISTING STAFF.
                                                                                       Managers need the most
                                                                                       training/experience.
                                                                            Human Capital Management/Human Resources Management Tactical Plan
                                                                                                   Benchmark Area #7
            - Recognition and reward programs                                                   Have HCM members research programs,           Strategic HCM Team to work on        OIG presentations have been
                                                                                                feasibility & cost analysis.                  this issue by identifying various    implemented…next is to mature process.
                                                                                                                                              programs from benchmarks.            Sue & Sheila are attending Amtrak's
                                                                                                                                                                                   committee on recognition. T&Ts vision?

            - Training and development programs (added)                                         Develop training programs to include          Strategic HCM Team to work on        Develop a std new employee
                                                                                                new employee orientation, mandatory           this issue by identifying required   orientation/indoctrination that occurs prior
                                                                                                training, rotational assignments, basic       categories of training.              to reporting to the job.
                                                                                                skill training, OJT, career development
                                                                                                training, skills improvement training, etc.

            - Leadership training and development                                                                                             Safe-2-Safer training is underway    Per NAPA, lack of leadership is a cultural
                                                                                                                                              for management positions.            issue.

            - Retention strategies
            - Succession planning                                                                                                             With the development of the Total    Per NAPA, Big challenge is the pending
                                                                                                                                              Workforce Staffing Plan, positions   retirements & succession planning.
                                                                                                                                              are being identified as Strategic,   OIG has ID'd & prioritized key vacant
                                                                                                                                              Critical and Core.                   positions in an effort to focus recruitment
                                                                                                                                                                                   activities; however, identifying Strategic,
                                                                                                                                                                                   Critical and Core positions was not
       Establish processes for creating cross-functional teams and ultimately build them into   As foundational HR processes and              Integration and collaboration will
       its work planning process. This should take place only after improvements are made       programs are established and integrated       occur as HR processes &
       to HCM, internal communications, work prioritization processes, and as working           by HCM strategies, this will occur            procedures as well as strategic
HCM 36 relationships become more effective within the office. As individual projects are        "naturally."                                  HCM is put in place.
       planned and initiated, OIG should consider whether a cross-functional approach is
       warranted on a case-by-case basis.
                                                    Independence Team Status Reporting Worksheet for 18 Month Action Plan
REVISED: 03/31/2011
                                                                             Executive Sponsor: Colin Carriere


                             Lead / Due                                            Comments: Obstacles; Help Needed; Dependencies; Other Comments
Action                                    Measure/Target         Status
                             Date
1) Improve OIG                                                   COMPLETED
                                                                                   IG & DIG are meeting with Board in executive session during monthly Board meetings; IG & DIG are
   communications with       Carriere;
                                                                                   meeting with President/CEO in private sessions once per month. OIG (IG, DIG or designee) is
   Amtrak management         11/30/2010
                                                                                   participating in weekly Executive Committee meetings as an ex officio member.
   and Board
2) CIGIE has appointed a     Carriere;    MOU with CIGIE         COMPLETED /       MOU finalized 02/03/2011. Independence Benchmark team is available as needed to support the CIGIE
   review team               11/30/2010   review entity          OBE               review team.
                                                                                   “Independent yet Transparent” recognizes the difference between providing enhanced visibility for the
3) Develop definition of
                             Ryan;                                                 results of OIG’s work, (i.e., reports), and the need for OIG to maintain both independence and
“independent yet
                             Ranowsky;    Definition completed   COMPLETED         confidentiality during activities such as audits and investigations, in order to stay within the law and
transparent” as it applies
                             11/30/2010                                            preserve legal privileges on issues such as individual privacy, grand jury restrictions, investigative
to Amtrak OIG.
                                                                                   techniques, etc.
                                                                 Interim MOU
4) Need to restrict other
                                                                 and process
Amtrak department                         MOU with Amtrak’s IT
                             Carriere,                           established;       Interim MOU and process solution established; OIG in process of implementing separate e-mail system
access to OIG IT systems,                 and Law Departments;
                             Black,                              Plan of Action     using dot-gov; using NASA to host AIMS OI case management; and investigating separate hosting
e-mails, phone calls, or                  due 03/31/2011.
                             Coulson                             02/01/2011;        alternatives for other OIG IT systems such as TeamMate.
other electronic data and
                                                                 spreadsheet
systems.
                                                                 done 03/14/2011
5) Independent Personnel
Authority –. Develop                                                                Delegation from IG to VP-HR signed 02/17/2011. Sets forth scope of services to be provided to OIG by
                         Gilmore,         Delegation of
Delegation of Authority                                          COMPLETED          Amtrak and mutual understandings regarding IG personnel decision authority.
                         Ranowsky         Authority
to Amtrak HR for certain                                         02/17/2011
                         02/28/2011
personnel- related
services.




                                                                                            1
                                                      Independence Team Status Reporting Worksheet for 18 Month Action Plan
                             Lead / Due
Action                                      Measure/Target           Status                Comments: Obstacles; Help Needed; Dependencies; Other Comments
                             Date
                                                                     Partially resolved
                                            MOU(s) with Amtrak
                                                                     by interim            Interim solution established through simultaneous feed of Ethics hotline complaints from Amtrak’s
                                            Ethics Officer and CFO
                             Carriere;                               agreement to          contractor to Amtrak’s Law Dept. and OIG; Carriere will draft MOU documenting process. Solution
6) Amtrak’s Role in Ethics                  (for ARRA), with
                             MOU                                     forward all hotline   needed for instances of complaints sent directly to Amtrak’s Law Dept. rather than through the Ethics
Hotline and ARRA                            acknowledgement by
                             03/31/2011                              feeds to OIG; POA     hotline. Clarification of company brochures and dissemination of OIG brochures to be addressed.
                                            Amtrak Chairman of
                                                                     02/02/2011; MOU       02/03/2011: Carriere met with Herrmann to discuss issue.
                                            the Board.
                                                                     drafted 03/07/2011
                                            Board recognition of
7) OIG’s role in Amtrak’s                   OIG role, and
use of independent public    Warren;        development of policy    COMPLETED             Engagement letter and three-year audit plan sent to CFO March 15, 2011. Engagement letter describes
accountants for financial    03/18/2011     regarding Amtrak’s       March 15, 2011        phased implementation plan for OIG monitoring of Amtrak’s IPA.
statement audits                            use of non-OIG
                                            auditors
8) Extent of Amtrak’s
responsibility to provide
certain items and services
for OIG use, at no charge                   Documentation of                               MOUs with Finance are in place; all other departments cooperating without need for MOU.
                                                                     COMPLETED
to OIG, pursuant to §6(c)    Coulson        current                                        Spreadsheet reflects OIG costs currently paid by Amtrak and OIG cost estimates for obtaining similar
                                                                     03/14/2011
of the IG Act, such as                      understandings.                                services outside the company.
infrastructure, office
space, equipment,
support services, etc.
                                                                                           Will require exemption from Amtrak IT policies to acknowledge OIG administrator and access rights.
9) Amtrak’s CIO’s
                                                                     Conversations         Also will require reprogramming of e-trax to include only OIG approvers for OIG IT purchases. Non-
involvement with OIG
                             Black, Rish,   Revised Amtrak IT        with Amtrak IT        standard IT purchases will be made directly by OIG through GSA, not through Amtrak.
purchases of IT
                             Coulson,       policy covering need     have raised
equipment, software and
                             Tatum;         for independent OIG      awareness of the      Administrative rights issue interim solution in place; Nov. 22, 2010 e-mail protocol to be extended to
services; exemptions
                             03/11/2011     purchase authority.      issue. Plan of        other IT systems; policy changes will be implemented pursuant to Action item #10, 3/31/2011 policy
needed from Amtrak IT
                                                                     action 02/01/2011     spreadsheet #3.
policies




                                                                                                  2
                                                     Independence Team Status Reporting Worksheet for 18 Month Action Plan
                            Lead / Due
Action                                    Measure/Target            Status               Comments: Obstacles; Help Needed; Dependencies; Other Comments
                            Date
10) Review all existing
Amtrak policies and
processes to determine
whether they contain any
embedded restrictions on
OIG authority or                                                    OIG-wide policy
impairment of               Tatum,                                  review effort
independent direct access   Howard, all                             began in Spring
to OIG by all Amtrak        AIGs;         Spreadsheet of            2010 and is
employees and               existing      policies prioritized as   ongoing. Plan of     Once policies have been revised and/or supplemented, implement through education and awareness
contractors. Revise         policies      to extent of              action 02/02/2011;   initiatives for both Amtrak and OIG employees.
company policies that       reviewed;     impairment. Revised       Review of Amtrak
subject OIG action to       efforts       Amtrak policies;          policies ongoing;    Implementation of this step requires close coordination with ongoing OIG-wide policy review initiative
review, decision or         ongoing to    Supplemental OIG          Spreadsheet done     in order to avoid duplication of effort.
approval from other         revise        policies                  03/14/2011;
company employees or        Amtrak                                  updated version
managers Where              policies                                provided
necessary, develop                                                  03/31/2011
separate supplemental
OIG policies, or
exemptions for OIG from
Amtrak policy.

11) – 12) Amtrak Mgmt’s
settlement of matters                                               Plan of action       Develop process and exclusionary language for use by Amtrak General Counsel in settling litigation, or
which impact invstgns or                  MOU with Amtrak           02/02/2011;          resolving contract claims, employee claims, etc. so that OIG interests are not compromised or
potential prosecution.      Carriere,     General Counsel,          Carriere and         released. Language and understanding that Amtrak cannot bind OIG in any way , nor agree to pre-
Amtrak General Counsel      Tatum;        acknowledged by           Herrmann met and     empt or thwart OIG’s rights to audit or investigate, or to provide information to Congress, the Board
&/or Mgmt agree to a gag    03/31/2011    Amtrak Chairman of        agreed in            and the public to the extent required by the IG Act. MOU to include process for coordination of
order preventing OIG from                 the Board                 principle; ; MOU     remedies.
unrestricted access to                                              drafted 03/09/2011
information.


                                                                                                3
                                                    Independence Team Status Reporting Worksheet for 18 Month Action Plan
                           Lead / Due
Action                                    Measure/Target          Status                Comments: Obstacles; Help Needed; Dependencies; Other Comments
                           Date
                           Ranowsky,                              Draft policy
                           Coulson,                               substantially
                           Howard,        OIG internal            revised 03/10/2011;
13) Independent
                           Tatum; Draft   procurement policy      AIG-level             May require exemption for OIG from existing Amtrak policy.
Contracting Authority
                           03/31/2011;    and process             stakeholders
                           Final due                              reviewing revised
                           04/30/2011                             draft as of 3/31/11
                                          Board resolution to
14) Company’s
                           Carriere,      amend and clarify the   Preliminary           Address response to Grassley report; Action items for Amtrak GC and OIG resulted from 02/18/2011
indemnification of
                           Howard,        company’s by-laws       discussions with      meeting; Need additional OIG internal discussions and further discussions with Amtrak GC to clarify
employees who are
                           Alves;         and Board policy        Board; met with       the extent of policy changes needed; Carriere contacted other OIG offices to determine best practices.
subject to (or witnesses
                           04/30/2011     regarding               Amtrak GC             Tatum/Ranowsky contacted private corporations, including railroad, to determine industry practices.
for) OIG investigations
                                          indemnification
15) Develop database to
track each known and
new independence issue,
                                          Database accessible by
plan and assignment of
                           Ranowsky       IG, DIG, AIGs and Team COMPLETED              Using this status report as tracking - shared with all team members and other stakeholders
responsibility for
                                          members
resolution, and status
reports.




                                                                                               4
                                                     Independence Team Status Reporting Worksheet for 18 Month Action Plan
                              Lead / Due
Action                                     Measure/Target            Status              Comments: Obstacles; Help Needed; Dependencies; Other Comments
                              Date
16) Develop internal OIG
procedure for alerting
IG/DIG regarding any NEW
instances of (1)                                                     Carriere to draft
independence                                                         directive
infringement incidents; (2)   Coulson,                               memorandum
                                           Internal process                              Supplemental internal OIG procedure. Issues that arise within audit context also are covered by OIG
embedded impediments          Carriere;                              from Alves to all
                                           directive or OIG Policy                       Audit policies # 2202.1 and 2207.1. Carriere circulated draft Internal Directive memorandum.
(e.g., Amtrak access to       03/31/2011                             OIG employees;
OIG e-mails); and (3) any                                            memo drafted
policy or process                                                    03/07/2011
implementation that
results in impediments -
unintended consequences
17) Amtrak and/or                          MOU with Amtrak           Spreadsheet and
                              Coulson;
Landlord or other physical                 President,                floor plans         Coulson provided spreadsheet inventory of the status of physical security at all OIG work locations.
                              Smith;
access to OIG work                         acknowledged by           provided            Smith and Howard to determine access security and effect on independence at each location, and
                              Howard
spaces, including locked                   Amtrak Chairman of        03/28/2011; under   scope of any additional work required.
                              04/30/2011
areas                                      the Board                 review




                                                                                                5
